<html>
<title> - UNITED STATES CYBERSECURITY POLICY AND THREATS</title>
<body><pre>[Senate Hearing 114-398]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-398

             UNITED STATES CYBERSECURITY POLICY AND THREATS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2015

                               __________

         Printed for the use of the Committee on Armed Services




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






        Available via the World Wide Web: http://www.fdsys.gov/

                            ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-270 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  
















                            C O N T E N T S

                               __________

                           september 29, 2015

                                                                   Page

United States Cybersecurity Policy and Threats...................     1
Clapper, Hon. James R., Director of National Intelligence........     5
Work, Hon. Robert O., Deputy Secretary of Defense................    16
Rogers, Admiral Michael S., USN, Commander, U.S. Cyber Command; 
  Director, National Security Agency; Chief, Central Security 
  Services.......................................................    23

Questions for the Record.........................................    61

                                 (iii)
 
             UNITED STATES CYBERSECURITY POLICY AND THREATS

                              ----------                              


                      TUESDAY, SEPTEMBER 29, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee Members Present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Reed, Nelson, McCaskill, Manchin, 
Gillibrand, Donnelly, Hirono, Kaine, King, and Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The committee meets today to 
receive testimony from Deputy Security of Defense Robert Work, 
Director of National Intelligence James Clapper, and Admiral 
Mike Rogers, the Commander of U.S. Cyber Command, Director of 
the National Security Agency, and Chief of the Central Security 
Service. We thank each of the witnesses for their service and 
for appearing before the committee.
    We meet at a critical time for the defense of our Nation 
from cyberattacks. In just the past year, we all know the 
United States has been attacked by cyberspace--in cyberspace by 
Iran, North Korea, China, and Russia. Indeed, since our last 
cyber hearing in March, the attacks have only increased, 
crippling or severely disrupting networks across the government 
and private sector, and compromising sensitive national 
security information.
    Recent attacks against the Joint Chiefs of Staff, the 
Pentagon, and the Office of Personnel Management are just the 
latest examples of the growing boldness of our adversaries in 
their desire to push the limits of acceptable behavior in 
cyberspace. New intrusions, breaches, and hacks are occurring 
daily. The trends are getting worse. But, it seems the 
administration has still not mounted an adequate response. They 
say they will, quote, ``respond at the time and manner of our 
choosing,'' unquote, but then either take no action or pursue 
largely symbolic responses that have zero impact on our 
adversaries' behavior.
    Not surprisingly, the attacks continue, our adversaries 
steal, delete, and manipulate our data at will, gaining a 
competitive economic edge and improving their military 
capability. They demonstrate their own means to attack our 
critical infrastructure. And they do all of this at a time and 
manner of their choosing. More and more, they are even leaving 
behind what Admiral Rogers recently referred to as, quote, 
``cyber fingerprints,'' showing that they feel confident that 
they can attack us with impunity and without significant 
consequences.
    Just consider the recent case with China. After much hand-
wringing, it appears the President will not impose sanctions in 
response to China's efforts to steal intellectual property, 
pillage the designs of our critical weapon systems, and wage 
economic espionage against U.S. companies. Instead, last week's 
state visit for the President of China simply amounted to more 
vague commitments not to conduct or knowingly support cyber-
enabled theft of intellectual property.
    What's worse, the White House has chosen to reward China 
with diplomatic discussions about establishing norms of 
behavior that are favorable to both China and Russia. Any 
internationally agreed-upon rules of the road in cyberspace 
must explicitly recognize the right of self- defense, as 
contained in Article 51 of the U.N. Charter, along with 
meaningful human rights and intellectual property rights 
protections. The administration should not concede this point 
to autocratic regimes that seek to distort core principles of 
the international order, to our detriment.
    Make no mistake, we are not winning the fight in 
cyberspace. Our adversaries view our response to malicious 
cyberactivity as timid and ineffectual. Put simply, the problem 
is a lack of deterrence. As Admiral Rogers has previously 
testified, the administration has not demonstrated to our 
adversaries that the consequences of continued cyberattacks 
against us outweigh the benefit. Until this happens, the 
attacks will continue, and our national security interests will 
suffer.
    Establishing cyberdeterrence requires a strategy to defend, 
deter, and aggressively respond to the challenges to our 
national security in cyberspace. That is exactly what the 
Congress required in the Fiscal Year 2014 National Defense 
Authorization Act. That strategy is now over a year late, and 
counting. And, while the Department of Defense's 2015 
cyberstrategy is a big improvement over previous such efforts, 
it still does not integrate the ends, ways, and means to deter 
attacks in cyberspace.
    Establishing of cyberdeterrence also requires robust 
capabilities, both offensive and defensive, that can pose a 
credible threat to our adversaries, a goal on which the 
Congress, and specifically this committee, remains actively 
engaged.
    The good news here is that significant progress has been 
made over the past few years in developing our cyberforce. That 
force will conclude--will include a mix of professionals 
trained to defend the Nation against cyberattacks, to support 
the geographic combatant commands in meeting their objectives, 
and to defend DOD networks. This is good. But, the vast 
majority of our DOD resources have gone toward shoring up our 
cyberdefenses. Far more needs to be done to develop the 
necessary capabilities to deter attacks, fight, and win in 
cyberspace. Policy indecision should not become an impediment 
to capability development.
    We do not develop weapons because we want to use them. We 
develop them so as we do not have to. And yet, in the 
cyberdomain, as Admiral Rogers testified in March, quote, 
``We're at a tipping point.'' He said, quote, ``We've got to 
broaden our capabilities to provide policymakers and 
operational commanders with a broader range of options.'' We 
must invest more in the offensive capabilities that our 
cybermission teams need to win on the cyber battlefield. The 
fiscal year 2016 NDAA [National Defense Authorization Act] 
seeks to address this challenge in a number of ways, including 
a pilot program to provide the Commander of Cyber Command with 
limited rapid acquisition authorities.
    Finally, we know the Defense Department is in the process 
of assessing whether the existing combatant command structure 
adequately addresses the mission of cyberwarfare, and whether 
to elevate Cyber Command to a unified command. There are 
worthwhile arguments on both sides of this debate. I look 
forward to hearing Admiral Rogers' views on this question and 
his assessment of how an elevation of Cyber Command might 
enhance our overall cyberdefense posture.
    I also look forward to hearing from our witnesses what, if 
any, progress has been made on addressing disagreements within 
the interagency on the delegation and exercise of authority to 
use cyber capabilities.
    I thank the witnesses again for appearing before the 
committee. I look forward to their testimony.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman. And let me 
commend you for scheduling this very important hearing. It's an 
appropriate to discuss a number of important cyber issues with 
our witnesses, especially in light of the cyber agreements 
announced last Friday between President Obama and the President 
of China.
    I want to thank Director Clapper, Deputy Security Work, and 
Cyber Command Commander Admiral Rogers for their testimony 
today and for their service to the Nation. Thank you, 
gentlemen, very much.
    Let me start with a series of cyber agreements with China. 
The apparent commitment by China to cease stealing United 
States intellectual property for their economic gain is 
notable. And I expect we will have a robust discussion about 
China's compliance and our course of action if it does not. 
China's leaders must be aware that its reputation and standing 
in the eyes of the American people will continue to decline if 
this piracy does not stop, which ultimately will have a 
tremendously negative impact on our relations with China.
    I would also emphasize potential importance of China 
embracing a set of international norms in cyberspace developed 
by the United Nations which includes a commitment to refrain 
from attacks on other nations' critical infrastructure.
    Next, I would highlight that we are facing the recurring 
issue of whether or when to elevate Cyber Command from a sub-
unified command to a full unified command, and whether to 
sustain the current dual-hat arrangement under which the 
Commander of Cyber Command also serves as the Director of the 
NSA [National Security Agency]. I understand that the 
Department may be nearing a recommendation to the President 
that the next unified command plan elevate Cyber Command to a 
unified command.
    The committee, in the past, has questioned whether Cyber 
Command is mature enough to warrant elevation to a unified 
command, and whether the dual-hat arrangement should continue 
when a decision is made to elevate the Command. Put simply, if 
Cyber Command is so reliant on NSA that common leadership is 
still necessary, is the Command ready to stand on its own as a 
unified combatant command? This is an issue that Senator McCain 
has drawn attention to, and it's something that I think is very 
critical, going forward, for this committee.
    Directly related to that question of the maturity of Cyber 
Command is the status of the military cyber mission units that 
the Department only began fielding over the last 2 years. 
Commendably, the Department is meeting its schedule for 
standing up these units with trained personnel; but, by its own 
admission, the equipment, tools, and capabilities of these 
forces will remain limited. Indeed, the committee's proposed 
FY16 National Defense Authorization Act includes a mandate that 
the Secretary of Defense designate executive agents from among 
the services to build a so-called ``unified platform,'' 
persistent training environment, and command-and-control 
systems that are necessary for these forces to operate 
effectively. It will take a number of years to build these--
capability.
    We are behind in developing these military capabilities for 
our cyber forces because the Defense Department was persuaded 
that the systems and capabilities that NSA already has would be 
adequate and appropriate for use by Cyber Command. This is an 
important example of an assumed critical dependency on NSA and 
an assumed commonality between intelligence operations and 
military operations in cyberspace that, in some cases, has 
turned out to be inaccurate.
    For a number of years, this committee has been urging the 
executive branch to work diligently to identify all practical 
methods to deter malicious actions in cyberspace and to 
articulate a strategy for implementing them. Some believe that 
retaliation in kind in cyberspace is a necessary and effective 
component of such a strategy. I look forward to hearing the 
views of our witnesses on this matter.
    As my colleagues and our witnesses are well aware, the 
Senate went into recess for the August break having reached an 
agreement for bringing the cyber information-sharing bill to 
the floor for debate. I know the Chairman is in full agreement 
on the need to debate, amend, and pass that legislation this 
year in the interest of national security, and so am I.
    We must also recognize the Defense Department and 
intelligence community are not operating alone to protect 
America's cyber infrastructure, most notably rely on the 
Department of Homeland Security for protection of America's 
critical infrastructure. The use of overseas contingency 
operations funding to avoid the Budget Control Act caps in 
defense does nothing to help the DHS [Department of Homeland 
Security] or other nondefense partners avoid the effects of 
sequestration. This is yet another argument for why we need a 
comprehensive solution to the problem of sequestration.
    Finally, I think it is important that we hear from our 
witnesses on the subject of encryption. Post-Snowden, U.S. 
technology companies fearful of losing business at home and 
abroad are encrypting communications and offering encryption 
services for which even the companies themselves have no 
technical capability to unlock. FBI Director Comey has given 
multiple speeches warning the law enforcement agencies and 
intelligence agencies that they will be going dark, with 
serious consequences for public safety and national security.
    These and other questions, gentlemen, are vitally 
important. And I look forward to your testimony.
    Chairman McCain. I thank the witnesses.
    Director Clapper, I've tried to impress on members of this 
committee to show deference to old age, and so we'd like to 
begin with you.

   STATEMENT OF HON. JAMES R. CLAPPER, DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Director Clapper. Chairman McCain, Ranking Member Reed, 
members of the committee, when I testified on the intelligence 
community's worldwide threat assessment at the end of February, 
cyberthreats again led our annual threat report for the third 
year in a row. We're here today to respond to the several 
requests in your invitation letter, and I will focus on an 
overview of cyberthreats, briefly, that face our Nation, and 
their attendant national security implications. And then 
Secretary Work, Admiral Rogers will follow, as well.
    We will, as you understand, perhaps run into some 
classified aspects that we won't be able to discuss as fully in 
this open televised hearing.
    I do want to take note of and thank the members of the 
committee who are engaged on this issue and have spoken to it 
publicly, as the two of you just have.
    So, by way of overview, cyberthreats to the U.S. national 
and economic security are increasing in frequency, scale, 
sophistication, and severity of impact. Although we must be 
prepared for a large, Armageddon-scale strike that would 
debilitate the entire U.S. infrastructure, that is not, we 
believe, the most likely scenario. Our primary concern now is 
low- to moderate-level cyberattacks from a variety of sources 
which will continue and probably expand. This imposes 
increasing costs to our business, to U.S. economic 
competitiveness, and to national security.
    Because of our heavy dependence on the Internet, nearly all 
information, communication technologies, and IT networks and 
systems will be perpetually at risk. These weaknesses provide 
an array of possibilities for nefarious activity by cyberthreat 
actors, including remote hacking instructions, supply-chain 
operations to insert compromised hardware or software, 
malicious actions by insiders, and simple human mistakes by 
system users.
    These cyberthreats come from a range of actors, including 
nation-states, which fall into two broad categories, those with 
highly sophisticated cyberprograms, most notably Russia and 
China, are our peer competitors, and those with lesser 
technical capabilities, but more nefarious intent, such as Iran 
and North Korea, who are also more--but who are also much more 
aggressive and unpredictable. Then there are non-nation-state 
entities--criminals motivated by profit, hackers or extremists 
motivated by ideology.
    Profit-motivated cybercriminals rely on loosely networked 
online marketplaces, often referred to as the ``cyber 
underground'' or ``dark web,'' that provide a forum for the 
merchandising of illicit tools, services, and infrastructure 
and stolen personal information and financial data. The most 
significant financial cybercriminal threats to U.S. entities 
and our international partners come from a relatively small 
subset of actors, facilitators, and criminal forums.
    And terrorist groups will continue to experiment with 
hacking, which could serve as the foundation for developing 
more advanced capabilities.
    Cyber espionage criminal and terrorist entities all 
undermine data confidentiality. Denial-of-service operations 
and data-deletion attacks undermine availability. And, in the 
future, I think we'll see more cyberoperations that will change 
or manipulate electronic information to compromise its 
integrity. In other words, compromise its accuracy and 
reliability instead of deleting it or disrupting access to it.
    As illustrated so dramatically with the OPM [Office of 
Personnel Management] breaches, counterintelligence risks are 
inherent when foreign intelligence agencies obtain access to an 
individual's identity information--of course, a problem that 
the Department of Defense has encountered. Foreign intelligence 
agencies or nonstate entities could target the individual, 
family members, coworkers, and neighbors, using a variety of 
physical and electronic methods, for extortion or recruiting 
purposes.
    And speaking of the OPM breaches, let me say a couple of 
words about attribution. It is not a simple process, involves 
at least three related but distinct determinations: the 
geographic point of origin, the identity of the actual 
perpetrator doing the keystrokes, and the responsibility for 
directing the act. In the case of OPM, we have differing 
degrees of confidence in our assessment of the actual 
responsibility for each of these three elements.
    Such malicious cyberactivity will continue and probably 
accelerate until we establish and demonstrate the capability to 
deter malicious state-sponsored cyberactivity. And establishing 
a credible deterrent depends on reaching agreement on norms of 
cyberbehavior by the international community.
    So, in summary, the cyberthreats to U.S. national and 
economic security have become increasingly diverse, 
sophisticated, and harmful. There are a variety of Federal 
entities that work the cyber problem in DHS, FBI, NSA, and 
other law enforcement, intelligence, and sector-specific 
agencies, like Treasury and Energy. Every day, each of these 
centers and entities get better at what they do individually. I 
believe now we've reached the point where we think it's time to 
knit together all the intelligence these separate activities 
need to defend our networks, because, while these entities may 
be defending different networks, they are often defending 
against the same threats. So, that's one reason the President 
directed me to form a small center to integrate cyberthreat 
intelligence. And I strongly believe the time's come for the 
creation of such a center to parallel the centers that we 
operate for counterterrorism, counterproliferation, and 
counterintelligence and security.
    With that, let me turn to Deputy Security Work.
    [The prepared statement of Director Clapper follows:]
     
     
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
     
      
      

 STATEMENT OF HON. ROBERT O. WORK, DEPUTY SECRETARY OF DEFENSE

    Mr. Work. Chairman McCain, Ranking Member Reed, 
distinguished members of the committee, thank you very much for 
inviting us here this morning to talk about the threats of 
cyber. This committee has led the way in discussing the threats 
and the response to these threats, and the Department looks 
forward to working with the committee to get better in this 
regard.
    As the DNI [Director of National Intelligence] Clapper has 
said, cyberintrusions and attacks by both state and nonstate 
actors have increased dramatically in recent years, and 
particularly troubling are the increased frequency and scale of 
state-sponsored cyberactors breaching U.S. Government and 
business networks. These adversaries continually adapt and 
evolve in response to our cyber countermeasures, threatening 
our networks and systems of the Department of Defense, our 
Nations' critical infrastructure, and U.S. companies and 
interests globally.
    The recent spate of cyberevents, to include the intrusions 
into OPM, the attacks on Sony, and the Joint Staff networks by 
three separate state actors, is not just espionage of 
convenience, but a threat to our national security. As one of 
our responses to this growing threat, we released, in 2015, the 
DOD [Department of Defense] Cyber Strategy, which will guide 
the development of our cyberforces and strengthen our 
cybersecurity and cyberdeterrence posture. That is its aim.
    The Department is pushing hard to achieve the Department's 
three core missions as defined in the strategy. The first and 
absolutely most important mission is to defend DOD network 
systems and information. Secretary Carter has made this the 
number-one priority in the Department, and we are really 
getting after it now. Second, to defend the Nation against 
cyberevents of significant consequence. And third, to provide 
cybersupport to operational and contingency plans. And, in this 
regard, the U.S. Cyber Command may be directed to conduct 
cyberoperations, in coordination with other government 
agencies, as appropriate, to deter or defeat strategic threats 
in other domains.
    Now, my submitted statement, Mr. Chairman, contains 
additional detail on how we're moving out to achieve these 
three strategic goals, but I'd like to highlight the particular 
focus on deterrence, especially since I know this is key in the 
minds of most of the members here.
    I want to up--acknowledge, up front, that the Secretary and 
I recognize that we are not where we need to be in our 
deterrent posture. We do believe that there are some things the 
Department is doing that are working, but we need to improve in 
this area, without question. And that's why we've revised our 
cyberstrategy.
    Deterrence is a function of perception. It works by 
convincing any potential adversary that the costs of conducting 
the attack far outweigh any potential benefits. And therefore, 
our three main pillars of our cyberdeterrence strategy, in 
terms of deterrence, are denial, resilience, and cost 
imposition. Denial means preventing the cyberadversary from 
achieving the--his objectives. Resilience is ensuring that our 
systems will continue to perform their essential military 
tasks, even when they are contested in the cyber environment. 
And cost imposition is our ability to make our adversaries pay 
a much higher price for their malicious activities than they 
hoped for.
    I'd like to briefly discuss these three elements:
    To deny the attacker the ability to adversely impact our 
military missions, we have to better defend our own information 
networks and data. And we think the investments we have made in 
these capabilities are starting to bear fruit. But, we 
recognize that technical upgrades are only part of the 
solution. Nearly every single one of the successful network 
exploitations that we have had to deal with can be traced to 
one or more human errors which allowed entry into our network. 
So, raising the level of individual cybersecurity awareness and 
performance is absolutely paramount. Accordingly, we're working 
to transform our cybersecurity culture, something that we 
ignored for a long time, by--the long term, by improving human 
performance and accountability in this regard.
    As part of this effort, we have just recently published a 
cybersecurity discipline implementation plan and a scorecard 
that is brought before the Secretary and me every month. And 
they are critical to achieving this goal of securing our data 
and our networks and mitigating risk to DOD missions. This 
scorecard holds commanders accountable for hardening and 
protecting their end points and critical systems, and also have 
them hold accountable their personnel, and directs, as I said, 
the compliance reporting to the Secretary and me on a monthly 
basis. The first scorecard was published in August of this 
year, and it is being added to and improved as we go.
    Denial also means defending the Nation against cyberthreats 
of significant consequence. The President has directed DOD, 
working in partnership with our other agencies, to be prepared 
to blunt and stop the most dangerous cyberevents. There may be 
times where the President and the Secretary of Defense directs 
DOD and others to conduct a defensive cyberoperation to stop a 
cyberattack from impacting our national interests, and that 
means building and maintaining the capabilities to do that--
just that.
    This is a challenging mission requiring high-end 
capabilities and extremely high-trained teams. We're building 
our cyber mission force and deepening our partnership with law 
enforcement and the intelligence community to do that.
    The second principle is improving resiliency by reducing 
the ability of our adversaries to attack us through cyberspace 
and protecting our ability to execute missions in a degraded 
cyber environment. Our adversaries' view DOD cyber dependency 
as a potential wartime vulnerability. Therefore, we view our 
ability to fight through cyberattacks as a critical mission 
function. That means normalizing cybersecurity as part of our 
mission assurance efforts, building redundancy whenever our 
systems are vulnerable, training constantly to operate in a 
contested cyber environment. Our adversaries have to see that 
these cyberattacks will not provide them a significant 
operational advantage.
    And the third aspect of deterrence is having the 
demonstrated capability to respond, through cyber or noncyber 
means, to impose costs on a potential adversary. The 
administration has made clear that we will respond to 
cyberattacks in a time, manner, and place of our choosing. And 
the Department has developed cyber options to hold aggressor at 
risk in cyberspace, if required.
    Successfully executing our missions requires a whole- of-
government and whole-of-nation approach. And, for that reason, 
DOD continues to work with our partners and the other Federal 
departments and agencies and the private sector and our 
partners around the world to address the shared challenges we 
face.
    Secretary Carter has placed particular emphasis on 
partnering with the private sector. The Department doesn't have 
all of the answers and is working with industry. We think it 
will be very, very critical.
    Finally, our relationship with Congress is absolutely 
critical. The Secretary and I very much appreciate the support 
provided to DOD cyberactivities throughout, from the very 
beginning, and we understand, and we are looking forward to the 
National Defense Authorization Act to see if there are other 
improvements that we have--we can do.
    I encourage continued efforts to pass legislation on 
cybersecurity information-sharing--we think that is absolutely 
critical--data breach notification, and law enforcement 
provisions related to cybersecurity, which were included in the 
President's legislative proposal submitted earlier this year.
    I know you agree that the American people expects us to 
defend the country against cyberthreats of significant 
consequence. The Secretary and I look forward to working with 
this committee and Congress to ensure we take every step 
possible to confront the substantial risks we face in the cyber 
realm.
    Thank you again for inviting us here today and giving the 
attention that you have always given to this urgent matter.
    I'd like to pass it off now to Admiral Rogers, if that's 
okay, Mr. Chairman.
    [The prepared statement of Mr. Work follows:]

                  Prepared Statement by Robert O. Work
    Chairman McCain, Ranking Member Reed, and members of the Committee, 
thank you for inviting me to discuss Department of Defense (DOD) 
efforts in cyberspace. The Department of Defense is currently 
implementing the DOD Cyber Strategy, published in April 2015, to 
improve our Nation's capabilities to conduct cyberspace operations and 
deter potential adversaries from engaging in malicious cyber activity 
against the United States.
         cybersecurity risks to dod networks and infrastructure
    Cyber intrusions and attacks have increased dramatically over the 
last decade, exposing sensitive personal and business information, 
disrupting government and business activities, and imposing significant 
costs to the U.S. economy. State and non-state actors are conducting 
cyber operations, expanding their capabilities and targeting the public 
and private networks of the United States, our allies, and partners. 
These cyber threats continue to increase and evolve, posing greater 
risks to the networks and systems of the Department of Defense, our 
Nation's critical infrastructure, and U.S. companies and interests 
globally.
    External actors probe and scan DOD networks for vulnerabilities 
millions of times each day and foreign intelligence agencies 
continually attempt to infiltrate DOD networks. Unfortunately, some 
incursions--by both state and non-state entities--have succeeded. The 
intrusion into the Office of Personnel Management security clearance 
systems compromised the personal information of millions of U.S. 
Government employees, their families, and their associates. In recent 
years, there have been several notable cyber intrusions on DOD 
networks, to include the Joint Staff intrusion, and interception of DOD 
data not residing on DOD networks, e.g. the TRANSCOM and OPM 
intrusions.
    Cyberattacks also pose a serious risk to networks and systems of 
critical infrastructure. The Department of Defense relies on U.S. 
critical infrastructure, as well as the critical infrastructure of our 
international partners, to perform its current and future missions. 
Intrusions into that infrastructure may provide access for malicious 
cyber actors who wish to disrupt critical systems in a time of crisis. 
Because of the potentially severe consequences, DOD is working with our 
partners in the interagency, private sector, and international 
community to ensure these systems are better protected and more 
resilient.
    At DOD we are also increasingly concerned about the cyber threat to 
companies in our Defense Industrial Base. We have seen an unacceptable 
loss of intellectual property and sensitive DOD information that 
resides on or transits Defense Industrial Base unclassified systems. 
This loss of key intellectual property has the potential to damage our 
national security as well as impede economic growth by eroding U.S. 
technical superiority.
                             cyber threats
    Malicious actors are also targeting U.S. companies. At the end of 
last year, North Korean actors attacked Sony Pictures Entertainment in 
the most destructive cyberattack against a U.S. company to date. North 
Korea destroyed many of Sony's computer systems, released personal and 
proprietary information on the Internet, and subsequently threatened 
physical violence in retaliation for releasing a film of which the 
regime disapproves. The President stated that the United States will 
pursue an appropriate response to the incident--which he said would be 
reserved for a time, place, and manner of his choosing. To date the 
United States has publicly attributed the attack to the North Korean 
government, and in January 2015 the President signed new sanctions 
Executive Order in response to North Korea's provocative, 
destabilizing, and repressive actions and policies.
    North Korea isn't our only adversary that has engaged in 
cyberattacks. Iran has also conducted cyberattacks against private 
sector targets to support its economic and foreign policy objectives, 
at times concurrent with political crises. Iranian actors have been 
implicated in the 2012-13 DDOS attacks against US financial 
institutions and in the February 2014 cyberattack on the Las Vegas 
Sands casino company. Iran very likely views its cyber program as one 
of many tools for carrying out asymmetric but proportional retaliation 
against political foes, as well as a sophisticated means of collecting 
intelligence.
    Chinese cyber espionage continues to target a broad spectrum of US 
interests, ranging from national security information to sensitive 
economic data and US intellectual property. Although China is an 
advanced cyber actor in terms of capabilities, Chinese hackers are 
often able to gain access to their targets without having to resort to 
using advanced capabilities. Improved US cybersecurity would complicate 
Chinese cyber espionage activities by addressing the less sophisticated 
threats, and raising the cost and risk if China persists.
    Russia's Ministry of Defense is establishing its own cyber command, 
which--according to senior Russian military officials--will be 
responsible for conducting offensive cyber activities, including 
propaganda operations and inserting malware into enemy command and 
control systems. Russia's armed forces are also establishing a 
specialized branch for computer network operations. Computer security 
studies assert that Russian cyber actors are developing means to 
remotely access industrial control systems (ICS) used to manage 
critical infrastructures. Unknown Russian actors successfully 
compromised the product supply chains of at least three ICS vendors so 
that customers downloaded malicious software (malware) designed to 
facilitate exploitation directly from the vendors' websites along with 
legitimate software updates, according to private sector cyber security 
experts.
    Non-state actors also continue to be very active in conducting 
malicious cyber activities. Terrorist groups, including ISIL, 
experiment with hacking which could serve as the foundation for 
developing more advanced capabilities. Terrorist sympathizers conduct 
low level cyberattacks on behalf of terrorist groups and attract 
attention of the media, which might exaggerate the capabilities and 
threat posed by these actors. With respect to ISIL, since last summer, 
the group began executing a highly strategic social media campaign 
using a diverse array of platforms and thousands of online supporters 
around the globe.
    Profit motivated cyber criminals continue to successfully 
compromise the networks of retail businesses and financial institutions 
in order to collect financial information, biographical data, home 
addresses, email addresses, and medical records that serve as the 
building blocks to criminal operations that facilitate identity theft 
and fraud. These criminals rely on loosely networked online 
marketplaces, often referred to as the cyber underground, that provide 
a forum for the merchandising of illicit tools, vulnerabilities, 
services, infrastructure, stolen personal identifying information, and 
financial data.
    The combination of these diverse cyber threats results in a complex 
and challenging threat environment. To conduct a disruptive or 
destructive cyber operation against a military or industrial control 
system requires expertise, but a potential adversary need not spend 
millions of dollars to develop an offensive capability. A nation-state, 
non-state group, or individual actor can purchase destructive malware 
and other capabilities through the online marketplaces created by cyber 
criminals, or through other black markets. As cyber capabilities become 
more readily available over time, the Department of Defense assesses 
that state and non-state actors will continue to seek and develop 
malicious cyber capabilities to use against U.S. interests.
                          dod's cyber strategy
    In response to the growing cybersecurity threats and to guide the 
Department's efforts to defend our Nation against cyberattacks of 
significant consequence, we developed the 2015 DOD Cyber Strategy. Our 
new cyber strategy, the Department's second, guides the development of 
DOD's cyber forces and strengthens our cybersecurity and cyber 
deterrence posture.
    The strategy focuses on building cyber capabilities and 
organizations for DOD's three primary cyber missions: to defend DOD 
networks, systems, and information; defend the Nation against 
cyberattacks of significant consequence; and provide cyber support to 
operational and contingency plans. To accomplish these missions, the 
strategy sets five strategic goals:

    1.  Build and maintain ready forces and capabilities to conduct 
cyberspace operations;
    2.  Defend the DOD information network, secure DOD data, and 
mitigate risks to DOD missions;
    3.  Be prepared to defend the U.S. homeland and U.S. vital 
interests from disruptive or destructive cyberattacks of significant 
consequence;
    4.  Build and maintain viable cyber options and plan to use those 
options to control conflict escalation and to shape the conflict 
environment at all stages; and,
    5.  Build and maintain robust international alliances and 
partnerships to deter shared threats and increase international 
security and stability.

    In support of these goals, we are building the Cyber Mission Force, 
training it to conduct full-spectrum cyberspace operations, and 
equipping it with the tools and infrastructure it needs to succeed. 
This force is composed of four types of teams: 68 Cyber Protection 
Teams to defend priority DOD networks and systems against significant 
threats; 13 National Mission Teams to defend the United States and its 
interests against cyberattacks of significant consequence; 27 Combat 
Mission Teams to provide support to Combatant Commands by generating 
integrated cyberspace effects in support of operational plans and 
contingency operations; and 25 Support Teams to provide analytic and 
planning support to the National Mission and Combat Mission Teams. Once 
fully manned, trained, and equipped in Fiscal Year 2018, these 133 
teams will execute DOD's three primary missions with nearly 6,200 
military and civilian personnel. However, many of these developing 
teams are already adding significant cyberspace capabilities to DOD 
now, as they actively conduct critical ongoing missions while building 
their operational capacity.
    As we continue to strengthen the Cyber Mission Force, we recognize 
the need to incorporate the strengths and skills inherent within our 
Reserve and National Guard forces. Each Service, therefore, has 
developed Reserve Component integration strategies that provide a total 
force cyber capability and leverage the Reserve and National Guard 
strengths from their experience in the private sector. Up to 2,000 
Reserve and National Guard personnel will also support the Cyber 
Mission Force by allowing DOD to surge cyber forces in a crisis.
    As Secretary Carter has stated, the development of a cadre of cyber 
experts--both in and out of uniform--is essential to the future 
effectiveness of U.S. cyber capabilities, and we are committed to 
ensuring that the workforce for the cyber domain is world class. To 
that end, we must develop and retain a workforce of highly skilled 
cybersecurity specialists with a range of operational and intelligence 
skill sets. This cyber workforce must include the most talented experts 
in both the uniformed and civilian workforce, as well as a close 
partnership with the private sector.
    The Department is taking a hard look at barriers and challenges to 
recruitment, retention, employment, compensation, promotion, and career 
progression for DOD's cyberspace workforce. We are developing 
recommendations that could provide the Department, USCYBERCOM, and the 
Service Cyber Components with the workforce management authorities and 
flexibilities that would strongly enable the successful execution of 
their cyberspace missions and responsibilities. Section 1104 of the 
National Defense Authorization Act currently under conference is a 
vitally important step to help DOD attract, hire, and retain a world 
class cyber workforce.
    The Department is aggressively implementing our Cyber Strategy 
across all three missions and five goals. We have developed detailed 
outcomes, milestones, timelines, and metrics for each objective in the 
DOD Cyber Strategy. Additionally, in accordance with Section 932 of the 
Fiscal Year 2014 National Defense Authorization Act, we have 
established a cross-functional, interdepartmental team to support the 
Principal Cyber Advisor to oversee its execution, coordinating with all 
DOD stakeholders, and proactively addressing potential obstacles. As we 
implement the strategy, we are also taking a number of steps to improve 
budgeting and accounting for the Cyber Mission Force across the 
Department and appreciate your continued support on these issues.
                               deterrence
    Deterrence is a key mission for the Cyber Mission Force in the new 
DOD Cyber Strategy. Deterrence is a function of perception; it works by 
convincing a potential adversary that the costs of conducting an attack 
outweigh any potential benefits. DOD needs the ability to deter or 
prevent disruptive and destructive cyberattacks, preempt an imminent 
cyberattack, halt an ongoing cyberattack, and respond to cyberattacks. 
To do that, DOD must develop on-the-shelf capabilities that could have 
the ability to affect an adversary's behavior by shaping the 
environment, controlling escalation, and imposing costs. Additionally, 
we must strengthen our overall resilience posture so that DOD networks 
and systems can continue to operate even while under attack. Denial, 
resilience, and response are key components to a holistic deterrence 
strategy, expanding well past just the cyber domain.
                                 denial
    First, as a part of our strategy we must increase our denial 
capabilities to tilt any adversaries' cost-benefit analysis in our 
favor. To deny an attack from adversely affecting our military 
missions, we must first defend our own information, networks, data, and 
systems. We are focused on two aspects of denial: strengthening DOD's 
cybersecurity; and defending the nation against cyberattacks of 
significant consequence.
    As Secretary Carter has said, the first of our three missions is to 
defend our own information networks, data, and systems. Without secure 
systems, we cannot do any of our missions. So, the DOD is working to 
implement best in class technical solutions. We are standardizing our 
boundary defenses under the Joint Information Environment, providing 
linkages from our intelligence capabilities for early warning, while 
including state of the art commercial technologies to create 
comprehensive capabilities across the cyber kill chain and enable 
dependable mission execution in the face of highly capable cyber 
adversaries. As a foundational element to achieve this, we are globally 
deploying the Joint Regional Security Stacks (JRSS) to significantly 
reduce the avenues of attack into our unclassified and classified 
networks, support advanced threat analytics and improve responsiveness 
to attack. This will allow increased security and visibility, ensuring 
that commanders can see and respond to threats in order to determine 
risk to mission. The Department has also embarked on a new scorecard 
system that will hold commanders accountable for hardening and 
protecting their endpoints and critical systems. However, we also 
recognize that technical upgrades and organizational changes are only 
part of the solution when it comes to effective cybersecurity. Nearly 
all successful network exploitations can be traced to one or more human 
errors, so raising the level of individual human performance in 
cybersecurity will provide us with tremendous leverage in defending DOD 
networks. Accordingly, we are closely considering how we can transform 
DOD cybersecurity culture for the long term by improving human 
performance and accountability.
    The President has directed DOD to work in partnership with other 
agencies to be prepared to blunt and stop the most dangerous attacks 
from succeeding. There may be times when the President or the Secretary 
of Defense may direct DOD and others to conduct a defensive cyber 
operation to stop a cyberattack from impacting our national interests. 
This is DOD's mission: to defend the nation against cyberattacks of 
significant consequence--which may include loss of life, destruction of 
property, or significant foreign and economic policy consequences. It 
means building and maintaining capabilities to prevent or stop a 
potential cyberattack from achieving its effect.
    This is a challenging mission. It requires high-end capabilities 
and highly trained teams. We are building our Cyber National Mission 
Force and deepening our partnerships with law enforcement and the 
intelligence community to do it.
                               resilience
    Improving DOD's resilience will reduce the incentive for 
adversaries to attack us through cyberspace and protect our ability to 
execute missions in a degraded cyber environment. This means 
normalizing cybersecurity as part of our mission assurance efforts, 
building redundancy wherever our systems are vulnerable, and training 
constantly to operate in a contested cyber environment. To deter our 
adversaries, they must see that cyber-attacks will not provide them 
with significant operational advantage.
    DOD also relies on civilian and international infrastructure to 
execute its missions. We partner with the interagency, the private 
sector, and other countries to ensure the cybersecurity and resilience 
of the critical infrastructure on which we all rely. Organizations 
across the country are beginning to recognize the importance of 
resilient systems. IT companies and critical infrastructure owners and 
operators are driving market supply and demand towards more secure IT 
products and services, and that is great news.
                                response
    Finally, in the event of a potential cyberattack on U.S. interests, 
the United States must be able to respond through cyber or non-cyber 
means to impose costs on a potential adversary. Throughout this 
Administration, we have made clear that the United States will respond 
to cyberattacks in a time, manner, and place of our choosing.
    Therefore a key objective of the DOD Cyber Strategy is to develop 
cyber options to hold an aggressor at risk in cyberspace if required. 
To support our deterrence posture, DOD is investing significantly in 
our Cyber Mission Force, including robust intelligence and warning 
capabilities to better identify malicious actors' tactics, techniques, 
and procedures in order to improve attribution in cyberspace. These 
attribution capabilities have increased significantly in recent years, 
and we continue to work closely with the intelligence and law 
enforcement communities to maintain and continue to improve them 
through intelligence collection and forensics.
    But in many instances, non-cyber capabilities may provide a more 
appropriate or effective response. The Administration reviews the whole 
range of options, such as diplomatic engagement, network defense and 
law enforcement measures, economic or financial sanctions, or even the 
use of kinetic capabilities. Responses will be selected on a case by 
case basis, and be conducted consistent with law.
                      building strong partnerships
    Successfully executing our missions in cyberspace requires a whole-
of-government and whole-of-nation approach. DOD continues to work with 
our partners in other federal Departments and agencies, the private 
sector, and countries around the world to address the shared challenges 
we face. We work particularly closely with our partners in the 
Department of Homeland Security and Department of Justice to ensure 
collaboration in cyber operations and information sharing across the 
federal government, and we have seen tremendous advancement in our 
ability to work as a single, unified team.
    We also work closely with our partners and allies to ensure that we 
maintain a strong collective defense against cyber threats. Through 
cooperation, shared warning, capacity building, and joint training 
activities, international engagement provides opportunities for an 
exchange of information and ideas to strengthen our cybersecurity as 
well as that of our allies and partners. Our partners are increasingly 
prioritizing cybersecurity as a key national security issue, creating 
opportunities and new areas for cooperation. We cooperate with, and 
assist, a wide range of partners.
    Additionally, Secretary Carter has placed a particular emphasis on 
partnering with the private sector. We need to be more creative in 
finding ways to leverage the private sector's unique capabilities and 
innovative technologies. The Department does not have all the answers, 
and working with industry will be critical to we remain at the cutting 
edge of technology to protect our nation. We are examining ways to 
expand our collaboration with industry and are developing incentives 
and pathways to bring more cyber expertise into the Department.
    Finally, our relationship with Congress is absolutely critical. As 
the President has said many times, Congressional action is vital to 
addressing cyber threats. I appreciate the support provided for DOD 
cyber activities throughout the 2016 National Defense Authorization 
Act. And, I encourage continued efforts to pass legislation on 
cybersecurity information sharing, data breach notification, and law 
enforcement provisions related to cybersecurity, which were included in 
the President's legislative proposal submitted earlier this year.
                               conclusion
    It is my job is to make sure that our strategy is effectively 
implemented across the Department, and ensure that DOD is moving 
forward coherently and comprehensively in performing its assigned 
cybersecurity roles. The American people expect us to defend the 
country against cyber threats of significant consequence, and I look 
forward to working with this Committee and the Congress to ensure we 
continue to take every step necessary to confront the substantial 
cybersecurity risks we face. Thank you, again, for the attention you 
are giving to this urgent matter. I look forward to your questions.

 STATEMENT OF ADMIRAL MICHAEL S. ROGERS, USN, COMMANDER, U.S. 
   CYBER COMMAND; DIRECTOR, NATIONAL SECURITY AGENCY; CHIEF, 
                   CENTRAL SECURITY SERVICES

    Admiral Rogers. Chairman McCain, Ranking Member Reed, and 
distinguished members of the committee, I am honored to appear 
before you today to discuss U.S. cyber policy and the state of 
cyberthreats worldwide. I'd like to thank you for convening 
this forum and for your efforts in this important area.
    I'm also honored to be sitting alongside Director Clapper 
and Deputy Secretary of Defense Work.
    It gives me great pride to appear before you data--today to 
highlight and commend the accomplishments of the uniformed and 
civilian personnel of U.S. Cyber Command. I'm both grateful for 
and humbled by the opportunity I have been given to lead our 
cyber team in the important work they do in the defense of our 
Nation and our Department.
    We are being challenged as never before to defend our 
Nation's interests and values in cyberspace against states, 
groups, and individuals that are using sophisticated 
capabilities to conduct cybercoercion, cyberaggression, and 
cyberexploitation. The targets of their efforts extend well 
beyond government and into privately-owned businesses and 
personally identifiable information. Our military is in 
constant contact with agile, learning adversaries in 
cyberspace, adversaries that have shown the capacity and the 
willingness to take action against soft targets in the United 
States.
    There are countries that are integrating cyberoperations 
into a total strategic concept for advancing their regional 
ambitions. They use cyberoperations both to influence the 
perceptions and actions of states around them and to shape what 
we see as our options for supporting allies and friends in a 
crisis. We need to deter these activities by showing that they 
are unacceptable, unprofitable, and risky for the instigators.
    U.S. Cyber Command is building capabilities that can 
contribute to cross-domain deterrence, and thus, make our 
commitments even more credible. We are hardening our networks 
and showing an opponent cyberaggression won't be easy. We are 
creating the mission force, trained and ready like any other 
maneuver element that is defending DOD networks, supporting 
joint force commanders, and helping to defend critical 
infrastructure within our Nation. We are partnering with 
Federal, foreign, and industry partners, and exercising 
together regularly to rehearse concepts and responses to 
destructive cyberattacks against critical infrastructures. We 
are generating options for commanders and policymakers across 
all phases of the conflict, and particularly in phase zero, to 
hold at risk what our adversaries truly value.
    The demand for our cyberforces far outstrip supply, but we 
continue to rapidly mature, based on real-world experiences and 
the hard work of the men and women of U.S. Cyber Command and 
our service cybercomponents, as well as our broader partners.
    I'd like to assure the committee that U.S. Cyber Command 
has made measurable progress. We are achieving significant 
operational outcomes, and we have a clear path ahead.
    With that, thank you again, Mr. Chairman and members of the 
committee, for convening this forum, inviting all of us to 
speak. Our progress has been made possible in no small part 
because of the support from this committee and other 
stakeholders. Unity of effort within our Department and across 
the U.S. Government in this mission set is essential. And I 
appreciate our continued partnership as we build our Nation's 
cyberdefenses. And I welcome your questions.
    [The prepared statement of Admiral Rogers follows:]

            prepared statement by admiral michael s. rogers
    Chairman McCain, Ranking Member Reed, and distinguished members of 
the Committee, thank you for the opportunity to speak to you today 
about the implementation of our military strategy in cyberspace. It is 
an honor to appear today beside Director James Clapper and Deputy 
Secretary of Defense Robert Work as well. Let me also mention the great 
and justified pride I take in the privilege of speaking on behalf of 
the men and women of United States Cyber Command (USCYBERCOM) and the 
vital work they undertake to defend our nation. Their efforts, guided 
by the new DOD Cyber Strategy and supported by the indispensable 
contributions of the National Security Agency (which I also head), are 
improving our cyber security with the Department of Defense (DOD) and 
our ability to generate a greater range of options with cyber to 
support policy makers and operational commands. All of this helps keep 
our fellow citizens safe and advance our national interest overseas.
    In line with the DOD Cyber Strategy, USCYBERCOM and its components 
perform three primary missions. First, we are responsible for securing, 
operating, and defending Department of Defense systems and networks, 
which are fundamental to the execution of all Department of Defense 
missions. Second, the Department of Defense and the nation rely on us 
to build ready cyber forces and to prepare to conduct cyber operations 
to deter or defeat strategic threats to the nation. Third, we work with 
the Combatant Commands to integrate cyber operations into broader 
military missions. Our military is already engaged in cyberspace. 
Potential adversaries scan DOD networks for vulnerabilities millions of 
times daily. As we have repeatedly seen, vulnerability in one place can 
be a weakness across an entire network and systems built as 
``administrative'' networks are now on the front lines of our 
operations. This reality has serious implications for our nation's 
security, as well as for our military.
    We are at a strategic inflection point where the great promise and 
opportunity offered by cyberspace innovation has also made it easier 
for potential adversaries to find vulnerabilities that they can use to 
threaten us. The DOD Cyber Strategy seeks to generate and align a 
multi-faceted effort within the Department against an unprecedented and 
growing challenge. In announcing the Strategy last April, Secretary 
Carter noted that threats are proliferating and diversifying. Digital 
tools in cyberspace give adversaries cheap and ready means of doing 
something that until recently only one or two states could afford to 
do: that is, to reach beyond the battlefield capabilities of the U.S. 
military. They have demonstrated the capacity to hold ``at risk'' our 
military and even civilian infrastructure. In lay terms, that means 
that decades of military investment is now imperiled, because as 
Secretary Carter says, our forces depend on the functioning of our 
military networks and combat systems, without which they, and we, are 
far less effective in all domains.
    How do we know this, and what does it mean? Recent events have made 
this trend clear, and we know it because of our intelligence analysis. 
We have recently seen Russian and Chinese-sponsored intrusions in 
United States information systems--penetrations that were designed to 
(and in some cases did) gain persistent presence in the targeted 
networks. And of course, no one missed the North Korean attack on Sony 
Pictures Entertainment last year, when a state turned its cyber 
capabilities against a private U.S. corporation, stealing its 
intellectual property, damaging its property, disrupting its 
operations, invading the privacy of its employees and affiliates, and 
threatening its customers and suppliers. We have also observed that 
energy firms and public utilities in many nations (including the United 
States) have had their networks compromised by state cyber actors.
    Secretary Carter has also noted the risk of miscalculation and 
escalation resulting from malicious cyber actions, and Deputy Secretary 
of Defense Work recently told an audience in London that conventional 
deterrence is eroding to a worrisome degree. Addressing that risk in 
the cyberspace domain is the point of the DOD Cyber Strategy--to 
defend, and show we can defend, and thus to preserve the effectiveness 
of our ``traditional'' instruments of national power. Let me illustrate 
one important way in which we are implementing this strategy, with a 
quick historical detour for context.
                          preparing to respond
    Our military has found ways to adapt to new technologies, 
strategies, and tactics in the past. For instance, we exercised the U.S 
Army in Louisiana in April 1940 and learned that the sort of trench 
warfare that had dominated battlefields in the last World War had 
subsequently been overtaken by events--or more precisely, by tanks, 
dive bombers, and mobile infantry, all coordinated by radio. The Fall 
of France to the German blitzkrieg barely two months later showed what 
happened to nations that failed to heed recent advances in military 
art--a German force with fewer tanks and guns routed the French and 
British armies in just six weeks. Our War Department incorporated this 
lesson and returned to Louisiana in the summer of 1941 to test its new 
concepts. This time the U.S. Army, augmented by National Guard 
formations, ran two maneuvers, ultimately involving half a million 
troops. The first phase showed that the blitzkrieg could indeed be 
stopped, and the second showed that our Army could mount a blitzkrieg 
of its own. Those extended exercises gave us invaluable experience, 
prompting changes to doctrine, weapons, and concepts.
    The Louisiana Maneuvers could not foreordain victory in World War 
II, of course, but they helped prepare our military for a new and 
global conflict by giving officers and soldiers the opportunity and 
latitude to experiment and even fail at employing new weapons, tactics, 
and modes of operation. Those maneuvers also drove home the point of 
the experimentation: to practice being agile, not just defending but 
being ready and able to go on the offensive and hit back, taking the 
fight to the opponent. That is just the sort of experimentation we must 
continue doing today. Then-Army Chief of Staff George C. Marshall was 
questioned about the expense of such large maneuvers by a Senator who 
also pointed out that the exercises had witnessed a lot of mistakes by 
the forces involved. Marshall characteristically responded respectfully 
but firmly: ``I want the mistake [made] down in Louisiana, not in 
Europe.'' Discovery learning in the midst of real-world operations, as 
the British and French experienced in 1940, can be disastrous. The DOD 
Cyber Strategy is intended to enable us to learn in peacetime how to 
succeed in cyberspace operations under all conditions. Today we have 
``lessons learned'' instead of mistakes, of course, and we are doing so 
in Virginia, where last summer we staged for the fourth time our large, 
annual exercise that we call CYBER GUARD.
    We inaugurated the CYBER GUARD exercise series to test the ``whole 
of nation'' response to a major cyber incident affecting the DODIN and 
U.S. critical infrastructure. USCYBERCOM offices work with experts from 
the Joint Staff and the joint cyber headquarters elements, Cyber 
Mission Force teams, U.S. Northern Command, National Guard, the 
Department of Homeland Security (DHS), the Federal Bureau of 
Investigation (FBI), state governments, allies, and the private sector. 
Our defenders battle in the exercise networks against a world class 
``opposing force'' to make this nearly three-week event as realistic as 
possible. The idea is to train our forces to operate as they would in 
an actual cyber crisis--i.e., against live opposition and alongside the 
federal, state, allied, and industry partners who would also have 
authorities and equities in such an event. Over a thousand 
participants, including representatives from critical infrastructure 
partners and National Guard teams from 16 states, practice how to 
collectively protect the nation along with DOD networks. Participants 
from the Department of Defense practice lending appropriate support to 
civil authorities, and doing so on a complex exercise network that 
takes months to fine tune in advance of CYBER GUARD.
    This latest iteration of CYBER GUARD was the largest and most 
realistic yet. Participants got to ``maneuver'' in cyberspace--seeking 
to see, block, and ultimately expel from the network adept opponents 
who had the advantages of knowing what they wanted to take (or break) 
and who swiftly learned their way around ``our'' systems. Our defenders 
thus experienced some of the fast-paced uncertainty of a real cyber 
campaign, when major decisions have to be made on the fly without the 
benefit of full insight into the adversary's intentions and 
capabilities. Players at CYBER GUARD fought through a relentless pace 
of events and learned that they have to trust each other for their 
efforts to mesh together and prove effective. To build that trust, 
moreover, there is no substitute for the sharing of both their 
information and experiences. Exercises like CYBER GUARD not only teach 
commanders and units how to see, block, and maneuver in cyberspace, 
they teach our Soldiers, Sailors, Airmen, and Marines to be teammates, 
both with one another and with colleagues in other parts of the federal 
government and private sector who we work beside to make cybersecurity 
effective.
    CYBER GUARD showed us ways to improve our exercising of the total 
force and also highlighted areas where our attention is needed. This 
will sound familiar to many Members here assembled. I raise them to 
provide you with an accurate picture of the challenges in building 
capability and operating in the dynamic cyberspace domain.
    A good analogy here is to the way our military has developed 
special operations forces. Our special operations forces are as good as 
any in the world, as we have seen over the last decade and more. Few 
people realize, however, what it takes for a special operations team in 
the field to execute a mission. They have an intensive need for 
critical enablers. This is the case for any maneuver element, and cyber 
teams are no exception. We have through CYBER GUARD and other exercises 
and operations a host of mission critical requirements that we are 
actively acquiring, building, or seeking. The Department and the 
government are reviewing the scope of authority for our cyber forces, 
including command and control relationships, manpower guidance, and 
development authorities to acquire the specialized tools and service we 
require. We are training cyber warriors and educating cyber 
professionals, both in the Service schoolhouses and in tailored 
settings. We are building out the Cyber Mission Force teams, aligning 
them to missions, customizing their intelligence support, assigning 
them to commanders, and assessing their readiness (indeed, CYBER GUARD 
served as a certification event for several teams; among them were 
teams deployed on real-world missions just weeks later). Across the 
cyber workforce we are setting the right mix of military and civilian 
personnel, and working to harmonize the several civilian hiring and 
career systems that take care of our people who work under parallel but 
not always equivalent institutional templates.
    In particular, we are building a dedicated, persistent training 
environment, like DOD utilizes in each of the other domains. Let me 
explain what it is that we are doing. CYBER GUARD took place in Joint 
Staff facilities in Suffolk, Virginia, giving us the opportunity to 
practice in a controlled but more or less realistic cyber environment 
that we did not have to set up ourselves and then tear down after the 
exercise finished. Nonetheless, this was not the same as exercising in 
an environment specifically designed to mimic conditions on the 
Internet and the real world of cyberspace, where industry partners, for 
instance, are independently taking steps (such as updating malware 
signatures and even outing cyber actors) to defend their own systems. 
While we defend DOD networks, of course, we are helping our federal 
partners to guard US Government systems as well. We need greater 
realism to reflect this reality in our training. With the help of the 
DOD Central Information Officer and others, we are now building out and 
testing a new exercise environment and working on interagency exercises 
and testing environments with partners including DHS.
    Last but not least is our requirement for vital cyber 
infrastructure improvements to operate DOD systems safely even under 
attack. I have explained our need for the Unified Platform and the 
Joint Information Environment in previous hearings, but I will 
reiterate how important they are to the defense of DOD's systems and 
our ability to operate and deliver effects outside the United States. 
These improvements are the future, for they represent a revolutionary 
and much-needed change to the Department of Defense Information 
Networks (DODIN). In addition, though information sharing alone is not 
a silver bullet, it is critical that the government and private sector 
be able to share information that will enhance the situational 
awareness we need to protect our nation and its interests. I am 
encouraged by the work that has gone into cybersecurity information 
sharing legislation in both the House and the Senate. But it is 
imperative that we finish that work and pass a cybersecurity 
information sharing bill as soon as possible. Cyber criminals are not 
waiting to steal intellectual property or financial data, so neither 
should Congress wait to pass this important legislation. These steps 
are needed to ensure that cyber remains a strategic asset, not a 
liability, at this strategic inflection point.
                  implementing the dod cyber strategy
    Recall Secretary Carter's earlier point: if we cannot defend the 
infrastructure that undergirds our DOD bases and forces from foreign-
based cyber threats, then our nation's military capabilities are 
weakened and all our instruments of national power diminished. That 
leaves our leaders with a need for additional options to pursue short 
of open hostilities, and with fewer capabilities in an actual clash of 
arms. This raises risk for all by inviting instability and 
miscalculation, as the Secretary noted.
    Our nation has peer competitors in cyberspace, with other nations 
and groups also striving to deploy advanced cyber capabilities. They do 
not match our entrepreneurial elan, our manufacturing skill, or our 
deep investment in the theory and machinery of cyberspace. Yet they 
have already hinted that they hold the power to cripple our 
infrastructure and set back our standard of living if they choose. They 
know, of course, that we can hit back, and that potentially devastating 
cyberattacks against U.S. interests would ripple across the global 
economy. But they could well count on deterring us in a regional 
crisis, making our leaders hesitate and muffle American responses to 
aggression overseas. Such delays could give them time to continue their 
encroachments, attain their objectives, and consolidate their gains.
    We need to understand the systemic-level implications of what is 
happening. We are, in effect, being strategically shaped by potential 
adversaries. They also feel entitled to turn the resources of their 
states against private business, research labs, academic institutions, 
and even individual citizens in the West to steal the fruits of our 
creativity, or negatively impact the enjoyment of human rights and 
fundamental freedoms, including the freedom of expression.
    This context adds the sense of urgency we feel at USCYBERCOM and 
across the Department of Defense. How do we prevent potential 
adversaries from shaping us and deterring our defense of America's 
interests and allies? We know that the DOD Cyber Strategy gained the 
attention of countries overseas--this enhances deterrence right here. 
But that is only one step of many. We need to take several more steps 
as we implement that Strategy.
    First, we have to continue the whole-of-government coordination 
that makes our words and actions far more meaningful to potential 
adversaries. As Secretary Carter stated in announcing the DOD Cyber 
Strategy, we need synchronized inter-agency measures to bring all the 
powers and authorities of the U.S. Government to bear on malicious 
cyber actors. Individual sanctions, indictments and other steps are 
effective tools, but they might not be sufficient by themselves because 
potential adversaries believe they have too much to gain from continued 
cyber-enabled theft of our intellectual property and continued 
intimidation of their neighbors through cyberspace (among other 
mechanisms, of course).
    Second, we must deepen our partnerships. Organizations across the 
U.S. Government must create consistent, complementary approaches for 
operating with private sector and international partners--leveraging 
the comparative advantages of civilian, homeland security, law 
enforcement, intelligence community, and military entities. Many 
departments and agencies share the authorities and responsibilities to 
guard critical infrastructure in the United States, and we look to DHS' 
Industrial Control Systems Computer Emergency Readiness Team (ICS-CERT) 
for information-sharing, incident response and mitigation. We as a 
nation need to enhance governing policies and legal frameworks to 
enable a robust defense of the defense industrial base and other 
sectors of our critical infrastructure. This could include efforts 
across the Government to identify and manage risks to our critical 
infrastructure and key resources in the near term, while transitioning 
from a reactive to a deterrent posture over the long term.
    Finally, we must forge a consensus on when we can and should 
respond to cyber activity directed against the United States. Such a 
consensus should clarify the proper role of the military in a whole-of-
nation approach to improving our security in the cyberspace domain. The 
President has stated that we reserve the right to respond with all 
instruments of national power to cyberattacks against our critical 
infrastructure. Here is where we particularly need to build trust in 
the ability of the U.S. Government--on the civilian and military 
sides--to exercise its powers and capabilities responsibly to defend 
the nation, consistent with international law and norms. I see my job 
in this entailing an effort to better explain certain concepts like 
``offensive cyber operations'' and the Cyber Mission Force. I welcome 
your ideas on this.
                               conclusion
    Thank you again, Mr. Chairman and Members of the Committee, for 
inviting me to speak on behalf of USCYBERCOM about the vital topic of 
cyberspace strategy. Our Command is helping the Department and the 
federal government mitigate risk while unleashing the promise and 
opportunity inherent in cyberspace in ways consistent with our values 
as a nation. As you can tell from the foregoing, I take pride in the 
accomplishments of our men and women. I know they will give their all 
in executing our Command's missions and in forging cyber forces that 
offer our nation's leaders a full suite of options in cyberspace and 
beyond. With their great efforts and your continued support, I know we 
can be positioned for success, despite the seriousness of the current 
situation. There is no single technical or engineering fix alone that 
is going to solve these challenges, but instead we will require a great 
deal of the fortitude, creativity, and determination that we Americans 
have repeatedly shown we can muster. I look forward to your questions 
and to advancing this important dialogue.

    Chairman McCain. Well, thank you, Admiral. And thank the 
witnesses.
    Director Clapper, recently former Chairman of the Joint 
Chiefs Dempsey was asked about various threats to the United 
States security, and he said that, in a whole range of threats, 
we have a significant advantage, except in cyber. Do you agree 
with that assessment?
    Director Clapper. It's probably true. We haven't, I guess, 
exhibited what our potential capability there is, so I think 
that's one of the implicit reasons why I have highlighted 
cyberthreats in the last three years of my worldwide threat 
assessments.
    Chairman McCain. I thank you. And you have done that, I 
think, at least great effect before this committee. As a result 
of the leader--the Chinese leader in Washington, there was some 
agreement announced between the United States and China. Do you 
believe that that will result in a elimination of Chinese 
cyberattacks?
    Director Clapper. Well, hope springs eternal.
    Chairman McCain. Yeah.
    [Laughter.]
    Director Clapper. I think we will have to watch what their 
behavior is, and it will be incumbent on the intelligence 
community, I think, to depict--portray to our policymakers what 
behavioral changes, if any, result from this agreement.
    Chairman McCain. Are you optimistic?
    Director Clapper. No.
    Chairman McCain. Thank you.
    Admiral Rogers, you recently stated, quote, ``There's a 
perception,'' there is, quote, ``little price to pay for 
engaging in some pretty aggressive behaviors, and, because of a 
lack of repercussions, you see actors, nation-states, indeed, 
willing to do more.'' And that was what you stated. What is 
required? What action is required to deter these attacks, since 
there's little price to pay? What do we have to do to make it a 
heavy price to pay?
    Admiral Rogers. So, I think we have to clearly articular, 
in broad terms, what is acceptable and unacceptable, norms, if 
you will, of behavior. I think we have to clearly articulate 
that, as a nation, we are developing a set of capabilities, we 
are prepared to use those capabilities if they're required. 
They're not necessarily our preference. We clearly want to 
engage in a dialogue with those around us. But, on the other 
hand, we do have to acknowledge the current situation we find 
ourselves in. I don't think there's anyone who would agree that 
it is acceptable and that it is in our best long-term interest 
as a Nation.
    Chairman McCain. Well, I say with respect, I understand 
it's not acceptable, but, in other words, what would enact a 
price? Would it be relations in other areas? Would it be 
counterattacks? What--in other words, what actions would be in 
our range of arsenals to respond?
    Admiral Rogers. So, I think it's potentially all of those 
things. The first comment I would make, I think Sony is a very 
instructive example. One of the things I always remind people 
of, we need to think about deterrence much more broadly, not 
just focus within the cyber arena. I thought the response to 
Sony, where we, for example, talked about the economic options 
as a Nation we would exercise, was a good way to remind the 
world around us that there's a broad set of capabilities and 
levers that are available to us as a Nation, and that we're 
prepared to do more than just respond in kind, if you will.
    Chairman McCain. One of the--Director Clapper, one of the 
things that's been disappointing to the committee is that, in 
the fiscal year defense authorization bill, as you know, it 
required the President to develop an integrated policy. The 
strategy is now a year late. Can you tell us where we are in 
that process and what you feel is--what might bring the 
administration in compliance?
    Director Clapper. You're asking me about policy 
development?
    Senator Reed. Yes.
    Director Clapper. I think I would defer to Secretary Work 
on that.
    Mr. Work. Well, Mr. Chairman, as we have said over an over, 
we believe our cyberdeterrence strategy is constantly evolving 
and getting stronger.
    Chairman McCain. I'm talking about a policy, not a 
strategy, Mr. Secretary. It required a policy, the Fiscal Year 
'14 National Defense Authorization Act.
    Mr. Work. The policy is still in development. We believe we 
have a good cyberstrategy. The policy has been outlined in 
broad strokes by the----
    Chairman McCain. Not broad enough, I would think. Does it 
describe what our--whether we deter or whether we respond or 
whether we--in other words, as far as I know and the committee 
knows, that there has been no specific policy articulated in 
compliance with the requirement to--in the Defense 
Authorization Act. If you believe that it has, I would be very 
interested in hearing how it has.
    Mr. Work. I believe the broad strokes are, we will respond 
to----
    Chairman McCain. I'm not asking broad strokes. Suppose 
there is an attack--a cyberattack like the one on OPM. Do we 
have a policy as to what we do?
    Mr. Work. Yes, we do.
    Chairman McCain. And what is that?
    Mr. Work. The first is to try--first, we deny and then we 
would--we first find out--we do the forensics----
    Chairman McCain. I'm not asking the methodology. I'm asking 
the policy. Do you respond by counterattacking? Do you respond 
by trying to enact other measures? What do we do in case of a 
cyberattack?
    Mr. Work. We respond in a time, manner, and place of our 
choosing.
    Chairman McCain. Does that mean that we counterattack?
    Mr. Work. That may be one of the options. It's as----
    Chairman McCain. That's not a policy, Secretary Work. That 
is a--that is an exercise in options. We have not got a policy. 
And for you to sit there and tell me that you do, ``a broad-
stroke strategy,'' frankly, is not in compliance with the law.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Director Clapper, we are constantly engaged in, 
euphemistically, information operations with many other 
nations, and they're involved with information operations, 
trying to, as you indicated in your testimony, influence the 
opinion, disguise activities, disrupt, et cetera. What agencies 
are--under your purview or outside your purview, are actively 
engaged in information operations to the United States in the 
cyberworld?
    Director Clapper. Actually, sir, in--from an intelligence 
perspective, we would feed that, in that we don't, at last in 
what I can speak to publicly, engage in that as a part of our 
normal intelligence activity. So, we feed other arms, support 
other arms of the government, not only the State Department and 
those responsible for messaging.
    Senator Reed. Right.
    Director Clapper. The National Counterterrorism Center has 
an office that is devoted to, in a countering-violent- 
extremism context, helping to develop themes or recommending 
themes based on what we glean from intelligence as--for 
potential vulnerabilities and messages that would appear to 
various groups, to obfuscate the message, disrupt it, or 
compete with it. But, generally speaking, intelligence, writ 
large, doesn't actively engage in information operations.
    Senator Reed. From your perspective, are these other 
agencies that you provide information to adequately resourced 
and staffed so they can use it effectively, or are they getting 
a lot of good insights and sitting around wondering what they 
can do----
    Director Clapper. If I were king, which I am not, I think I 
would have a much more robust capability from the standpoint of 
the resource commitment to countermessaging.
    Senator Reed. And that would fall with--outside the purview 
of intelligence, more the State Department and some other 
agencies.
    Director Clapper. Correct.
    Senator Reed. And I think we're all going to remember the 
Voice of America, when it was a--you know, a pretty dominant 
sort of--source of information.
    Director Clapper. Well, personal opinion only, not company 
policy, I would, I think perhaps, you know, a USIA on steroids 
that would address these messages more broadly and more 
robustly. But, that's strictly personal opinion.
    Senator Reed. But, I think, in terms of what you're 
observing, particularly some of our competitors have a--
extraordinarily robust operation. They don't lack for resources 
or personnel, and they're constantly engaged in these types of 
information operations--enhancing their image, discrediting 
their opponents, actively engaging local groups in other 
countries of interest, et cetera--and we're sort of on the 
sidelines more.
    Director Clapper. I think that's quite right. And our--in 
contrast to us, the Russian intelligence services are very 
active and very aggressively engaged in messaging.
    Senator Reed. Thank you.
    Admiral Rogers, to this issue of encryption that Director 
Comey pointed to, I think your thoughts would be very helpful.
    Admiral Rogers. So, the issue that we find ourselves--this 
is less for me, on the U.S. Cyber Command side and much more on 
the NSA side--is--communications in the world around us 
increasingly going to end-to-end encryption, where every aspect 
of the path is encrypted, and the data and the communication is 
protected at a level that, with the current state of 
technology, is difficult to overcome. Clearly, that's in the 
best interests of the Nation, in broad terms. And strong 
encryption is important to a strong Internet defense, and a 
well-defended Internet is in our best interests as a Nation and 
the world's best interests.
    Within that broad framework, though, the challenge we're 
trying to figure out is--realizing that that communication path 
is used by very law-abiding citizens, nation-states, and 
companies engaged in lawful activity, it is also being used by 
criminals, terrorists, nation-states who would attempt to 
generate advantage against the United States and against our 
allies and partners. And so, we're trying to figure out, How do 
we balance these two important imperatives of privacy and 
security? And realizing that it's a technical world around us, 
and it's changing in a foundational way. And so, we're trying 
to come to grips, broadly, with, How do we deal with the 
reality of the technical world around us, and yet the broader 
legal and social imperatives we have?
    I'm the first to acknowledge we do not have a defined way 
ahead here. In the end, I think this is about, How do we get 
the best minds together as a nation to address this? Because, 
when I look at our capabilities as a nation, there is no 
problem we can't overcome when we work together in an 
integrated way to--in the private sector, industry, business, 
the academic world. I think that's the way ahead here, in broad 
terms.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Senator Inhofe is chairing an EPW Committee. That's why he 
couldn't be here today.
    You've given us a good summary on the threats that we face 
and the threats that are actually occurring today. And I 
appreciate that.
    Senator McCain asked you about reporting on other policy 
that Congress has asked you to report on, and that not having 
been done. Mr.--Secretary Work, in the 2014 NDAA, the Senate 
and House agreed on a provision that required the services to 
report on the cyber vulnerabilities of weapons and 
communication systems connected by networks. That's something 
that came out of our Strategic Subcommittee on a bipartisan 
basis, and was eventually expanded to include all weapon 
systems, not just satellites and missiles and national missile 
defense. We don't have that final report. I believe it's 
overdue. This budget, I believe, has 200 million in it to help 
fund this effort. What can you tell us about that?
    First, let me say, it may take some time. If it does, 
that's--I understand. But, I don't think we've had any report 
from the DOD to state that--what progress you've made and how 
much longer it will take.
    Mr. Work. Well, again, on both of the points--on the 
policy, we expect that is in the final deliberations. It's an 
interagency effort. You know, generally, trying to establish 
norms and deterrence is central to the policy. Again, it's the 
denial, resilience, and cost-imposition. I'm the first to admit 
that we are the farthest ahead on the denial and the resilience 
part. Those are the areas where we are moving faster. The cost-
imposition part, because we have elected to retain the 
retaliatory mechanism of cyberattacks at the national level, 
just like nuclear weapons, because of the risk of escalation--
--
    Senator Sessions. What about the----
    Mr. Work. As far as the--oh, I'm sorry, sir.
    Senator Sessions.--the other----
    Mr. Work. Yes, sir. As far as----
    Senator Sessions.--the vulnerabilities of our weapon 
systems?
    Mr. Work. It is a big, big problem. Most of the--many of 
the weapon systems that we have now were not built to withstand 
a concerted cyberthreat. So, going through every single one of 
the weapon systems, what Frank Kendall has done is, he's 
prioritized the weapon systems, and he is working through very 
carefully. And I expect this work to be done very soon. We now 
have new requirements in our KPPs, our key performance 
parameters----
    Senator Sessions. So, you have assigned a--an individual--
--
    Mr. Work. Absolutely.
    Senator Sessions.--to be responsible for this?
    Mr. Work. Yes. Frank Kendall is the one who is going 
through all of the different--working with, obviously, our CIO 
[Chief Information Officer], also the Cyber Command, and the--
all of our cyber experts. But, he's responsible for taking a 
look at the weapon systems and also requiring KPPs [Key 
Performance Parameter], key performance parameters, for new 
weapon systems so that, when we build them, they will have 
cyberdefenses built in from the beginning.
    Senator Sessions. What about our defense contractors, 
Admiral Rogers? They maintain and build these systems and have 
highly sensitive information. Are we satisfied they're 
sufficiently protected?
    Admiral Rogers. So, we certainly acknowledge there's a 
vulnerability there. We've been very public about our concerns 
about foreign nation-states trying to access some of our key 
operational technology through penetrations in the clear 
defense contract arena for us. We've made changes to the 
contractual relationships between us and those companies, where 
they have to meet minimum cybersecurity requirements, they have 
to inform us, now, of penetrations. We're clearly not where we 
need to be, but we continue to make progress.
    Senator Sessions. Well, I think it's a bipartisan 
commitment on Congress to help you with that.
    Secretary Work, if it takes more money, let us know. We'll 
have to evaluate it. And I also understand that some of the 
protections can be done without much cost; some may require 
considerable cost. So, we hope that you will complete that.
    Admiral Rogers, you, I believe, last week, reported, in the 
Los Angeles Times, about the threat from China. You note one 
thing, that they are involved in obtaining U.S. commercial and 
trade data in a foreign nation, advanced nation, ally of ours. 
I was told that they--one of their companies bid on a contract, 
and that the Chinese had got all the bid data from the Web. And 
his comment was, ``It's hard to win a bid when your competitor 
knows what you're bidding.''
    Admiral Rogers. Yes, it is.
    Senator Sessions. Is that kind of thing happening?
    Admiral Rogers. It has been. We've very--been very public 
of it. I think that's reflected in the agreement that you saw 
raised during the President of China's visit last week, where 
we were very explicit about that concern.
    Senator Sessions. Well, my time is up, but I would just 
ask----
    You're not allowed--if you saw an American business being 
damaged through improper action, you're not allowed to advise 
them or share any information with them, while our adversaries 
do assist their businesses. Is that basically correct?
    Admiral Rogers. The way this works right now is, I would 
provide information and insight both in my intelligence hat as 
the Director of NSA, as well as the Commander of U.S. Cyber 
Command. If, under that authority, I became aware of activity, 
I would share the insights with DHS and the FBI, who have a 
mission associated with interfacing with the private sector in 
a much more direct way than I do.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    And thank all three of you for your service and for being 
here today.
    Admiral Rogers, if--I'll start with you. Which country is 
the most committed, determined, and successful hacker of the 
U.S.?
    Admiral Rogers. Could you say that one more time, Senator?
    Senator Manchin. Which country do you believe is the most 
committed, successful hacker of the U.S.?
    Admiral Rogers. If you look at volume, nation- statewide--
nation-state-wides, I would--China, the PRC, has been the one 
that we've been the most vocal about. They're not the only one, 
by any stretch of the imagination.
    Senator Manchin. I thought the last time you were here you 
said that--I recall you saying that you had more concerns over 
Russia having more of the ability or the expertise to do us 
damage.
    Admiral Rogers. I thought your question was really focused 
more on volume. If your--if the perspective is capability, if 
you will, then we have been very public about saying I would 
probably put the Russians----
    Senator Manchin. Russians.
    Admiral Rogers.--in a higher capability.
    Senator Manchin. But, it seems like that China is more 
committed and determined to do it.
    Admiral Rogers. They certainly do it at a volume level----
    Senator Manchin. Gotcha. I understand.
    And, Director Clapper, if I may, I know that you just said 
no--emphatically no, you don't believe that this agreement that 
the President of China and our President has made last week 
will work. With that saying--what are the--is there any 
penalties in this agreement if one or the other violates it? Or 
is it just basically, well, we have agreed, and let it go at 
that?
    Director Clapper. The terms that I----
    Senator Manchin. As you understand it.
    Director Clapper. The terms that I have seen, I don't think 
it treats, specifically, penalties. There certainly are implied 
penalties. I think the threat of economic sanctions that--which 
brought Minister Mung to this country, I think is illustrative 
of what would mean something to the Chinese if they transgress 
or violate this agreement.
    And I think, as Admiral Rogers was discussing earlier, 
there--with respect to sanctions, there certainly whole- of-
government possibilities here. Don't have to do, necessarily, a 
cyber eye for an eye. It can be some other form of retaliation.
    But, I don't think--to answer your question, at least what 
I'm aware of--that there are specific penalties if the 
agreement is violated.
    Senator Manchin. And that's why I think you were pretty 
quick in saying you don't think it'll work. You said no to 
that, I think, when the Chairman asked you.
    Director Clapper. Well, the reason I said no, of course, 
is--the extent to which Chinese purloining of our data, our 
intellectual property, is pretty pervasive. I think there's a 
question about the extent to which the government actually 
orchestrates all of it, or not. So, I think we're in the--to 
model--to borrow a President Reagan term, ``trust but verify'' 
mode, at least as far as intelligence is concerned. And we are 
inherently skeptics.
    Mr. Work. Sir, could I add something?
    Senator Manchin. If I could--I have a question for you, 
Secretary, and then you can go ahead and add to that.
    There's a news--the recent news article that examined 
similarities between China's J-31 fighter and our F-35 strike 
finder and what they're been able to do in such a rapid period 
of time, without any R&D. Do you believe that that gives them a 
competitive advantage? I mean, you can--I understand there 
might be some differences as far as in the software or in the 
weaponry and this and that, but they're making leaps, which are 
uncommon, at the behest of us. And we know this, I understand, 
but we're not taking any actions against them.
    Mr. Work. Well, I'd like to work this in to your----
    Senator Manchin. Yes.
    Mr. Work.--and follow up with your----
    Senator Manchin. You go ahead.
    Mr. Work.--first question.
    At the highest levels, we have made it clear that we 
believe that Chinese actions in the cybersphere are totally 
unacceptable as a nation-state. And we made that clear in a 
wide variety of different ways. And I would characterize the 
agreement that we have as a confidence-building measure with 
the Chinese, where we are asking them to prove to us that they 
are serious about what they say about what they will do to 
control these efforts.
    So, we--there were really four things that we agreed to do. 
First, we would give timely responses to information when we 
say, ``Hey, we believe that there is a problem here"--and we 
have agreed to exchange information on cybercrimes, we have 
agreed to possibly collect electronic evidence and to mitigate 
malicious cyberactivity if it's occurring on our soil. We both 
agree that we would not knowingly conduct cyber-enabled theft 
of intellectual property, which, as you say, Senator, has been 
a problem. We have told them it's a problem, that it's 
unacceptable. They have said that they will work to curb that. 
Then we've agreed to have common effort to promote 
international norms. And the final thing is, we'll have a high-
level joint mechanism, where we can meet at least twice a year 
and say, ``Look, this is just not working. You are not coming 
through with what you've said.''
    So, this isn't a treaty or anything like that. It's a 
confidence-building measure for us to find out if China is 
going to act responsibly. I agree totally with Director 
Clapper. They've got to prove to us. And we know that they have 
stolen information from our defense contractors.
    Senator Manchin. Right.
    Mr. Work. And it has helped them develop systems. And we 
have hardened our systems through the Defense Industrial Base 
Initiative. And we're trying to make----
    Senator Manchin. But, I'm saying we know the J-20 is pretty 
much mirroring our F-22. We know that their J-31 is pretty much 
mirroring our F-35. When we know this and the cost to the 
American taxpayers, and let them get--I mean, why wouldn't we 
tale hard actions against them? Or why wouldn't we come down--I 
just don't understand why we wouldn't retaliate----
    Mr. Work. Well----
    Senator Manchin.--from a financial standpoint.
    Mr. Work. There are a wide variety of cost-imposition 
options that we have. They are developed through the 
interagency. And again, it's not necessarily kind--I mean, tit-
for-tat. It is proportional response. And we're working through 
all of those right now.
    Senator Manchin. My time is up, sir.
    And if I could just follow up on that later, if we can meet 
with you later, I'd----
    Mr. Work. Absolutely, sir.
    Senator Manchin.--very much appreciate it.
    Director Clapper. Senator, if I may just add a word here 
about--this is a point Admiral Rogers has made in the past 
about, you know, terminology, lexicon, nomenclature definitions 
are important. And so, what this represents, of course, is 
espionage--economic----
    Senator Manchin. Absolutely.
    Director Clapper.--cyber espionage. And, of course, we, 
too, practice, cyber espionage. You know, in a public forum to, 
you know, say how successful we are, but we're not bad at it. 
So, when we talk about, ``What are we going to do for--to 
counter espionage or punish somebody or retaliate for 
espionage,'' well, we--I think it's a good idea to at least 
think about the old saw about people who live in glass houses--
--
    Senator Manchin. Gotcha.
    Director Clapper.--shouldn't throw rocks.
    Chairman McCain. So, it's okay for them to steal our 
secrets that are most important----
    [Laughter.]
    Director Clapper. I didn't say that----
    Chairman McCain.--including our fighter, because----
    Director Clapper. I didn't say that, Senator.
    Chairman McCain.--because we live in a glass house. That is 
astounding.
    Senator Ayotte.
    Director Clapper. I did not say it's a good thing. I'm just 
saying that both nations engage in this.
    Senator Ayotte. I want to thank all of you for being here.
    With regard to the Chinese, I want to follow up on--we've 
talked about the stealing of the highest secrets, in terms of 
our weapon system, but what about the 21 million people whose 
background check and personal information has been, of course, 
associated publicly with the Chinese, and the fact that we know 
that 5 million sets of fingerprints, as well, leading to 
potential vulnerability for our citizens? And if you put that 
in the context of these other issues that we've raised, it 
seems to me--I looked very carefully, for example, Secretary 
Work, at some of the language you've been using. You gave a 
speech at the Royal United Services Institute in London. You 
said, ``Deterrence must be demonstrated to be effective.''
    Secretary Clapper, in your prepared statement, you said, 
``The muted response by most victims to cyberattacks has 
created a permissive environment.''
    So, I'm trying to figure out, based on what you've said, 
how we're not in a permissive environment, in light of what 
they've stolen on our weapon systems, but also this huge 
infringement on 21 million people in this country.
    And also, could you comment on the vulnerability of that 
data and where we are, in terms of how it could be used against 
us?
    Director Clapper. Well, first, that is an assessment of 
what was taken. We actually don't know, in terms of specific--
specifics. But, that's--I think frames the magnitude of this 
theft. And it is potentially very serious--has very serious 
implications, first, close to home, from the standpoint of the 
intelligence community and the potential for identifying people 
who may be under covered status, just one small example. And, 
of course, it poses all kinds of potential--and, unfortunately, 
this is a gift that's going to keep on giving for years.
    So, it's a very serious situation. What we've tried to do 
is educate people what to look for and how to protect 
themselves. But, again, this is a huge threat--theft, and it 
has, potentially, damaging implications for lots of people in 
the intelligence community and lots of people in the Department 
of Defense and other employees of the government.
    Senator Ayotte. So, I think what you're hearing from some 
of us up here is just a--"Now what are we going to do about 
it?'' is the issue, as opposed to a shared agreement on generic 
principles with the Chinese. This is a pretty significant issue 
that is going to impact millions of Americans. I'm not hearing 
what we're going to do about it, but that may be a higher-level 
decision, going up to the President. But, seems to me if we're 
going to talk about deterrence, if we don't follow up with 
action, and if you look at that, combined with the testimony we 
heard last week about the artificial islands being built by the 
Chinese, and the fact that we won't even go within, I believe 
it's 12 nautical miles of those islands--if you put that all 
from the Chinese perspective, I think you think, ``Hmmm, we can 
pretty much do what we want to do, because we haven't seen a 
response.''
    Now, I'm not asking for--from all of you--to answer that, 
because it probably needs to be answered by the President and 
his national security team, but it seems to me that they aren't 
seeing a response right now from us, and therefore, we're going 
to see--continue to see bad behavior from the Chinese.
    Before I go, I have an important question on another topic, 
Secretary Work, and that is: Yesterday, we heard public reports 
about a potential violation of the INF Treaty by the Russians, 
and that, essentially, Russia tested--flight tested a new 
ground-launched cruise missile this month that United States 
intelligence agencies say further violates the 1987 INF Treaty. 
And, of course, this is going back, also, to the reports, as 
early as 2008, of the--Russia conducting tests of another 
ground-launched cruise missile, in potential violation of the 
INF Treaty that we've raised with them. And, when Secretary 
Carter came before our committee, on his confirmation, he 
listed three potential responses to these INF violations. So, 
now we have the Russians violating the INF Treaty yet again. 
And I guess my question is: Secretary Carter rightly identified 
that we should respond, either through missile defense, 
counterforce, or countervailing measures. What are we doing 
about it?
    Mr. Work. Senator, this is a longstanding issue that we 
have been discussing with the Russians. The system that you're 
talking about is in development, it has not been fielded yet. 
We are--we have had different discussions with them on our 
perception of the violation of the INF, and they have come 
back. This is still in discussions, and we have not decided on 
any particular action at this point.
    Senator Ayotte. So, are you saying that you don't think 
they violated the INF Treaty?
    Mr. Work. We believe very strongly that they did.
    Senator Ayotte. That's what I thought. So, what are we 
going to do about it? Because they're claiming that they 
haven't, going back to the 2008 violations, and now here we 
have another situation.
    Mr. Work. It's still under--because they have not fielded 
the system, we are still in the midst of negotiating this 
position. We are giving ours. But, if they do field a system 
that violates the INF, I would expect us to take one of the 
three options that Secretary Carter outlined before the 
committee.
    Senator Ayotte. So, my time is up, but I see two consistent 
themes here, both with the Chinese and the Russian: a lot of 
talk, no action, unfortunately. And people take their cues from 
that. And that worries me.
    Thank you all.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Director Clapper, you testified before the House 
Intelligence Committee recently that the--while the United 
States makes distinctions between cyberattacks conducted for 
economic purposes or to gain foreign intelligence, I would--
that's the espionage arena, I think, that you're referring to--
or to cause damage, our adversaries do not. Would you consider 
the OPM breach, to the extent that we believe it is a state 
actor who did that, that that would be in the category of 
espionage?
    Director Clapper. Yes.
    Senator Hirono. The----
    Director Clapper. That was the tenor of the discussion at 
the HTSC hearing that Admiral Rogers and I engaged in. And, of 
course, that has to do with the--as I mentioned earlier to 
Senator Manchin, the importance of definition, nomenclature, 
and terms. So--and the definition of these terms--and so, 
what--the theft of the OPM data, as egregious as it was, we 
wouldn't necessarily consider it as an attack. Rather, it 
would----
    Senator Hirono. Yes.
    Director Clapper.--be a form of----
    Senator Hirono. Well, and----
    Director Clapper.--theft or espionage.
    Senator Hirono. And, as you say, other countries, including 
our own, engages in such activities.
    My understanding of the recent agreement between the United 
States and China, though, has to do with commercial cybertheft. 
And I think that's a very different category that has to do 
with obtaining information about corporations, et cetera. And 
therefore, that that is in the category of economic attacks. 
So, Director Clapper, would you consider that kind of an 
agreement to be helpful? I realize that you are skeptical, but, 
to the extent that we are defining a particular kind of 
cyberattack, and that we're contemplating, through this 
agreement, an ability of our two countries to engage in high-
level dialogue regarding these kinds of attacks, is that a 
helpful situation?
    Director Clapper. Well, it would be very helpful if, of 
course, the Chinese actually live up to what they agreed to. 
So, if--and what the agreement pertained to was theft of data 
for economic purposes to give Chinese commercial concerns an 
advantage, or their defense industries an advantage, as opposed 
to--I don't believe they--that we've agreed with the Chinese to 
stop spying on each other.
    Senator Hirono. Yes.
    Director Clapper. And so, there is a----
    Senator Hirono. The----
    Director Clapper.--for purely espionage purposes--and there 
is a distinction.
    Senator Hirono. Mr. Secretary, you can weigh on this also. 
To the extent that we've created an--a potential for a dialogue 
or an environment where there's a process to be followed, and 
the cases where we suspect commercial cyberattacks, that at 
least we have a way that we can talk to the Chinese. Because 
you also mentioned, Director Clapper, that attribution is not 
the easiest thing, although we are getting better at figuring 
out who actually were the actors who that did these 
cyberattacks. So, one hopes that, even with a great deal of 
skepticism, going forward, that this agreement may create the 
space for us to have a--more than a conversation, but one that 
would lead to some kind of a change in behavior on the part of 
these state actors.
    Mr. Secretary, feel free to give us your opinion.
    Mr. Work. Senator, I think that's exactly right. I mean, as 
Director Clapper said, first you have to find out the 
geographical location from the--where the attack came from. 
Then you have to identify the actor, and then you have to 
identify whether the government of that geographic space was 
either controlling----
    Senator Hirono. Recognize that's not the easiest to do, 
yes.
    Mr. Work. And what we have done is, we have confronted 
China, and China, in some cases, has said, ``Look, this was a 
hacker that was inside our country, but we had no control over 
him.'' What this allows us to do is say, ``Okay, well, what are 
you going to do about that? That's a cybercrime. Are you going 
to provide us the information we need to prosecute this person? 
Are you going to take care of it on your own?'' So, I believe 
this type of confidence-building measure and this way to 
discuss these things will--the proof will be in the pudding, 
how the Chinese react to this----
    Senator Hirono. Mr. Secretary, I think you mentioned that 
this particular agreement allows--contemplates meeting at least 
twice a year.
    Mr. Work. Yes.
    Senator Hirono. Is there anything that prevents more 
frequent dialogue between our two countries in suspected cases 
of commercial cyberattacks?
    Mr. Work. Senator, I believe, if there was a significant 
cyber event that we suspected the Chinese of doing or they 
suspected us, that we would be able to meet this. This is going 
to be a high-level joint dialogue. They'll--the Chinese will 
have it at the ministerial level. Our U.S. Secretary of 
Homeland Security and the U.S. Attorney General will co-lead on 
our part. We're going to have the first meeting of this group 
by the end of this calendar year, and then at least twice a 
year. So, I believe that, as Director Clapper is, I think all 
of us have some healthy skepticism about this, but I believe 
it's a good confidence-building measure and a good first step, 
and we will see if it leads to better behavior on the part of 
the Chinese.
    Senator Hirono. Thank you.
    Chairman McCain. Mr. Secretary, I can't help but comment. 
We have identified the PLA [People's Liberation Army], the 
building in which they operate. Now, please don't deceive this 
committee as if we don't know who's responsible for it. That's 
just very disingenuous. There have been public reports that 
we've identified the PLA building in which these cyberattacks 
come from.
    Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, gentlemen, for joining us today.
    Admiral Rogers, I'll start with you, sir.
    Admiral Rogers. Okay.
    Senator Ernst. Two of the President's nine lines of effort 
in defeating ISIL [Islamic State of Iraq and the Levant] are, 
first, exposing ISIS's [Islamic State of Iraq and Syria] true 
nature and, second, disrupting the foreign fighter flow. And, 
over the weekend, the New York Times reported that 30,000 
recruits joined ISIS over the past year, and that's double the 
previous recruitment year.
    Earlier this month in reference to ISIS recruiting, the 
State Department's Ambassador-at-Large and Coordinator for 
Counterterrorism said that ISIS's recruiting trend is still 
upward, and this information came of no surprise to her. The 
Ambassador also said the upward trend was primarily due to 
Internet and social media.
    So, sir, do you believe the administration's efforts have 
so far succeeded on these two lines of effort in cyberspace and 
social media? Just, please, simple yes or no.
    Admiral Rogers. No.
    Senator Ernst. Okay. In light of that, with the record 
recruiting numbers for ISIS, how would you then assess the 
effectiveness of the U.S. Government's counter-ISIS effort in 
cyberspace? So, what specifically is your assessment of the 
State Department's ``think again, turn away'' program in 
support of efforts to disrupt ISIS's online recruiting effort?
    Admiral Rogers. Senator, I'm not in a position to comment 
on State Department--the specifics of their program. I honestly 
am just not knowledgeable about it. I will say this, broadly, 
to get to, I think, your broader point. I have always believed 
that we must contest ISIL in the information domain every bit 
as aggressively as we are contesting them on the battlefield, 
that the information dynamic is an essential component of their 
vision, their strategy, and ultimately their success. And we 
have got to be willing to attempt to fight them in that domain, 
just like we are on the battlefield. And we clearly are not 
there yet.
    Senator Ernst. I agree. I think we are failing in this 
effort. And some of the programs that we have seen obviously 
are not working. So, are there areas in--where you could 
recommend how the U.S. Government better partner with various 
NGOs [non-governmental organizations] or private entities to 
more effectively counter the ISIS propaganda?
    Admiral Rogers. Again, the contesting-the-propaganda piece, 
much broader than Cyber Command's mission. I will say, from a 
technical and operational perspective, we, broadly within the 
DOD, Cyber Command, Strategic Command, and CENTCOM, are looking 
at, within our authorities, within our capabilities, what's 
with--in the realm of the possible, in terms of, What can we do 
to help contest them in this domain?
    Senator Ernst. Okay.
    We have a larger problem coming forward, too, in regards to 
ISIS and ISIL in the Middle East. We seem to see the emergence 
of a trifecta between Syria, Iran, and Russia. And now it seems 
that Iraq has begun information-sharing with Russia, with Iran, 
with Syria. Director Clapper, can you speak to that and the 
broader implications of Russia emerging as a leader in the 
Middle East while we seem to be frittering away our opportunity 
with ISIL?
    Director Clapper. Well, that's certainly their objective. I 
think they have several objectives, here, one of which is 
that--I think, protect their base, the--their presence in 
Syria, ergo their buildup in the northwest part of Syria; 
clearly want to prop up Assad; and, I think, a belated 
motivation for them is fighting ISIL.
    As far as the joint intelligence arrangement is concerned, 
I can't go into detail here in this forum, but I will say there 
are--each of the parties entering into this are a little bit 
suspicious of just what is entailed here, so we'll have to see 
just how robust a capability that actually provides.
    Senator Ernst. Okay, I appreciate that.
    And, Secretary Work, do you have any thoughts on the 
emergence of Russia with the intelligence-sharing, how that 
might impact the operations that we have ongoing in Iraq 
against ISIS?
    Mr. Work. Well, I think we were caught by surprise that 
Iraq entered into this agreement with Syria and Iran and 
Russia. Obviously, we are not going to share intelligence with 
either Syria or Russia or Iran. So, we are in the process--
our--we are in the process of working to try to find out 
exactly what Iraq has said. Certainly, we're not going to 
provide any classified information or information that would 
help those actors on the battlefield. Really what we're trying 
to do is deconflict, and that is the primary purpose of the 
discussion between President Obama and President Putin 
yesterday--is, ``If you are going to act on this battlefield, 
we have to deconflict.''
    The other thing we have made clear is--they would like to 
do a military first, followed by a political transition. We 
need--we believe those two things have to go in parallel, and 
that has been our consistent message. This is early days. We're 
still in the midst of discussing what exactly this means, so I 
don't have any definitive answers for you at this point, 
Senator.
    Senator Ernst. Well, I am very concerned that we have 
abdicated our role in the Middle East as--and in so many other 
areas, as has been pointed out earlier. Grave concern to all of 
us. And I think we need to be working much more diligently on 
this.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your public service.
    Admiral, I'm concerned about all of these private telecoms 
that are going to encrypt. If you have encryption of 
everything, how, in your opinion, does that affect Section 702 
and 215 collection programs?
    Admiral Rogers. It certainly makes it more difficult.
    Senator Nelson. Does the administration have a policy 
position on this?
    Admiral Rogers. No, I think we're still--I mean, we're the 
first to acknowledge this is an incredibly complicated issue 
with a lot of very valid perspectives. And we're still, I 
think, collectively, trying to work our way through, ``So, 
what's the right way ahead, here?"--recognizing that there's a 
lot of very valid perspectives.
    But, from the perspective, as Cyber Command and NSA, that I 
look at the issue, there's a huge challenge us--for us, here, 
that we have got to deal with.
    Senator Nelson. A huge challenge. And I have a policy 
position, and that is that the telecoms better cooperate with 
the United States Government, or else it just magnifies the 
ability for the bad guys to utilize the Internet to achieve 
their purposes.
    Speaking of that, we have a fantastic U.S. military. We are 
able to protect ourselves. It's a--it's the best military in 
the world. But, we have a vulnerability now, and it's a 
cyberattack. Do you want to see if you can make me feel any 
better about our ability to protect ourselves, going forward?
    Admiral Rogers. So, I would tell you the current stated 
capability in the Department, if I just look at where we were 
eighteen months ago, two years ago, is significantly improved. 
We currently defeat probably 99-point-some-odd percent attempts 
to penetrate DOD systems on a daily basis. The capability, in 
terms of both the amount of teams, their capability, just 
continues to improve. Our speed, our agility. The challenge for 
us, fundamentally, to me, is, we are trying to overcome decades 
of a thought process in which redundancy, defensibility, and 
reliability were never core design characteristics for our 
networks, where we assumed, in the development of our weapon 
systems, that external interfaces, if you will, with the 
outside world were not something to be overly concerned with. 
They represented opportunity for us to remotely monitor 
activity, to generate data as to how aircraft, for example, or 
ships' hulls were doing in different sea states around the 
world. All positives if you're trying to develop the next 
generation, for example, of cruiser/destroyer for the Navy. 
But, in a world in which those public interfaces, if you were, 
increasingly represent also potential points of vulnerability, 
you get this class of strategies, if you will. And that's where 
we find ourselves now.
    So, one of the things I try to remind people is, it took us 
decades to get here. We are not going to fix this set of 
problems in a few years. This takes dedicated prioritization, 
dedicated commitment, resources, and we've got to do this in a 
smart way. We've got to prioritize, and we've got to figure out 
what's the greatest vulnerability and where's the greatest 
concern for us?
    Mr. Work. Senator, is it okay if I jump in here for a 
second?
    Senator Nelson. Yes. I just want to add to that. And for us 
to let our potential enemies understand that we have the 
capability of doing to them what they do to us. However, that 
gets more complicated when you're dealing with a rogue group of 
a dozen people stuck in a room somewhere that are not part of a 
nation-state.
    Yes, sir. Mr. Secretary.
    Mr. Work. Well, I was just going to echo what Admiral 
Rogers said. When Secretary Carter came in, he said, ``Look, we 
are absolutely not where we need to be,'' and he made job 
number one defense of the networks. So, we're going from 15,000 
enclaves to less than 500. We're going to have--we're going 
from 1,000 defendable firewalls to less than 200, somewhere 
between 50 and 200. So, you are absolutely right, we have 
recognized this is a terrible vulnerability. We are working, 
first, to defend our networks, as we talked about earlier. 
We're looking at our systems. And we're also trying to change 
the culture. Right now, if you discharge a weapon, you are held 
accountable for that. That's a--you know, negligent discharge 
is one of the worst things you can do. What we need to do is 
inculcate a culture where a cyber discharge is considered just 
as bad, and make sure that that culture is inculcated 
throughout the force.
    Senator Nelson. I agree. But, now the Admiral is assaulted 
by the telecoms, who want to tie his hands behind his back by 
doing all of the encryption.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    In our State, Naval Surface Warfare Center Crane has taken 
the lead on much of our efforts to protect against the threat 
of counterfeit electronics. And so, Secretary Work and Director 
Clapper, the global supply chain for microelectronics presents 
a growing challenge for cybersecurity. One of the things we saw 
recently, IBM [International Business Machines] sold its 
chipmaking facilities with DOD ``trusted foundry'' status to a 
foreign-owned competitor. So, I was wondering your top 
priorities in managing the risk posed by the globalization of 
our microelectronics manufacturing capabilities and our 
abilities to protect our systems in that area.
    Mr. Work. That's a big question, Senator. In fact, it's 
going to be one of the key things we look at in this fall 
review, because of the recent--as you said, the recent sale of 
the IBM chips.
    Now, there are two schools of thoughts on this. Secretary 
Carter personally has jumped into this. And some say you do not 
need a trusted foundry. Another group says you absolutely have 
to have it. Having confidence in the chips that we put in our 
weapon systems is important. And I would expect that, come 
February, we'll be able to report out the final decisions 
through the fall review on how we're going to tackle this 
problem.
    Senator Donnelly. Who within DOD's leadership has primary 
responsibility for overseeing the supply chain risk management?
    Mr. Work. That would be Frank Kendall and also DLA. DLA has 
the supply chain, and Frank Kendall is really focused on the 
trusted chip, the fabrication of trusted chips.
    Senator Donnelly. One of the areas that we look at in 
regards to cyber--and, in some ways, you know, technology in 
particular parts of it not advancing has been a good thing in 
this respect--is in the nuclear area. And so, are there any 
specific groups that are focused just on protecting our nuclear 
efforts against cyber?
    Mr. Work. There's the National--the NNSA [National Nuclear 
Security Administration]. And also, we have a Nuclear Weapons 
Council, which is cochaired by, again, Frank Kendall, our Under 
Secretary of Defense for AT&L, and the Vice Chairman of the 
Joint Chiefs. They are the ones that work with DOE [Department 
of Energy] to make sure that our weapon system components are 
reliable and trusted, and to make sure that we have a safe, 
reliable, and effective nuclear deterrent.
    Senator Donnelly. Admiral, when we look at building a force 
of cyber warriors, a cyber team, how can we use the National 
Guard and Reserves to help do that? Because it strikes me that 
that can help us in retaining highly qualified individuals who 
want to devote part of their life to helping their country. And 
it would seem to almost be a perfect fit for us.
    Admiral Rogers. So, we have taken a total-force approach to 
the force that we're building out. That includes both Guard and 
Reserve. Every service slightly different, not the least of 
which because different services have different Reserve and 
Guard structures. So, that is a part of it.
    I'd say one of the challenges that we're still trying to 
work our way through is under the Title 32 piece, how we 
coordinate what Guard and Reserve are doing, how we generate 
capacity and bring it to bear with maximum efficiency. The one 
thing--the two things, in partnering with my Guard teammates 
and my Reserve teammates--because we're taking a total-force 
approach to this, we need one standard for this. We don't want 
a place where the Guard and Reserve are trained in one standard 
and the Active side is trained to a different. That gives us 
maximum flexibility in how we apply the capability across the 
force. And the Guard and Reserve has done great in that regard. 
And then, secondly, we need one common unit structure. We don't 
want to build unique, one-of-a-kind structures in the Guard or 
Reserves that don't match the Title 10 side. Again, we want to 
treat this as one integrated force. And again, I would give the 
Guard and the Reserves great kudos in that regard. We've got a 
common vision about the way we need to go, and we've got a 
great exercise series, CYBERGUARD, that we're using every year, 
where we bring together the Guard, the private sector, the 
Active component, and government, and work our way through the 
specifics about how we're going to make this work.
    Senator Donnelly. Thank you.
    Director Clapper--and I apologize if you already answered 
this--what is the one cyber challenge you are most concerned 
about?
    Director Clapper. Well, obviously, the one that I think 
about is--would be a massive Armageddon-like-scale attack 
against our infrastructure. That is not--we don't consider that 
the most likely probably right now, that the greater threat--or 
the low-to-moderate sort of threats that we're seeing. And what 
I have seen in the 5 years I've been in this job is a sort of 
progression, where these get more aggressive and more damaging. 
And, as I indicated in my oral statement at the outset, what I 
will see--I think what we can expect next are data 
manipulation, which then calls to question the integrity of the 
data, which, in many ways, is more insidious than the kinds of 
attacks that we've suffered thus far.
    So, you know, the greater--the specter is this massive 
attack, although it's not likely.
    Senator Donnelly. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Annex 3 of the recently signed Iran Nuclear Agreement calls 
for the participating countries to work with Iran to, quote, 
``strengthen Iran's ability to protect against and respond to 
nuclear security threats, including sabotage, as well as to 
enable effective and sustainable nuclear security and physical 
protection systems,'' close quote.
    Secretary Clapper, do you read this portion of the Iran 
Nuclear Agreement, the Annex, to include cyberthreats, meaning 
that the P5+1 countries, who are part of this agreement, will 
be expected--will be deemed to have an obligation under the 
agreement to assist Iran in developing systems to prevent other 
countries from using cyber capabilities to acquire information 
about, or to disrupt the operations of, Iran's nuclear 
capabilities--Iran's nuclear programs?
    Director Clapper. Well, in this environs, I will say that I 
trust that this is not going to prevent us from gleaning 
intelligence from our traditional sources, in the interests of 
verifying the agreement, which will be principally monitored by 
international organization, IAEA. So, I'm not aware of any 
strictures on our ability to collect on their behavior and 
their components.
    Senator Lee. But, why would we want to give Iran the 
ability to defend against cyberweapons that we, or perhaps some 
of our allies, might one day want to use against Iran?
    Director Clapper. Well, sir, in this open environment, 
there are some aspects here that I can't discuss. I'm happy to 
talk with you privately or in a classified environment about 
that.
    Senator Lee. Okay. Okay. But, you're not disputing the fact 
that the agreement says that, that we would have to----
    Director Clapper. No.
    Senator Lee. Okay.
    Now, can you tell me, in this environment, what specific 
technical assistance we'll be offering Iran in this portion of 
the agreement?
    Director Clapper. I honestly don't know the answer to that 
question. I've--have to have that researched. I don't know 
exactly what would--what's in mind there.
    Senator Lee. Now, would any of these capabilities, once 
acquired by Iran, prevent or inhibit the United States or any 
of our allies, any other enemy of Iran, from using any 
cybermeasure against Iranian nuclear facilities?
    Director Clapper. Again, I--I'm reluctant to discuss that 
in this setting.
    Senator Lee. Were you consulted by U.S. negotiators during 
the nuclear negotiations in connection with this portion of the 
agreement, the agreement----
    Director Clapper. Well, the intelligence community was 
deeply involved in--throughout the negotiations.
    Senator Lee. Can you describe the nature of any 
consultation you had with them as to this portion of Annex 3?
    Director Clapper. With the Iranians?
    Senator Lee. Yes.
    Director Clapper. I--no, I did not engage with the Iranians 
on----
    Senator Lee. No, no, that's not what I'm asking. I'm asking 
if you can describe your discussions with U.S. negotiators as 
they came to you and consulted with you on the implications of 
this portion of Annex 3.
    Director Clapper. I didn't actually--my lead for this was 
Norm Roule, who was the--known to many of you on this 
committee, the National Intelligence Manager for Iran. And he 
was the direct participant. And I--I don't want to speak for 
him as--to the extent to which he was involved or consulted on 
that provision. I'd have to ask him.
    Senator Lee. Okay. But, you would have been aware of 
consultation going on. I mean, I'm sure he came to you and 
said, ``Look, this is going to impact our ability, the ability 
of the United States, to do what we need to do with respect to 
Iran.'' That--would that not have been something----
    Director Clapper. Well, again, sir, I would rather discuss 
what the potential response of ours could be in a closed 
setting.
    Senator Lee. Okay.
    Secretary Work, how is the Department working to ensure 
that the hardware and software on some of these major programs 
that we're developing to future contingencies and technological 
advances so they can continue to address emerging cyberthreats 
well into the future without major overhauls of the entire 
system?
    Mr. Work. Senator, as I said, we are now putting into our 
KPPs, our key performance parameters, on any new systems, 
specific cyber-hardening requirements, much like during the 
Cold War, when we had EMP [Electromagnetic Pulse] requirements 
for many of our systems. The problem that we face is that many 
of the old systems that are still in service were not built to 
the--to respond to the cyberthreats that we see today. So, 
we're having to go back through all of those older systems, 
determine which ones are most vulnerable, prioritize them, and 
make fixes. So--and it also goes back to Senator Donnelly's 
question on the trusted foundry. We're trying to determine what 
is the best way to assure that we have reliable and trust 
microelectronics.
    Senator Lee. Okay. Thank you.
    I see my time's expired.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator King.
    Senator King. Thank you, Mr. Chairman.
    Secretary Work, if there's a catastrophic attack tonight on 
the fiscal infrastructure or the financial infrastructure of 
this country, I do not want to go on cable news in the morning, 
if there is cable news in the morning, and say, ``The 
administration told us that the policy is still in 
development.'' We've got to get on this. We've been talking 
about it for years. And, as the Chairman pointed out, this was 
an essential part of our National Defense Authorization Act, a 
year ago, And the idea that we can continue to simply defend 
and never have an offensive capability, I just think is 
ignoring this enormous threat, which we all agree----
    So, let me ask a one-word-answer question to each of you. 
Do we need an offensive capability in the cyber realm in order 
to act as a deterrent?
    Secretary Work.
    Mr. Work. We need a broad range of response options, to 
include----
    Senator King. Do we need a offensive cybercapability to act 
as a deterrent?
    Mr. Work. I would say yes, sir.
    Senator King. Secretary--Director, go ahead.
    Director Clapper. Absolutely.
    Senator King. Admiral Rogers.
    Admiral Rogers. Yes.
    Senator King. Thank you.
    The second part of that is that it can't be secret. Our 
instinct is to make everything secret. And the whole point of a 
deterrent capability is that it not be secret. So, I think we 
need to establish what we have--I suspect we do have some 
significant offensive capability, but part of a--making it a 
deterrent is that it has to be made--it has to be made public.
    I think another question that needs to be addressed--and I 
don't necessarily think it--in this hearing this morning, but 
in this--terms of the policy--we need to define what an act of 
war is in the cyber area, whether hitting Sony pictures is an 
act of war, or the OPM. And how do you draw those lines? And I 
would suggest that that's got to be part of this policy 
definition.
    And I don't mean to imply, Secretary Work, that this is 
easy. But, it's urgent. That's the--and we just simply can't 
defend ourselves by saying, ``Well, it was complicated and we 
didn't get to it.''
    Changing the subject slightly. Admiral Rogers, do you 
believe that the dispersion of responsibility in the Federal 
Government for cyber is a potential problem? It strikes me 
we've got agencies and departments and bureaus--I suspect you 
could name 15 of them if you tried--that all have some 
responsibility here. Do we need to strengthen Cyber Command and 
make that the central repository of this policy?
    Admiral Rogers. I would not make Cyber Command or the 
Department of Defense the central repository. This is much 
broader than just the DOD perspective. But, I will say this. I 
have been very public in saying we have got to simplify this 
structure for the outside world, because if you're on the 
outside looking in--and I hear this from the private sector 
fairly regularly--"Who do you want me to go to? Is it--I should 
talk to the FBI [Federal Bureau of Investigation]. Should I 
talk to DHS? Why can't I deal with you? Do I need to talk to 
the"--if I'm a financial company, ``Should I be talking to the 
sector construct that we've created?'' We have got to try to 
simplify this for the private sector.
    Director Clapper. If I might add to that, Senator King, 
it's one of the reasons why I had a very brief commercial for--
just within the intelligence community--of integrating the 
cyber picture, the common operating picture simply from within 
intelligence, let alone, you know, what we do to react or 
protect. And that, to me, is one important thing that I have 
come to believe. We need along the lines of a mini-NCTC 
[National Counterterrorism Center] or NCPC [National 
Counterproliferation Center].
    Senator King. I would hope that that would also--and that--
the leadership and decisionmaking on that has to start with the 
White House, it has to start with the administration, for an 
all-of-government approach to dealing with this dispersion-of-
responsibility problem.
    I would point out, parenthetically, that--you know, we're--
there's been a lot of talk about China and our ability to 
interact with China and to respond and hold China responsible. 
And it's not the subject of this hearing, but the fact that we 
owe China trillions of dollars compromises our ability to 
interact with China in a firm way. It's a complicated 
relationship, and that's one of the things that makes it 
difficult.
    Director Clapper, do you have any idea what brought the 
Chinese to the table for this recent agreement with the 
President?
    Director Clapper. Well, it appears that the threat of 
potential economic sanctions, particularly imposing them right 
before the visit of President Xi, I think, got their attention. 
And that's why they dispatched Minister Maung to try to come to 
some sort of agreement, which is what ensued subsequently.
    Senator King. And I agree that it's not a definitive 
agreement or a treaty, but I do agree, Secretary Work, that 
it's a step in the right direction. At least these issues are 
being discussed. But, countries, ultimately, only act in their 
own self-interest, and we have to convince the Chinese that 
it's in their interest to cut out this activity that's so 
detrimental to our country.
    Thank you, gentlemen, for your----
    Mr. Work. Senator, could I just make----
    Senator King. Yes, sir.
    Mr. Work.--one real quick comment?
    Just because we have not published our policy--it is so 
broad and encompassing, going over things like encryption--What 
are the types of authorities we need?--does not mean that, if 
we did have an attack tonight, we would not--we do not have the 
structure in place right now with the national security team to 
get together to try to understand who caused the attack, to 
understand what the implications of the attack were and what 
response we should take. Those are in place right now.
    Senator King. But, the whole point of being able to respond 
is deterrence so that the attack won't occur. Dr. Strangelove 
taught us that if you have a doomsday machine and no one knows 
about it, it's useless. So, having a secret plan as to how 
we'll respond isn't the point I'm trying to get at. The deal 
is, we have--they have to know how we will respond, and 
therefore, not attack in the first place.
    Thank you.
    Thank you all, gentlemen, for your testimony.
    Senator Reed [presiding]. On behalf of the Chairman, let me 
recognize Senator Fischer.
    Senator Fischer. Thank you, Senator Reed.
    Following up a little bit where Senator King was going on 
this, many of you talked about establishing norms in 
cyberspace. Do you think it's possible to establish or maintain 
that norm without enforcement behaviors? When we look at 
publicly identifying those who are responsible for an activity 
or imposing costs on them, can we do that? I'll begin with you, 
Mr. Secretary.
    Mr. Work. Well, I believe that trying to establish these 
norms are very, very helpful. In the Cold War, for example, 
there was a tacit agreement that we would not attack each of 
our early-warning missile--I mean, warning satellites. And so, 
establishing these norms are very important. But, they will be 
extremely difficult, because the enforcement mechanisms in 
cyber are far more difficult than--because it's much more easy 
to attribute missile attacks, et cetera. So, I believe that 
this agreement with China is a good first step, that we should 
strive to establish norms, especially between nation-states--
and establish norms which we believe are beyond the bounds, and 
to try to establish mechanisms by which we can work these 
through. But, this will be very, very difficult, Senator, 
because it's--because of the--just the--it's much more 
difficult.
    Director Clapper. And we have the added problem, of course, 
of--the norms are, as Secretary Work said, really applicable to 
nation-states. And, of course, you have a whole range of non-
nation-state actors out there who wouldn't necessarily 
subscribe to these norms and would be a challenge to deal with 
even if we--if there were nation- state mutual agreement.
    Senator Fischer. Admiral?
    Admiral Rogers. I would echo the comments of my two 
teammates. I'm struck by--we're all captives of our own 
experience. In my early days as a sailor, well before I got 
into this business, at the height of the Cold War out there, we 
knew exactly how far we--between the Soviets and us--we knew 
exactly how far we could push each other. And we pushed each 
other, at times, right up to the edge. I mean, very aggressive 
behaviors. But, at the--we developed a set of norms. We had a 
series of deconfliction mechanisms in the maritime environment. 
We actually developed a set of signals over time so we could 
communicate with each other. But, the--so, I'm comfortable that 
we're going to be able to achieve this over time in the nation-
state arena, but, as my teammates have said, it's the nonstate 
actor that really complicates this, to me. It's going to make 
this difficult.
    Senator Fischer. So, when we're attacked in cyberspace, how 
do we impose costs on those who are attacking us? Do we respond 
in cyberspace, or can we look at other ways to, I think, 
respond in an appropriate manner, say with sanctions? What 
would you look at, Admiral?
    Admiral Rogers. So, what we have talked about previously 
is, we want to make sure we don't look at this just from one 
narrow perspective, that we think more broadly, we look across 
the breadth of capabilities and advantages that we enjoy as a 
nation, and we bring all of that to bear as we're looking at 
options as to what we do, and that it's a case-by-case basis. 
There's no one single one-size-fits-all answers to this. But, 
fundamentally, think more broadly than just cyber. Not that 
cyber isn't potentially a part of this. I don't mean to imply 
that.
    Senator Fischer. Correct.
    Mr. Secretary, would you agree with the Admiral on that? Do 
you see a variety of options out there? And wouldn't it be more 
beneficial to us as a country to be able to have a policy that 
is a public policy on what those options could be, and the 
consequences that would be felt when we are attacked?
    Mr. Work. Absolutely. And that is what I say about a broad 
policy, where we will respond in a time manner--time, place, 
and manner of our own choosing. In this case, there's an 
asymmetry with our nation-state potential adversaries. They are 
all authoritarian states. The attack surfaces that they have 
are far smaller than what we have as a free nation. And we 
value that. We do not want to close down the Internet. But, we 
are more vulnerable to a wide variety of attack surfaces than 
our adversaries. So, we may sometimes have to respond 
proportionally, but in a different way than a simple cyber 
response. It might be sanctions. It might be a criminal 
indictment. It might be other reactions. So, we believe very 
strongly that this is something where it's an interagency 
process. The process is established where they are taken care 
of----
    Senator Fischer. And----
    Mr. Work.--handled on a case-by-case basis.
    Senator Fischer. And does the administration have a 
definition on what constitutes a cyberattack?
    Mr. Work. Well, any type of malicious activity which causes 
either damage or theft of information or IP [Internet 
Protocol], all of those are under either cyber--malicious 
cyberactivities. It might be espionage. In each case, there's 
no defined red line for what would constitute----
    Senator Fischer. What's----
    Mr. Work.--act of war.
    Senator Fischer. What would be the difference between a 
cyberattack and cybervandalism?
    Director Clapper. Well, I would have to make a--again, a 
case-by-case determination. And, of course, important 
consideration here would--in terms of our reaction, would be 
attribution. And that--again, it would be case-by-case.
    Mr. Work. And cybervandalism, ma'am, do you--is that 
stealing information or IP or----
    Senator Fischer. The attack by North Korea on Sony was 
described by the President as cybervandalism. I was just 
wondering on how you distinguish that definition from a 
cyberattack.
    Director Clapper. Well, it didn't affect a national 
security entity, but it certainly did cause damage to the 
company. And, in that case--and this is an important 
illustration of when we could attribute very clearly and there 
was uniform agreement across the intelligence community to 
attribute that attack to the North Koreans, and we did sanction 
them.
    Senator Fischer. Okay, thank you.
    Thank you, Mr. Chairman.
    Chairman McCain [presiding]. Senator Heinrich.
    Senator Heinrich. Thank you, Mr. Chair.
    Gentlemen, thank you for your service and for joining us 
here today.
    And, Director Clapper, before I start on--begin to focus on 
cyberpolicy, I think we're all very concerned about the 
allegations that leadership at Central Command deliberately 
distorted the assessments of intelligent officers related to 
the fight against ISIL. And I understand that there is an 
ongoing investigation, and I'm going to wait for the results of 
that investigation. But, I want to say that, as a member of 
both this committee and the Intelligence Committee, I want to, 
in the strongest terms possible, impress upon you the 
importance for all of us to receive absolutely objective and 
unbiased assessments. And I look forward to the results of the 
IG investigation, and I expect that you will hold accountable 
anyone who has failed in their duty in the intelligence 
community, no matter how high up the chain that may go.
    Director Clapper. Well, Senator, I--you brought up a very 
important consideration here, which is a great concern to me. 
I'm a son of an Army intelligence officer who served in World 
War II, Korea, and Vietnam. And I have served in various 
intelligence capacities for over 52 years, ranging from my 
first tour in Southeast Asia in the early '60s to my service 
now as the longest tenured DNI. And it is a almost sacred writ 
in intelligence--in the intelligence profession never to 
politicize intelligence. I don't engage in it. I never have. 
And I don't condone it when it--it's identified.
    Having said that, I--and I completely agree with you--in 
spite of all the media hyperbole, I think it's best that we all 
await the outcome of the DOD IG investigation to determine 
whether and to what extent there was any politicization of 
intelligence at CENTCOM.
    I will also say that the intelligence assessments from 
CENTCOM or any other combatant command come to the national 
level only through the Defense Intelligence Agency. That is the 
main conduit and, I will say, to the extent evaluater and 
filter for what flows into the national intelligence arena.
    Senator Heinrich. Thank you, Director.
    Turning to you, Admiral Rogers. As the director of U.S. 
Cyber Command, your responsibilities include strengthening our 
cyberdefense and our cyberdeterrence posture. And I want to 
return to a line of questioning several of my colleagues have 
begun this morning.
    As you know, the breach of OPM computers resulted in an 
enormous loss of sensitive personal information. Thus far, to 
my knowledge, the U.S. has not responded. And to put it in the 
words of Deputy Secretary Work's language this morning, we 
haven't imposed a cost, which raises questions about whether we 
truly have developed the mechanisms for proportionate response 
to cyberattacks against the U.S. Government, even after the 
April 2015 publication of the DOD cyber strategy. We know that 
if a foreign agent had been caught trying to steal U.S. 
personnel files in a less digital age, we would either kick 
them out of the country, if they were a diplomat, or we'd throw 
them in jail, if they weren't a diplomat. That would be 
considered a proportionate response. But, in the case of the 
OPM breach, the U.S. Government seems uncertain about what a 
proportionate response would look like.
    So, I want to ask you three questions, and I'll let you 
take them as you may: What constitutes an act of war in 
cyberspace? Has the United States decided on a proportionate 
response in the case of the OPM cyber espionage case? And what 
types of information-gathering by nation-states, by 
governments, are legitimate, and what types are not?
    Admiral Rogers. Well, first, let me start out by saying, 
look, so I'm the operational commander here, and all three of 
the questions you've just asked me are much broader than that. 
I'm glad to give you an opinion, but I'm mindful of what my 
role is.
    In terms of the three things--Have we defined what an 
active of war is? The bottom line is: clearly, we're still 
working our way through that. What are the parameters that we 
want to use to define what is an act of war? My going-in 
position is, we ought to build on a framework that we have 
developed over time in the more conventional domains. That's a 
good point of departure for it. It's got a broad legal 
framework. It's something that people recognize. And it's where 
we ought to start as a point of departure.
    The second question was about--just let me read my note to 
myself----
    Senator Heinrich. Proportional response to the OPM case.
    Admiral Rogers. Again, I think that what OPM represents is 
a good question about--so, what are the parameters we want to 
use? Is it--as the DNI has said, is it--the intent is within 
the acceptable realm? Is it scale? Is it--you can do espionage 
at some level, for example, but if you trip some magic 
threshold, hey, is 20 million records, is 10 million records--
is there some scale component to this? I think we're clearly 
still trying to work our way through that issue. And there is 
no one- size-fits-all answer. I think there's recognition. I 
think that's clearly--is what has driven this broad discussion 
between the United States and China, for example. That's been a 
positive, I would argue.
    And the third, type--what--could you repeat again--the 
types of information?
    Senator Heinrich. Just--you know, I'll--my time is expired, 
so I'll cut to the chase. I think what you're hearing from all 
of us----
    Chairman McCain. No, go ahead, Senator. This is an 
important----
    Senator Heinrich.--is----
    Chairman McCain.--line of questioning.
    Senator Heinrich. We would like to see more transparency in 
being able to telegraph our deterrent, because we all know 
that--looking back into the Cold War, that our deterrent was 
very important. But, the other side knowing what that deterrent 
was, was absolutely critical for it to be effective. And so, we 
need to be clear about what types of information-gathering by 
governments are considered legitimate and acceptable, and where 
those red lines are going to be.
    Admiral Rogers. I agree. I think that's the important part 
of the whole deterrence idea. It has to be something that's 
communicated, that generates understanding and expectation, and 
then a sense of consequence.
    Director Clapper. I think the contrast with the Cold War is 
a good one to think about, in that--well, I think what you're--
what--the concern that people are raising is, Should there be 
red lines on spying? That's really what this gets down to. We 
didn't have red lines during the Cold War. It was freewheeling 
as far as us collecting intelligence against the Soviet Union, 
and vice versa. There were no limits on that. It was very 
difficult, for both--well, more so for us.
    And, of course, underlying--the backdrop to all that was 
the deterrent, the nuclear deterrent, which, of course, 
restrained behavior even though it got rough at times, as the 
example that Admiral Rogers cited, in a--just in a maritime 
context. But, there were ground rules that governed that.
    We're sort of in the Wild West here with cyber, where there 
are no limits that we've agreed on, no red lines, certainly on 
collecting information, and--which is what the OPM breach 
represented.
    Chairman McCain. Director and Admiral, I would like to 
thank you for your forthright and candid assessment. And also, 
I think, the lesson that all of us are getting is that we 
really have to have some policy decisions. And you've been very 
helpful in fleshing that out for us.
    Senator Cotton.
    Senator Cotton. Secretary Work, I'd like to return to an 
exchange you had with Senator Ayotte about the Intermediate-
Range Nuclear Forces Treaty, also known as the INF Treaty. Is 
Russia in violation of their obligations under the INF Treaty?
    Mr. Work. We believe that a system that they have in 
development would violate the treaty.
    Senator Cotton. And you said, just now, ``in development.'' 
I thought I heard you say, with Senator Ayotte, that it's not 
deployed, or it's not yet operationally capable. Is that 
correct?
    Mr. Work. That's my understanding. I can have--I can get 
back to you with a question for the record. But, it is in 
development, and we have indicated our concern with the 
Russians that, if they did deploy it, we believe it would 
violate the INF.
    Senator Cotton. Thank you. Could you please do that in 
writing. And, if it's appropriate, in a classified writing, 
that's fine, as well.
    [The information referred to follows:]

    The Department finds that Russia is in violation of its obligations 
under the Intermediate-range Nuclear Forces (INF) Treaty not to 
possess, produce, or flight-test a ground-launched cruise missile with 
a range capability of 500 to 5,500 kilometers, or to possess or produce 
launchers of such missiles. Russia has built and tested a ground-
launched cruise missile system that violates the Treaty.

    Senator Cotton. I'd now like to move to the Cyber Mission 
Force. At the Air Force Association Conference a couple of 
weeks ago, Major General Ed Wilson, the commander of the 24th 
Air Force, stated that DOD's Cyber Mission Force was halfway 
through its buildup. How difficult is it to establish the 
needed infrastructure and manning across the services to create 
the capability that we need to defend and deter cyberthreats?
    Mr. Work. Well, I'd like to start, and then I'll turn it 
over to Admiral Rogers.
    We're building to 133 total teams--68 are cyber protection 
teams that are focused on our number-one mission: defense of 
our networks. We have 13 national mission teams that we are 
building to help defend our Nations' critical infrastructure. 
And we have 27 combat mission teams that are aligned with the 
combatant commanders and assist them in their planning. To 
support those, we have 25 support teams which they can call 
upon, for a total of 133. We're building to 6200 military 
personnel, civilians, and some specialized contractors, and 
another 2,000 in the Reserves, so about 8400.
    We expect to reach that in 2018, provided there is not 
another government shutdown. The last time, we had a government 
shutdown and sequestration, it put us behind by 6 months in 
building this. So, as of right now, we are--I think we're on 
track.
    And I'd turn it over to Admiral Rogers to explain the--how 
well we're doing in attracting talent.
    Admiral Rogers. And, if I could, first let me accent, if 
you will, one particular portion of DEPSECDEF [Deputy Secretary 
of Defense] Work's comments, in terms of impact of a government 
shutdown or sequestration for us. The last time we went through 
this and we shut it down, we assessed that we probably lost 6 
months' worth of progress, because we had to shut down the 
school system, we went to all stop, in terms of generation of 
capability in the--like a domino, the layover effect of all of 
that, we think, cost us about 6 months of time. If we go to a 
BCA or sequestration level, that puts us even further behind in 
an environment in which we have all uniformly come to the 
conclusion we're not where we need to be and we've got to be 
more aggressive in getting there. And you can't do that if--
when you're shutting down your efforts, when you're cutting 
money.
    To go specifically, Senator, to the question you asked, I 
would tell you the generation of the teams, in terms of the 
manpower and their capability--knock on wood--is exceeding my 
expectations. The bigger challenge, to me, has been less--not 
that it's not an insignificant challenge, but the bigger 
challenge has been less the teams and more some of the enabling 
capabilities that really power them, the tools, if you will, 
the platform that we operate from, the training environment 
that we take for granted in every other mission set. The idea 
that we would take a brigade combat team--before it went to 
Iraq, before it went to Afghanistan, we'd put it out in the 
National Training Center, and we'd put it through the spectrum 
of scenarios we think they're likely to encounter in their 
deployment. We don't have that capability right now in cyber. 
We have got to create that capability. It's those enablers, to 
me, and the intelligence piece, let--just like any other 
mission set, everything we do is predicated on knowledge and 
insights. No different for the CENTCOM Commander than it is for 
me. Those are the areas, to me, where the challenges are 
greater, if you will, than just the manpower. I'm not trying to 
minimize the----
    Senator Cotton. Yeah.
    Admiral Rogers.--manpower----
    Senator Cotton. And how important is it that we take 
advantage of the existing infrastructure and capabilities that 
we have as you're building out the entire mission force?
    Admiral Rogers. I mean, that's what we're doing right now. 
But, I will say, one of our experiences--Cyber Command has now 
been in place for approximately 5 years--one of our insights 
that we've gained with practical experience and as we're 
looking at both defensive response as well as potential 
offensive options, we need to create infrastructure that is 
slightly separate from the infrastructure we use at NSA. It's--
so, a unified platform, you've heard us talk about. It's 
supported in the funding. That's an important part of this. 
Experience has taught us this in a way that 5-6 years ago, we 
didn't fully understand.
    Senator Cotton. Well, I'd like--my time is up for 
questioning, but I'd just like to bring to your attention that 
Arkansas Attorney General Mark Barry has requested a cyber 
protection team at Little Rock Air Force Base. There is an 
11,000-square-foot facility there. It has a SCIF of 8500 square 
feet. It's already had $3.5 million invested in it. One of 
these facilities, I understand, would cost about $4 million. 
It's a request that I support. I think it's harnessed resources 
that we've already invested, and it also--it's a capability 
that they are ready to support, in addition to the professional 
educational center that does a lot of cybertraining for the 
National Guard, which is less than 30 minutes away.
    Thank you.
    Director Clapper. Mr. Chairman, I have to comment. I'm 
rather struck by the irony, here, of--before I left my office 
to come for this hearing, I was reviewing the directions that 
we're putting out to our people for shutting down and 
furloughing people. What better time for a cyberattack by an 
adversary when much of our expertise might be furloughed.
    Chairman McCain. I think that's a very important comment, 
Director, and thank you for saying it. There are some of us who 
feel it's urgent that we inform the American people of the 
threats to our national security of another government 
shutdown. I believe that it was an Arkansas philosopher that 
said there is no education in the second kick of a mule. So, I 
thank you for your comment.
    Senator McCaskill.
    Senator McCaskill. It was probably a Missouri mule.
    Director Clapper, earlier this year I introduced a bill 
that would give intelligence community contractors 
whistleblower protections as long as those complaints were made 
within the chain or to the Inspector General or the GAO. So, 
disclosures made to the press would not be protected. I--as you 
probably know, Defense Department--I know that Secretary Work 
knows this--that we've already put into the law, in recent 
years, whistleblower protections for the contractors at the 
Department of Defense. And, to my knowledge--and certainly 
correct me if I'm wrong, any of you--I'm not aware of any 
classified or sensitive information that has made its way to a 
damaging place as a result of these protections.
    The 2014 intel authorization gave these protections to the 
government employees within intelligence. And one of the 
challenges we have in government is this divide between the 
contractors and government employees. And, frankly, 
whistleblower protections--I can't think of a good policy 
reason that we would give whistleblower protections to 
employees and not give them to contractors. And so, I am 
hopeful today that you would indicate that you believe this is 
an important principle and that we should move forward with 
this legislation.
    Director Clapper. Absolutely, Senator. And we have 
published, internal to the intelligence community, an 
intelligence community directive that includes whistleblowing 
protections for contractors. After all, that was the source of 
our big problem, here, with Mr. Snowden, who was a contractor. 
And so, our challenge--you know, the additional burden we have, 
of course, is trying to prevent the exposure of classified 
information outside channels. So, that's why whistleblowers 
absolutely must be protected, so that they are induced or 
motivated to go within the channels, knowing that they will be 
protected. This is a program that is managed by the 
intelligence community Inspector General, who is, of course, 
independent as a Senate-confirmed official.
    Senator McCaskill. Thank you. And I'm pleased to see that 
you would be supportive of that.
    And, Secretary Work and Admiral Rogers, I assume that you 
would be supportive of giving whistleblower protections to 
intelligence community contractors?
    Mr. Work. Absolutely. I agree totally with what Director 
Clapper said.
    Admiral Rogers. Yes, ma'am, and I say this as the head of 
an intelligence agency.
    Senator McCaskill. Thank you.
    I want to follow up a little bit, Director Clapper, with 
your comment about a shutdown. Could you tell us what impact 
another government shutdown would have on your progress of 
getting the cyber mission force fully operational? Excuse me--
Admiral Rogers. I think that, in political isolation, shutdown 
appeals to a certain swath of Americans, and I understand why. 
Because sometimes it just feels good to say, ``Well, let's just 
shut it down,'' because, obviously, government is never going 
to win popularity contests, certainly not in my State. On the 
other hand, there's a difference between responsible, in terms 
of public policy, and being irresponsible, in terms of 
recognizing--I love it when some of my friends wave the 
Constitution in my face and then fail to read the part that we 
have a divided checks and balances in this country, unlike 
other countries. The American people sent a party--a President 
of one party to the White House and elected a Congress of a 
different party. And that means we have to figure out how to 
get along. So, could you talk a moment about what the impact 
would be to this important mission if once again we went down 
the rabbit hole of deciding the best thing to do is just to 
shut down government?
    Admiral Rogers. So, if we use our experience the last time, 
first thing I had to do was shut down the school system. And 
training and education is a core component of our ability to 
create this workforce. Just shut it all down, because it was 
only mission essential.
    The second thing I was struck for, all travel that was 
associated with training, all--we had to shut all that down, so 
I couldn't send people to generate more insights, to gain more 
knowledge.
    We had to shut down some of our technical development 
efforts because of the closure--again, put that all on hold. At 
a time where we have talked about the need to develop more 
capability, the need to develop more tools, I had to shut that 
all down during the period of the last shutdown. We were forced 
to focus our efforts on the continued day-to-day defense, which 
is critical--don't get me wrong. As Secretary Work has 
indicated, it is priority number one for us.
    The other concern I have is--and I have watched this play 
out now just in the last 10 days--I've been in command 18 
months, and I will tell you, the biggest thing I get from my 
workforce, prior to the last 10 days, ``Sir, this happened to 
us once in 2013. Is this going to happen again? If it is, why 
should I stay here, working for the government? I can make a 
whole lot more money in the cyber arena on the outside.'' So, 
in addition to the threat piece that the DNI has highlighted, 
my other concern is--if we do this again, is the amount of our 
workforce that says, ``You know, twice in the course of 2 
years? I've got a family, I've got mortgages, I've got to take 
care of myself. As much as I love the mission, as much as I 
believe in defending the Nation, I can't put myself or my 
family through this. I've got to go work in the commercial 
sector.'' That would be terrible for us. Because people--
despite all our technology, never forget, it is men and women 
who power this enterprise. That's our advantage.
    Senator McCaskill. At the risk of sounding like a smart 
aleck, which I do from time to time, I would say maybe we need 
to open some of those schools so some of my colleagues could do 
some math and realize the votes are not there to overcome a 
presidential veto. And this is a recipe for dysfunction that 
does not help anyone in this country, and particularly our 
national security.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    I want to just echo the comments of my colleague Senator 
McCaskill. I think it's irresponsible. We've had this--the 
Secretary come before this committee and say that the number 
and severity of threats have not been greater since 9/11. That 
should be enough said, in terms of what we need to do to keep 
continuity in funding the government. All the other things that 
I may have a problem with have to be second to that priority. I 
thank you all for your work. And, Director Clapper, I thank you 
for your comment.
    Admiral Rogers, we've had briefings from you since you've 
taken the command. And one of the briefings I'm reminded of is 
the trend that you see, in terms of the gap between what tends 
to be still an American advantage, overall, narrowing, 
particularly with nations like China and Russia, and I think 
you may have even mentioned Iran being an emerging threat. Can 
you tell me, really in the context of maybe another 6 months 
reset on your training, but, more importantly, based on your 
current funding streams and your current plan, Are we going to 
be able to widen that gap again, or is this just a matter of 
staying slightly ahead of our adversaries?
    Admiral Rogers. For right now, I think the most likely 
scenario is, we're staying slightly ahead of our adversaries, 
because we're trying to do so much foundational work, if you 
will, as I said previously, trying to overcome a very different 
approach over the previous decades. It's not a criticism of 
that approach. It was a totally different world. It led to a 
different prioritization. It led to a different level of effort 
and a different investment strategy. Clearly, we're going to 
have to change that. And we're changing that at a time when 
budgets are going down and threats--not just in cyber, but more 
broadly--are proliferating. I don't envy the choices that 
Secretary Carter and the leadership has to make. There's 
nothing easy here.
    So, I think, in the near term, the most likely scenario for 
us is, How can we focus on the best investments that maximize 
your defensive capability while continuing to help us retain 
the advantage we do right now against most?
    Senator Tillis. Thank you.
    And this question may be for Secretary Work. The 
announcement about the agreement with China, that we're not 
going to, basically, attack each other, in the face of the 
compelling evidence that we have that China's done it in the 
past and they've denied it, why is this agreement a positive 
thing if, with the smoking-gun information we have right now on 
prior attacks, theft of intellectual property, commercial data, 
that we have a pretty strong base of evidence to say that 
they're guilty of it, if they deny it, why does this agreement 
mean anything?
    Mr. Work. On the buildup to this visit, we made it very 
clear, through a wide variety of efforts, that this was going 
to be something that was foremost in the discussions when 
President Xi came. We have made it as clear as we possibly can 
in every single level, from the President on down, that the 
Chinese cyberactivities are unacceptable. And we believe that 
this is a good first step as a confidence-building measure, 
where China can either demonstrate that they are serious about 
establishing some norms, and going after crimes, et cetera. 
But, the proof will be in the pudding. I agree with Director 
Clapper and Admiral Rogers, it's going to be up to the Chinese 
to demonstrate that they're serious about this.
    Senator Tillis. Would the manipulation of commercial data 
fall within the definition of theft under this agreement?
    Mr. Work. Well, specifically, one part of it is the theft 
of IP--intellectual property--for commercial advantage in, say, 
for example, a Chinese state enterprise. And we have agreed, at 
least at--we have made a tentative agreement that we will not 
do those type of activities. China has done those activities in 
the past. It will be up to them to prove that they won't do it 
in the future.
    Senator Tillis. And then, the--for anyone, and then I'll 
yield. I know the committee's gone on a while. But, at what 
point--I think Senator Heinrich made some very important points 
about drawing red lines. But, at what point are we going to 
have clear definitions about malign activities in cyberspace 
being acts of war or acts of terrorism, and then have 
appropriate responses, whether they be through cyber, through 
sanctions, or other? When are we going to get that clarity? 
Because we don't have it today.
    Mr. Work. Senator, I don't believe that we will ever have a 
definitive one-size-fits-all definition for these type things. 
Every single attack will be--have to--handled on a case-by-case 
basis, and you will have to judge the damage that was caused, 
who made the attack, was it just a nonstate actor or just a 
malicious hacker--we'd have to go after that person, in terms 
of criminal activity. So, I don't believe we're ever going to 
have a specific definition that says, ``If this happens, we 
will trigger this response.'' Each one will be handled in a 
case-by-case basis and be proportional.
    Senator Tillis. Well, thank you. Mr. Chair, the----
    I think the lack of clarity, though, the only concern that 
I have is, you're not establishing some level of known 
deterrent. And that's why--I understand the complexities of it. 
I've worked in the field. But, I think that, without that 
clarity, you're more likely to have more things that you're 
going to have to look at and figure out how to do a situational 
response.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    And thank you, gentlemen, for your testimony today on a 
really important topic.
    You know, I believe and I'm--I was looking for the 
transcript, but--at the joint press conference between 
President Xi and President Obama that--President of China, I 
think, publicly stated that they don't engage in these kind of 
cyberactivities. Was that an accurate statement, if that was, 
indeed, what he said, in terms of cyberwarfare? It's pretty 
remarkable, if you're in a press conference with another head 
of state, and you just say something that seems to be pretty 
blatantly false.
    Director Clapper. Well, it is. And I think, apart from the 
statements, at least for our part, it will be: What happens 
now, what is--will there be a change in their behavior? And as 
I said earlier, well, hope springs eternal, but--I personally 
am somewhat of a skeptic, but it will be our responsibility to 
look for the presence or absence of the--of their purloining of 
intellectual property and other information.
    Senator Sullivan. And were any of you gentlemen, or all of 
you gentlemen, consulted on the terms of the agreement?
    Director Clapper. We were aware of the negotiations, but, 
at least from--normally, intelligence wouldn't be a voice or 
shaper of a policy agreement like this between two heads of 
state. It will--I think our responsibility is to report what 
they do.
    Mr. Work. We participated in the buildup of the visit, in 
terms of policy development, et cetera. But, in terms of what 
went on between the two leaders of the nations, we were not 
directly consulted.
    Senator Sullivan. Admiral?
    Admiral Rogers. And I was aware of the ongoing process, 
and, like Secretary Work, same thing, part of the broad effort 
in preparation for the visit.
    Senator Sullivan. But, you weren't--you didn't see the 
terms of this agreement before the----
    Admiral Rogers. No.
    Senator Sullivan. Did you, Mr. Secretary?
    Mr. Work. No.
    Senator Sullivan. Let's assume that, you know, kind of pass 
this prologue, here, and, you know, we were talking about 
intellectual property. As you know, our country has been trying 
to get the Chinese from--to stop stealing United States 
intellectual property for decades, really. And it hasn't really 
worked out very well. If--let's assume that this agreement--
that there is some additional cybertheft that we can attribute 
to China. What would you recommend the actions of the United 
States should be, particularly in light of this agreement?
    Mr. Work. I wouldn't be able to answer that, as I would 
have to know what the degree of the activity would be.
    Senator Sullivan. Let's say another OPM kind of activity.
    Mr. Work. I think we--the Department of Defense would 
recommend a very vigorous response.
    Senator Sullivan. And, Mr. Secretary, what would you--I 
mean, just give me a sense of what that would be. Sanctions, 
retaliation----
    Mr. Work. Could be any of those, Senator. Maybe all of the 
above. It will depend upon the severity of the activity. But, 
again, I know this is--I know this is a big point of contention 
with the committee. It is--we are serious about cost 
imposition, and our statement is, ``If you participate in 
that--this activity, we will seek some type of measure which 
imposes costs upon you.'' And we just do not think it's a 
proportional cyberattack for a cyberattack. It might be 
something entirely different, like a criminal indictment or 
sanctions or some other thing.
    Senator Sullivan. Let me ask kind of a related question for 
all three of you. How--and I know you've been discussing this, 
and I'm sorry if I'm kind of going over areas that we've 
already discussed, but--help us think through the issue of 
rules of engagement here. I mean, we have rules of engagement 
in so many other spheres of the military that are well 
established. How do we think through these issues, which I 
think in some ways are the fundamental aspects of what we do in 
response to cyberattacks?
    Admiral, do you want to take a stab at that?
    Admiral Rogers. So, if you look at the defensive side, I'm 
pretty comfortable that we've got a good, broad recognition of 
what is permissible within a rules-of- engagement framework.
    Senator Sullivan. Do we? I mean, between us and other 
nations?
    Admiral Rogers. I'm--I wouldn't--if you define it between 
us and other nations, I would--no, I apologize. I thought your 
question was in a DOD kind of responsive framework.
    If you want to expand it to a broader set of nations, then 
it's probably fair to say no.
    Director Clapper. I would agree. I think, when it comes to 
offensive--if you're thinking about offensive cyberwarfare, we 
probably don't--do not have rules--defined rules of engagement.
    Mr. Work. I agree with what Director Clapper said earlier, 
Senator, that this really is the Wild West right now. There's a 
lot of activity going on, both from nation- state actors all 
the way down to criminals. And so, sorting through each of the 
different attacks and trying to attribute what happened and who 
it came from and who was responsible for it all demand specific 
responses on these attacks.
    But, I agree totally with the committee that we need to 
strengthen our deterrence posture, and the best way to do that 
is continue to work through these things and make sure that 
everyone knows that there will be some type of cost.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. The committee would also like to know when 
there's going to be a policy that would fit into these attacks 
and would then be much more easily responded to if we had a 
policy, as mandated by the 2014 defense authorization bill.
    I thank the witnesses for a very helpful hearing. I know 
that they're very busy, and we--the committee appreciates your 
appearance here today.
    Thank you.
    [Whereupon, at 11:38 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
              Questions Submitted by Senator James Inhofe
    1. Senator Inhofe. Has the DOD established a pipeline for the 
development of a future cyber force?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. Each of the Military Departments has established 
recruiting and retention goals to establish the pipeline for all cyber 
officer, enlisted, and civilian specialties. This pipeline supports 
both fielding the Cyber Mission Force and the Military Departments core 
missions. The Military Departments are projecting an overall increase 
in their officer and enlisted cyber specialists over the next few 
years. In order to meet a new cyber force sustainment rate, the 
increase will be required in order to meet anticipated separations and 
retirements from the Services.
    On April 17, 2015, the Secretary of Defense signed ``The Department 
of Defense Cyber Strategy.'' The first strategic goal in the strategy 
is ``Build and Maintain Ready Forces and Capabilities to Conduct 
Cyberspace Operations.'' An entire line of effort is dedicated to 
fostering a viable career path for military personnel and improving 
recruitment and retention processes for the most highly skilled 
military cyber personnel. This effort will focus on validating current 
career paths, determining future military cyber billet structure and, 
within military manpower plans, evaluation of areas where specialized 
skills and assignments fit within the overall career progression 
structure.
    Similar to the military workforce, the ``Cyber Strategy'' requires 
the Department to improve civilian recruitment and retention for cyber-
related personnel by the end of 2016. This effort is on track to 
deliver the needed governance structure, policies and implementation 
plan to meet the 2016 target.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    2. Senator Inhofe. Are universities and technology institutions 
graduating both the numbers needed to fill force requirements and 
personnel with the right skill sets to ensure we maintain a dominant 
offensive and defensive capable cyber force?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. I have noted that academic universities and 
technology institutions are focusing on digital communications, 
forensics, and cybersecurity. Many university programs are nascent and 
remain focused on computer science. There is also an important element 
of cyber operations which involves sociology and ethnography. These 
degrees have direct relationship to the Military Department Cyber 
workforce and contribute to building a professional and well-trained 
team. I have noted many institutions are reluctant to include curricula 
on offensive capabilities. In order to understand the cyber domain, 
graduates from universities and institutions must be exposed to 
offensive, defensive, and sociocultural capabilities during their 
course of instruction.
    Additionally, the Department supports the National Initiative for 
Cyberspace Education (NICE). In the Department of Defense Cyber 
Strategy, the Department is tasked to develop policies to support NICE, 
and working with interagency partners and educational institutions, the 
Department will provide input to NICE, thereby announcing the 
Department's requirements to universities and technology institutions.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    3. Senator Inhofe. How are we addressing the recruiting and 
sustainment of personnel to eliminate critical cyber expert shortages?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. The DOD Cyber Strategy, published in April 2015, 
challenged the Department to improve recruiting and sustainment under 
the heading of Cyber Workforce Development. The subsequent 
implementation plan included well-defined objectives and timelines. The 
Department's first priority is to develop a ready Cyber Mission Force 
and associated cyber workforce to make good on the significant 
investment in cyber personnel, and to help achieve many of the 
objectives in the DOD Cyber Strategy. This workforce will be built on 
three foundational pillars: enhanced training; improved military and 
civilian recruitment and retention; and stronger private sector 
support.
    The Department requires an individual and collective training 
capability to achieve the goals outlined in the DOD Cyber Strategy and 
to meet future operational requirements. This training capability, 
identified as the Persistent Training Environment, is a cornerstone 
objective highlighted in the strategy and will contribute to both 
recruiting and sustainment of cyber experts. US Cyber Command will work 
with other components, agencies, and military departments to define the 
requirements and create a training environment that will enable the 
total cyber force to conduct joint training (including exercises and 
mission rehearsals), experimentation, certification, as well as the 
assessment and development of cyber capabilities and tactics, 
techniques, and procedures for missions that cross boundaries and 
networks.
    The second objective addresses military personnel recruitment and 
retention. In terms of recruiting, DOD has an operational mission in 
cyber that is unavailable in the private sector, a unique mission focus 
should be used to motivate people to serve in the DOD. Solving the 
Department's shortages for cyber experts is a supply and demand 
problem; as such, we must right size our training pipelines to 
accommodate those we retain as well as those that will leave for the 
private sector.
    We have completed recruitment research determining personality and 
technical attributes needed for successful cyber operators. Based on 
that research, the Department is exploring instruments to identify 
those individuals. These instruments are being evaluated in a second 
pilot of the Cyber Operators Course which demonstrates a new learning 
practice approach for cyber.
    To aid retention, DOD must demonstrate commitment via additional 
training and development for our cyber workforce. Throughout the course 
of this strategy, and following the Cyber Mission Force decisions of 
2013, the Department will continue to foster viable career paths for 
all military personnel performing and supporting cyber operations.
    Another objective of Cyber Workforce Development is to improve 
civilian recruitment and retention. In addition to developing highly-
skilled military personnel, the Department must recruit and retain 
highly-skilled civilian personnel, including technical personnel for 
its total cyber workforce. Civilians must follow a well-developed 
career path. The cyber career path will include an advancement track 
and best-in-class opportunities to develop and succeed within the 
workforce. A related effort is support of exchanges between DOD and 
industry.
    In January 2016, Congress provided the Department the ability to 
adopt Title V Exempted Service hiring authorities for US Cyber Command 
and the Service Cyber Headquarters civilian employees. Exempted Service 
hiring authorities will help motivate key civilians to serve in the 
Department of Defense, and will assist in retaining them for career 
service.
    The DOD should also leverage public and private partnership to 
identify promising candidates within the academic pipeline. To 
supplement the civilian cyber workforce, for example, the Department 
must employ technical subject matter experts from the best 
cybersecurity and information technology companies in the country to 
perform unique engineering and analytic roles.
    Many of the best practices, both in recruiting and retention, have 
already been identified by the National Security Agency (NSA)--who we 
are actively working with, to scale those initiatives to support DOD. 
We are also looking at more diverse training pathways, including 
leveraging universities and their Reserve Officer Training Corps 
programs. The Department is working with all appropriate organizations 
in pursuit of innovative and effective solutions to recruitment and 
sustainment needs of the cyber workforce.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                            weapons security
    4. Senator Inhofe. How concerned are each of you with cyber 
vulnerabilities in our existing weapons systems?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. I am very concerned about cyber vulnerabilities in 
Department of Defense weapons systems. My concern stems from the lack 
of efficient opportunities to modernize and update the underlying 
electronic infrastructure and operating systems of those weapon 
systems. New vulnerabilities are routinely discovered, but the existing 
list of known vulnerabilities is both lengthy and costly to mitigate.
    Admiral Rogers. Mr. Work will address cyber resilience in weapons 
systems development and expanding mission assurance activities at the 
Department level.

    5. Senator Inhofe. Are we incorporating cyber security into the 
development of all our new weapons systems during the acquisition 
process?
    Secretary Work. Yes. The Department is incorporating cybersecurity 
into the development of all new weapons systems during the acquisition 
process. DOD Instruction (DODI) 5000.02, ``Operation of the Defense 
Acquisition System,'' dated January 7, 2015, contains requirements for 
acquisition programs to address cybersecurity countermeasures. Program 
Managers, as an element of the Systems Engineering process, have the 
responsibility in their Program Protection Plan (PPP) to describe the 
program's critical program information and mission-critical functions 
and components; the threats to and vulnerabilities of these items; and 
the plan to apply countermeasures to mitigate associated risks. 
Countermeasures include cybersecurity, secure system design, supply 
chain risk management, software assurance, anti-counterfeit practices, 
and other mitigations. Program Managers will submit the program's 
Cybersecurity Strategy as part of every PPP. In addition, during the 
Test and Evaluation phase, Program Managers are responsible for 
developing a strategy and budget resources for cybersecurity testing to 
support design, development, and deployment decisions.
    In addition, the Department is developing a cybersecurity in 
acquisition enclosure to DODI 5000.02 in order to more strategically 
align cybersecurity activities across the acquisition and operational 
communities. This update is intended to synchronize efforts that are 
underway to strengthen our cybersecurity posture and enable systems to 
maintain critical mission capabilities in a cyber-contested operational 
environment. The enclosure, along with the existing PPP for acquisition 
programs, further defines DODI 8500.01, ``Cybersecurity,'' and DODI 
8510.01, ``Risk Management Framework for DOD Information Technology,'' 
for defense weapon systems and acquisition programs.
                      dod roles & responsibilities
    6. Senator Inhofe. How does the U.S. deter cyber-attacks?
    Secretary Work. The Department of Defense (DOD) seeks to deter 
adversaries from conducting malicious cyber activities of significant 
consequence; this effort focuses on denying the adversary the ability 
to achieve the objectives of a cyber-attack, being able to impose costs 
on the adversary, and ensuring that our computer systems and networks 
are resilient.
    Key elements of a deterrence approach include declaratory policy, 
indications and warning, defensive posture, response procedures, and 
network resilience. DOD has a number of specific roles to play in this 
approach, which are nested within DOD's core cyberspace missions and 
the new DOD Cyber Strategy.
    Deterrence is a function of perception and convincing a potential 
adversary that the costs of conducting an attack outweigh any potential 
benefits. The Department must also demonstrate the futility of such 
attacks through network defense and resilience and by showing that DOD 
will be able to continue its mission even while under attack. DOD must 
maintain capabilities to affect an adversary's behavior by shaping the 
environment, controlling escalation, and, when necessary, imposing 
costs.

    7. Senator Inhofe. Do you consider all cyber-attacks against the 
U.S. a national security threat? If no, how do you determine what 
constitutes a national security threat?
    Secretary Work. Not all malicious cyber activities directed towards 
the United States constitute a national security threat, but some may 
rise to that level. The determination of what constitutes a national 
security threat, in or out of cyberspace, would be made on a case-by-
case and fact-specific basis by the President. There would likely be an 
accompanying assessment of the seriousness of a particular act. Cyber 
activities that cause death, injury, or significant destruction would 
be carefully assessed to determine if they should be considered 
unlawful attacks or ``acts of war.'' The context for these events would 
also be important to consider, and cyber activities should not be 
viewed in isolation.

    8. Senator Inhofe. What triggers DOD involvement in a cyber-attack 
against the U.S.?
    Secretary Work. The Department of Defense (DOD) is involved on a 
daily basis in countering cyber-attacks against the United States 
through the defense of its own networks, which are constantly under 
attack.
    In addition to defending its own networks, one of DOD's three 
missions in cyberspace is to be prepared to defend the United States 
and its interests against cyber-attacks of significant consequence. If 
directed by the President or the Secretary of Defense, the U.S. 
military may conduct cyber operations to counter an imminent or on-
going attack against the U.S. homeland or U.S. interests in cyberspace. 
The purpose of such a defensive measure is to blunt an attack and 
prevent the destruction of property or the loss of life.
    In the event of an attack on domestic interests that are not of 
national security consequence, DOD may respond in a supporting capacity 
to requests for assistance from the Department of Homeland Security, 
the Federal Bureau of Investigation, as well as other departments and 
agencies.

    9. Senator Inhofe. Do you have the rules of engagement you need or 
do they need to be modified?
    Secretary Work. Rules of engagement are one of the many factors we 
consider when planning cyber operations. The current rules of 
engagement do not unduly restrict our ability to carry out current 
operations. The Department continually reassesses the rules of 
engagement required to complete its assigned missions.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                       detention facility at gtmo
    10. Senator Ayotte. Secretary Work, why does it make sense to this 
administration to provide weapons to moderate Syrian fighters but not 
to Ukraine--a legitimately elected democracy simply seeking to maintain 
their territorial integrity, protect their sovereignty, and choose 
their own future?
    Secretary Work. Our different approaches towards resolving the 
conflicts in Syria and Ukraine reflect our assessment of the most 
effective ways for countering threats emanating from each country. In 
Syria, countering the Islamic State of Iraq and the Levant (ISIL) 
threat requires sustained kinetic strikes against the group and 
enabling local forces that defend against and eventually go on the 
offense against the group. For this reason, the Department is committed 
to its objective of providing support--including weapons and 
ammunition--to moderate Syrians fighting ISIL and will focus on finding 
ways to enable already successful counter-ISIL operations by groups on 
the ground.
    As the President has said, the provision of defensive lethal 
assistance to Ukraine remains an option; however, assistance to date 
has been calibrated towards supporting a diplomatic solution to the 
crisis. Since the first of September, a ceasefire has held and the 
parties are now moving toward elections and greater implementation of 
the Minsk Agreements. While not providing lethal assistance, we have 
committed substantial resources to help Ukraine, with more than $266 
million in equipment and training committed since the beginning of the 
crisis.
             vulnerability of dod's weapons to cyber attack
    11. Senator Ayotte. As you noted in your prepared statement, 
Secretary Work, ``Without secure systems, we cannot do any of our 
missions.'' Admiral Rogers and Secretary Work, can we be confident that 
America's military systems (IT systems, as well as strategic and 
conventional weapons) will function properly if we are forced to engage 
in a full spectrum conflict against a near pear competitor employing 
sophisticated cyber attacks?
    Secretary Work. I cannot say that I am one hundred percent 
confident that our military systems will be able to withstand a 
sophisticated cyber-attack. That said, we are doing what we can, 
through three mission areas, to mitigate this risk and to raise our 
level of confidence.
    The first mission area is focused on defending our own networks and 
weapons because they are critical to what we do every day. We consider 
this form of mission assurance to be our top priority, and we have put 
in place mechanisms to reduce risk, enhance resilience, and increase 
accountability for mitigation of vulnerabilities. Second, we help 
defend the nation against cyber threats--especially if they would cause 
loss of life, property destruction, or significant foreign policy and 
economic consequences. Our third mission is to provide integrated cyber 
capabilities to support military operations and contingency plans, if 
directed by the President or the Secretary of Defense.
    Admiral Rogers. [Deleted.]

    12. Senator Ayotte. DOD's Defense Science Board produced a January 
2013 Task Force Report entitled ``Resilient Military Systems and the 
Advanced Cyber Threat''. Secretary Work, what steps to improve this 
situation has DOD undertaken since this January 2013 report?
    Secretary Work. Since the study, there have been significant 
leadership initiatives to address cyber, as evidenced by Department 
policy, investment, and boards. With the participation of the United 
States Strategic Command and the Department of Defense (DOD) Chief 
Information Officer, the Department has conducted a series of cyber 
risk assessments, and we are now proceeding to identify and prioritize 
elements of conventional force structure, platforms, and weapon systems 
for cyber resilience. In accordance with the DOD Cyber Strategy, the 
Department has refocused intelligence to be able to understand, 
predict, and attribute cyber capabilities, plans, and intentions of 
adversaries. The Department has also established and are manning, 
training, and equipping the Cyber Mission Forces (CMF). The Department 
is also building both offensive capabilities and capabilities to 
respond to cyber-attacks.
    To combat mid-tier threats, the Department maintains defense of 
information environments as a top priority, and evaluating key cyber 
terrain using CMF Cyber protection teams. To change the DOD culture 
regarding cyber and cyberspace security, the Department has initiated 
accountability scorecards and expanded workforce training. The 
Department is equipping program managers, updating policy, and 
expanding the capability and use of red teams to evaluate and adjust 
designs, acquisition, and operations. In addition, the Department is 
continuing to leverage the Defense Science Board's wise counsel through 
a number of studies currently underway on the subjects of cyber 
defense, supply chain, and deterrence.

    13. Senator Ayotte. Secretary Work, how are we incorporating 
lessons learned regarding cyber resilience into programs for new DOD IT 
systems and weapons systems?
    Secretary Work. The Department of Defense (DOD) is implementing 
risk-based approaches to manage evolving cybersecurity threats, achieve 
mission objectives, and develop resilient weapon systems and 
information systems by better integrating cybersecurity activities 
during system development. DOD cybersecurity policy \1\ requires that 
robust cybersecurity processes be applicable to all systems containing 
information technology, including weapons systems. DOD is developing 
guidance for a new cyber survivability element of the System 
Survivability key performance parameter.
---------------------------------------------------------------------------
    \1\ Including DODI 8500.01, ``Cybersecurity,'' dated March 14, 
2014, and DODI 8510.01, ``Risk Management Framework for DOD Information 
Technology,'' dated March 12, 2014.
---------------------------------------------------------------------------
    To achieve stringent DOD mission assurance goals, we are enhancing 
system security engineering, expanding early testing to include cyber 
resiliency, updating requirements for survivability, and updating how 
program protection planning is executed in the defense acquisition 
system. In addition, DOD continues to mitigate cyber vulnerabilities in 
systems and conducts operational tests assuming a cyber-contested 
environment.

    14. Senator Ayotte. Secretary Work, is there a systematic process 
that requires program managers to incorporate cyber resilience into DOD 
programs from the beginning rather than as an afterthought?
    Secretary Work. Resiliency is an essential element of an overall 
Department cyber defensive strategy. While traditional strategies have 
focused on keeping cyber adversaries ``out,'' more effective new 
strategies, combined with a resiliency focus, ensure that critical 
capabilities continue despite successful attacks. Program managers 
address cyber resilience requirements in their system technical 
requirements, which are included in technology and product development 
solicitations and inform system definition and design. The 
cybersecurity risk management guidebook for program managers and the 
new cybersecurity enclosure to the Department's acquisition system 
policy reinforce incorporation of cyber resilience and cybersecurity 
requirements starting from the beginning of the system life cycle. 
Program protection plans, supply chain risk management analysis, test 
planning, and life cycle management processes are being adjusted and 
improved to enhance our systems' ability to operate in a cyber-
contested environment and maintain robustness.
    These efforts to place requirements, develop cyber resilient 
systems, expand the Department's testing regime, and equip program 
managers to work effectively with industry will enhance the 
Department's ability to deliver cyber resilient systems through 
acquisition by considering integrated cyber risk management and early 
development of plans to proactively ensure that cyber resilience is 
maintained throughout the life cycle.
                russian inf violations and dod response
    15. Senator Ayotte. Secretary Work, you agreed in the hearing that 
Russia has violated the INF. Why is DOD waiting for Russia to field the 
system in question to respond if Russia has already violated the INF by 
flight testing the respective system? Is violation of the treaty not 
enough to respond?
    Secretary Work. The Administration is not waiting on Russia to 
field this system and is examining options to respond to the Russian 
violation. The Intermediate-range Nuclear Forces (INF) Treaty has 
served the strategic interests of the United States, North Atlantic 
Treaty Organization Allies, and Russia since it entered into force. The 
Administration is seeking to convince Russia that it is in its interest 
to return to compliance. However, American patience is not without 
limits; accordingly, the Department is considering an array of 
responses to the Russian violation that will ensure Russia gains no 
significant military advantage from its violation.
     better use of guard and reserve to improve our cyber readiness
    16. Senator Ayotte. Secretary Work, in your prepared statement you 
note that ``Successfully executing our missions in cyberspace requires 
a whole-of-government and whole-of-nation approach.'' Admiral Rogers 
and Secretary Work, in light of this growing cyber threat and the need 
to respond with a ``whole-of-government and whole-of-nation approach'', 
how can we better utilize our nation's Reserve and National Guard 
forces to 1) defend DOD systems; 2) defend the nation against major 
cyber-attacks; and 3) provide cyber support to operational commanders?
    Secretary Work. The Army will implement one full-time Army National 
Guard Cyber Protection Team (CPT), and ten part-time Army National 
Guard CPTs. The Air Force will leverage 12 Air National Guard Cyber 
Operations Squadrons to develop two full-time CPTs, three Air National 
Guard squadrons to develop the cyber operations component of one 
National Mission Team, and will create one Air Force Reserve unit in a 
classic associate unit construct to comprise three cyber mission force 
required CPTs. The Navy and Marine Corps will continue to augment 
vacancies in their Cyber Mission Force (CMF) teams by leveraging their 
Reserve Forces as individual mobilization augmentees.
    Continuing to rotate National Guard forces through the CMF and 
improving synchronization of federal interagency and the state response 
(including State use of National Guard cyber capabilities) provides the 
Department a method to better utilize National Guard capabilities. 
Integration of the National Guard into the CMF provides surge 
capability to the Department. This capability also makes experienced 
units available to the Governors for State use when not in federal 
service. Continuing to improve synchronization of Federal and State 
responses will allow for more effective use of the National Guard as a 
state response resource and foster better information sharing across 
whole-of-government and whole-of-nation in defense of the nation.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                      nsa-like authorities for dhs
    17. Senator Ayotte. Director Clapper and Admiral Rogers, the 
Federal Information Security Management Reform Act of 2015 (FISMA 
Reform) was introduced in July and it would benefit immensely our 
federal civilian network security from streamlined and clear 
authorities for DHS, which has the lead for safeguarding the cyber 
domain for federal civilian agencies (.gov), yet has limited authority 
to do so. How important is it to be able to move quickly, decisively, 
and with legal authority when an intrusion is detected?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    18. Senator Ayotte. Admiral Rogers, how important is it to have a 
clear delineation of responsibilities to act?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    19. Senator Ayotte. Director Clapper and Admiral Rogers, based on 
your experience, what are the most important aspects of robust 
detection and mitigation of cyber intrusions?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Admiral Rogers. Ideally, cyber intrusions are detected and 
mitigated at machine speed using automation. End point protection 
capabilities, such as Host Based Security System (HBSS), along with 
additional layers of defense at various tiers throughout the Department 
of Defense Information Network (DODIN) provide a wide breadth of 
protection. These multiple layers of protection (i.e. HBSS, Web Content 
Filtering (WCF), Demilitarized Zone (DMZ), etc.) provide sensing and 
blocking of threats at all tiers within the DODIN architecture along 
with the associated command and control (C2) to drive response actions 
should automated mitigation fail. In addition to these efforts, the 
commercial sector, mission partners, DOD Components, and the 
Intelligence Community (IC) all play a crucial role regarding 
information sharing and strengthening the security posture of the 
DODIN. The other most important aspect of robust detection and 
mitigation of cyber intrusions is trained personnel at the network 
operations centers, at the Computer Network Defense Service Providers, 
and throughout the Cyber Mission Force. If the end point protection 
system does not catch the initial download of malicious software, it 
takes the operators' keen observation of network activity or the 
analysts' scrutiny of security logs to detect adversary activity and 
take action to eradicate adversary presence on the network. In 
addition, current and effective policy and processes improve our 
ability to block potential threats to the DODIN.
                      genocide in iraq and syria?
    20. Senator Ayotte. Director Clapper, according to the United 
States Commission on International Religious Freedom's annual report 
for 2015, Yazidis and Christians in Iraq and Syria have endured a 
``systematic campaign'' of persecution which has included summary 
executions, forced conversions, rape, sexual enslavement, child 
abduction, and destruction of houses of worship. Do you assess that 
ISIS has undertaken a ``systematic campaign'' of persecution against 
religious and ethnic minorities?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.

    21. Senator Ayotte. Director Clapper, article II of the 1948 United 
Nations Convention on the Prevention and Punishment of the Crime of 
Genocide defines genocide as any act committed with the intent to 
destroy all or part of a national, ethnic, racial, or religious group. 
Based on your knowledge of the situation in Iraq and Syria, do you 
assess that ISIS's actions in Iraq and Syria against religious and 
ethnic minorities amounts to genocide?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
           u.s. military superiority and chinese cyber theft
    22. Senator Ayotte. All witnesses, how would you characterize the 
scale and severity of the cyber theft that China is committing against 
U.S. defense companies?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. That is a difficult question to answer. The full 
extent or pervasiveness of China's infiltration and persistence within 
the Defense Industrial Base, or other commercial entities is unknown.
    There are several objectives listed within the Department of 
Defense (DOD) Cyber Strategy (objectives 2(m), 2(o), 2(p), and 2(q)) 
that specifically focus on the problem related to the theft of 
intellectual property. Accordingly, the Office of the Under Secretary 
of Defense for Acquisition, Technology, and Logistics is well on its 
way toward establishing a Joint Acquisition Protection and Exploitation 
Cell to link intelligence, counterintelligence, law enforcement, and 
acquisition communities to enable Controlled Technology Information 
protection efforts across the DOD enterprise. Such a cell would allow 
DOD, by the end of 2016, to mitigate future losses proactively and to 
exploit opportunities to deter, deny, and disrupt adversaries that may 
threaten the U.S. military advantage.
    Finally, DOD is not addressing this problem alone. For example, 
objectives 2(o) and 2(q) of the DOD Cyber Strategy call for further 
voluntary and cooperative engagement between the Defense Industrial 
Base and DOD. Through these objectives, the Department is promoting 
cyber threat awareness, information sharing, and collaboration on 
technical innovations geared toward disrupting and denying the theft of 
intellectual property.
    Admiral Rogers. [Deleted.]

    23. Senator Ayotte. All witnesses, how has this theft impacted U.S. 
military superiority relative to China?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. China's cyber-enabled theft of intellectual 
property from U.S. defense companies has likely eroded, though not 
negated, U.S. military superiority relative to China. As Secretary 
Carter has emphasized, it would take years for any country to build the 
military capability the United States has today. Nevertheless, the 
Department will continue to make the investments necessary to maintain 
military dominance, while continuing to take all lawful measures to 
stop the theft of information.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                             policy changes
    24. Senator Ayotte. Admiral Rogers, what specific policy/statutory 
changes are needed to help CYBERCOM?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                    cyber and the reserve component
    25. Senator Ayotte. Secretary Work and Admiral Rogers, Secretary 
Carter outlined a program to engage with the civilian sector in Silicon 
Valley. In terms of cyber, what other efforts are ongoing to capitalize 
on the technology center of excellence? How might you use the Reserve 
Component to do the same thing?
    Secretary Work. The Defense Innovation Unit Experimental (DIUx) has 
engaged deeply with the cyber-related companies in Silicon Valley. As 
an example, on October 20, 2015, DIUx hosted a Cyber Showcase for ADM 
Rogers, where seven newly formed companies presented their technologies 
to an audience that included government experts, cyber-related 
companies, and Silicon Valley venture capitalists. As a result of this 
showcase, the Department is exploring pilot projects with several of 
these companies. This is just one aspect of the DIUx mission to engage 
with the Silicon Valley innovation ecosystem.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    26. Senator Ayotte. Secretary Work and Admiral Rogers, to protect 
our country against cyber theft and attack requires coordination with 
many civilian agencies and state governments. How is the Reserve 
Component being leveraged to do this?
    Secretary Work. The Reserve Component is already engaged in 
associate unit roles, training functions, and fully integrated into 
Cyber Command and Control and operational units. A key reason these 
units are successful is many of the Reserve members are also full time 
industry experts in areas such as cybersecurity, digital forensics, and 
many other relevant networking essentials. Their commercial experience 
and certifications are directly brought to bear when in their Reserve 
role supporting States and the interagency. Capitalizing on commercial 
best practices is a common thread the Reserve teams bring to the cyber 
workforce. Exercises such as US Cyber Command's CYBER GUARD provide an 
opportunity for Guard, Reserve, and Active Duty to focus on the cyber 
aspect and work with critical infrastructure providers. States and 
federal agencies, including the Department of Homeland Security, 
determine procedures, requirements, and authorities required for our 
national security.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    27. Senator Ayotte. Secretary Work and Admiral Rogers, what has 
been done--and what still needs to be done--to assure National Guard 
cyber mission forces receive the required number of military school-
house seats, training days and other resources needed to leverage their 
civilian-acquired cyber skills for protection of our national security 
interests?
    Secretary Work. National Guard and Reserve forces are part of the 
overall total force's training requirements. Each of the Services 
prioritizes its training capacity to ensure cyber mission forces are 
brought on-line as quickly as possible. In collaboration with US Cyber 
Command, the National Security Agency's Associate Director for 
Education and Training (ADET) has increased training capacity, 
providing seats for both the Active and Reserve Components. 
Additionally, ADET has offered guidance and assistance to the National 
Guard's Professional Education Center and to the US Cyber Command 
Reserve Force Advisor on how to meet the Reserve Component demand for 
general cyber training. This effort continues. Early on in the fielding 
of the Cyber Mission Force, the Department recognized the need for a 
mechanism to evaluate Services members' skills and experience and 
provide credit where appropriate. US Cyber Command's Individual 
Training Equivalency Board was created to provide members of the Active 
and Reserve Components equivalency based on their civilian acquired 
skills. This board minimizes the overall training demand and more 
quickly provides the nation with a cyber capability.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                                  iran
    28. Senator Ayotte. Director Clapper, does Iran continue to develop 
capabilities useful for an ICBM program? When do you estimate that Iran 
will attain an ICBM capability?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
                               __________
               Questions Submitted by Senator Mike Rounds
                                 china
    29. Senator Rounds. Director Clapper, Secretary Work and Admiral 
Rogers, last week, the President announced that the United States and 
China have agreed not to conduct or knowingly support cyber enabled 
theft of intellectual property including trace secrets or other 
confidential business information for commercial advantage. Isn't this 
agreement made meaningless by the fact that China has repeatedly denied 
that it engages in the activities this agreement purports to stop?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. The United States has been clear with the Chinese 
Government that the United States is watching to ensure that the 
Chinese follow through on their commitment. Should China continue to 
engage in cyber-enabled economic theft, the United States can now hold 
China accountable for adhering to its own promise, rather than arguing 
over China's previous claims that economic theft is no different than 
traditional intelligence collection. It is important to note that these 
commitments do not take off the table any options that we might use to 
defend our companies from malicious cyber threats. As President Obama 
stated in September 2015, if China's aggressive cyber actions do not 
stop, the United States is prepared to take countervailing actions at 
the time and place of our choosing.
    Admiral Rogers. The United States and China have reached a common 
understanding on the way forward, which is what matters. We have agreed 
that neither the United States nor the Chinese government will conduct 
or knowingly support cyber-enabled theft of intellectual property, 
including trade secrets or other confidential business information for 
commercial advantage. We are watching carefully to make an assessment 
as to whether progress has been made in this area. The Department is 
focused on working with Congress, other U.S. departments and agencies, 
and the private sector to strengthen our ability to detect, attribute, 
and respond to future cyber intrusions.

    30. Senator Rounds. Have you assessed whether you would be able to 
adequately verify such an agreement?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. Yes, the Department and Intelligence Community will 
work to verify the cyber agreement reached during President Xi 
Jinping's 24-25 September 2015 state visit. The agreement consisted of 
four key commitments focused on the provision of assistance and 
information on, and investigation of, malicious cyber activities; that 
either state would not conduct or knowingly support theft of 
intellectual property with the intent of providing competitive 
advantages to companies or commercial sectors; to identify and promote 
norms of behavior in cyberspace within the international community; and 
establish a high level joint dialogue mechanism on fighting cybercrime 
or related issues. The ``trust, but verify'' whole-of-government 
approach will be implemented through traditional intelligence methods 
and enhanced with engagement via open dialogue to ensure transparency.
    The United States will have to watch China's behavior, and it will 
be incumbent on the Intelligence Community to depict and help portray 
to policymakers what behavioral changes, if any, may result from 
confronting the Chinese with evidence of any transgression or violation 
of this agreement. In addition, the United States will need to continue 
to use all instruments of national power to deter this kind of behavior 
and work closely with interagency and international partners to explore 
additional whole-of-government approaches to impose costs on China in 
order to deter unacceptable behavior.
    Admiral Rogers. The DOD, in coordination with other Departments and 
Agencies, as well as the private sector, continues to improve our 
capacity to detect, attribute, and respond to cyber intrusions.

    31. Senator Rounds. Are you aware of any commitments by China to 
stop stealing personally identifiable information such as the hack 
against Anthem that included the information of nearly 80 million 
Americans? What about OPM?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. No. The cyber agreement and associated commitments 
reached during President Xi Jinping's 24-25 September 2015 state visit 
did not address personally identifiable information (PII). As for the 
specific hacking examples given in this question, it should be 
acknowledged that these unattributed activities have been characterized 
by the Intelligence Community as a form of ``cyber espionage.'' As 
illustrated so dramatically by the OPM breaches, counterintelligence 
risks are inherent when foreign intelligence agencies obtain access to 
an individual's PII and virtual identifiable information. Hence we can 
expect foreign intelligence agencies and non-state entities to continue 
to target PII using a variety of physical and electronic methods for 
espionage purposes.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                response to cyber attacks on u.s. forces
    32. Senator Rounds. Admiral Rogers, you have advocated that cyber 
could be treated like any other military domain: air, land, sea, and 
space. In that context, do you believe the response to a cyber-attack 
on the U.S. or our forces overseas should be based upon the same 
policies governing response to a kinetic attack?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    33. Senator Rounds. If not, how should our responses differ for a 
kinetic attack versus a cyber-attack?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    34. Senator Rounds. How might our response vary depending upon 
which nation conducted the cyberattack, specifically Russia, China, 
North Korea, or Iran?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    35. Senator Rounds. If yes, why have we taken no action against the 
Chinese after the devastating cyber-attacks they have conducted against 
us?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    36. Senator Rounds. If yes, how can we attribute the attack? How do 
we detect the `fingerprints' of an attacker?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                               __________
                Questions Submitted by Senator Ted Cruz
      cyber attacks combined with conventional or nuclear attacks
    37. Senator Cruz. Director Clapper, would you rank and characterize 
the threat level of the cyber capabilities demonstrated by Russia, 
China, Iran, and North Korea?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.

    38. Senator Cruz. Is there a particular signature or methodology to 
the cyber capabilities we see each of these countries developing?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.

    39. Senator Cruz. Admiral Rogers, how robust are the efforts of 
Russia, China, Iran, and North Korea to integrate cyber operations into 
their conventional or nuclear warfare strategies?
    Admiral Rogers. [Deleted.]

    40. Senator Cruz. How capable are they of sowing confusion or 
casting doubt on the reliability or effectiveness of the radars, space 
based systems, and other early warning systems that we or our allies 
use?
    Admiral Rogers. [Deleted.]
              cyberespionage, cybercrime, and cyberwarfare
    41. Senator Cruz. Director Clapper, Secretary Work, and Admiral 
Rogers, how do you distinguish the difference between cybercrime, cyber 
espionage, and cyber warfare?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. The Department of Defense approaches cyberspace as 
a domain, alongside air, maritime, ground, and space. The distinctions 
between crime, espionage, and warfare in cyberspace are made similarly 
to how they would be made in any other context; taking into account the 
nature and effects of an action and the actor initiating it.
    Cybercrime refers to any illegal activity that uses a computer as 
its primary means of commission. It can take a variety of forms, from 
online fraud, to cyberstalking, to data theft.
    Cyberespionage is the use of computer systems and/or networks in 
order to obtain, deliver, transmit, communicate, or receive information 
about national defense with an intent, or reason to believe that the 
injury may be used to injure the United States or the advantage of a 
foreign nation. Espionage is a violation of Title 18 of the United 
States Code and would also be considered a cybercrime.
    Warfare in and through cyberspace is typically conceptualized as 
state-on-state or state-on-nonstate action equivalent to an armed 
attack or use of force in cyberspace that may trigger a military 
response with a proportional use of force.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    42. Senator Cruz. Do you believe that gaining access or 
infiltrating critical infrastructure is an act of espionage, or an act 
of warfare?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. Critical infrastructure--the physical and virtual 
assets, systems, and networks vital to national and economic security, 
health, and safety--is vulnerable to cyberattacks by foreign 
governments, criminal entities, and lone actors. In cases involving 
cyberespionage, the attacker establishes access, periodically revisits 
the victim's network, and steals their intellectual property. By 
contrast, in cases of cyber warfare, if an adversarial nation launches 
a sophisticated, targeted cyber-attack that takes down significant 
parts of our critical infrastructure, the consequences could be 
significantly disruptive or potentially devastating. Determining 
whether such an incident would constitute cyberespionage or an act of 
warfare would depend upon the facts of the case.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    43. Senator Cruz. Do you believe that damaging or destroying those 
systems constitutes an act of cyber warfare?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. The United States is vulnerable to cyber intrusions 
and potential cyberattack against our critical infrastructure. 
Cyberattacks can affect our critical infrastructure, the national 
economy, and military operations. Determination of whether an incident 
is an act of war should follow the same practice as in other domains, 
because it is the severity, not the means of an attack, which matters 
most. Whether a particular attack is considered an ``act of war,'' in 
or out of cyberspace, requires determination on a case-by-case and 
fact-specific basis. Malicious cyber activities could result in death, 
injury, or significant destruction. Any such activities would be 
regarded with the utmost concern. The Department is pursuing several 
initiatives to reduce our vulnerabilities and works in close 
collaboration with Department of Homeland Security on protecting 
critical infrastructure.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    44. Senator Cruz. How would you classify theft or alteration of 
personnel information in a database? How would you classify disruption, 
degradation, or destruction of sensors and early warning systems?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. The Department takes these kinds of actions very 
seriously and classification of specific actions such as these must be 
made on a case-by-case basis, according to the facts. In the case of 
theft or alteration of personnel information in a database, we would 
assess the action, the actor, the effects and the possible intent. 
Depending on the assessment, such actions would be considered acts of 
espionage or criminal acts. We would make a similar assessment for 
disruption, degradation, or destruction of sensors and early warning 
systems. Such actions could be considered a use of force depending on 
the specific circumstances.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    45. Senator Cruz. In instances where these activities might cross 
lines or lie across multiple definitions, how will the scope and scale 
of the instance be considered?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. Malicious cyber activity could potentially cross 
categories or definitional lines depending on the specific facts of 
each case. The scope and scale of a particular act will be an important 
consideration for policymakers, for example, the scope/scale of any 
impacts on services being provided to citizens or scope/scale of damage 
to property.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    46. Senator Cruz. Is there a timeframe or window for that 
consideration?
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Secretary Work. There is no specific timeframe for determining how 
a cyberattack should be categorized or defined. While the Department 
must be prepared to respond very quickly to blunt or respond to a 
cyberattack, the United States reserves the right to respond to 
malicious cyber activity at a time, place, and manner of its choosing. 
These determinations must be made on a case-by-case and fact-specific 
basis, with due consideration for the seriousness of a particular act. 
Based on the specifics of the situation, departments and agencies work 
as quickly as possible to provide their assessments of a particular 
situation to the President and his national security team.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                   norms in cyberspace and deterrence
    47. Senator Cruz. Director Clapper stated that the absence of 
universally accepted and enforceable norms has contributed to cyber 
threats we face. However, I would argue that it isn't just an absence 
of norms. The Ayatollah in Iran cares nothing for international norms; 
neither does ISIS. Similarly, Putin cares little about the 
international community and will act if he believes he can get away 
with it. We talk of norms, but the Chinese have a long track record of 
flouting the legal guidelines for intellectual property. Despite 
China's membership in the World Trade Organization, they consistently 
fail to fulfill WTO obligations. The glaring reality is that we must 
have a means to visibly deter our adversaries and holding them 
accountable if they choose to conduct offensive operations against our 
national security interests. Admiral Rogers, what do you require in the 
form of policy or guidance in order to improve our deterrence 
capabilities?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    48. Senator Cruz. Admiral Rogers, if tasked to do so, do you 
possess the capabilities to effectively retaliate against any adversary 
in the cyber domain?
    Admiral Rogers. (Deleted.]

    49. Senator Cruz. Admiral Rogers, if so ordered, could you destroy 
networks and devices, or harm physical infrastructure in the states or 
regions that choose not to follow norms of behavior? If not, what would 
it take to develop those capabilities?
    Admiral Rogers. [Deleted.]

    50. Senator Cruz. Admiral Rogers, if the Chinese continue to 
violate norms of behavior surrounding intellectual property and defense 
information, do you possess the capability to tear down the Great 
Firewall and reveal to the citizens of China the extent of censorship 
the Communist Party imposes on them?
    Admiral Rogers. [Deleted.]

    51. Senator Cruz. Secretary Work, how do you plan to engage the 
other pillars of influence in response to a cyberattack?
    Secretary Work. The Administration is pursuing a comprehensive 
strategy to confront malicious cyber actors. That strategy includes 
diplomacy, law enforcement, and other measures such as sanctions on 
individuals or entities that engage in certain significant, malicious 
cyber-enabled activities. The Department is fully integrated in the 
Administration's efforts to ensure a cyberattack is met with a whole-
of-government response. The Department coordinates closely with the 
Department of Homeland Security, the Federal Bureau of Investigation, 
and other departments and agencies across the government, as well as 
key stakeholders outside of government. The intent of this approach is 
to ensure the United States can respond in any manner appropriate at 
the time, manner, and place of our choosing as the President has 
previously stated.

    52. Senator Cruz. Secretary Work, do you have the necessary tools 
to isolate and retaliate against the aggressor, particularly if that 
aggressor is a non-state actor?
    Secretary Work. The Department of Defense has demonstrated its 
ability to isolate and remove malicious actors from our networks 
effectively, regardless of whether they are a State or non-State actor. 
The Department continues to develop tools and capabilities to improve 
the timeliness of responses, to harden defenses, and to mitigate any 
malicious activity.
    The Department continues to develop our cybersecurity response 
capabilities, but any response to malicious cyber activity will be at a 
time, manner, and place of the President's choosing. Potential 
aggressors must know that we will be able to hold them accountable, 
using appropriate instruments of U.S. power and in accordance with 
applicable law.
                  adequate resources for cybersecurity
    53. Senator Cruz. Admiral Rogers, you coordinate the efforts of the 
National Mission Teams responsible for defending the nation's critical 
infrastructure. Toward that end, how many state backed adversaries or 
groups are you currently monitoring and countering, how many non-state 
actors or groups are you currently monitoring and countering, and how 
many National Mission Teams currently work full time to counter these 
groups?
    Admiral Rogers. [Deleted.]

    54. Senator Cruz. Admiral Rogers, do you believe that you have 
adequate resources to offset the number and volume of threats, and 
defend the critical infrastructure and defense networks of this nation?
    Admiral Rogers. [Deleted.]
                               __________
                Questions Submitted by Senator Jack Reed
   authority for imposing sanctions on china for industrial espionage
    55. Senator Reed. Secretary Work, President Obama in April 2015 
signed an executive order establishing a process to impose sanctions 
for industrial espionage through cyberspace under the International 
Emergency Economic Powers Act (IEEPA) and other authorities and 
statutes. Prior to this action, Senator Levin and Senator McCain, with 
co-sponsors, included a provision (section 1637) in the Fiscal Year 
2015 NDAA granting the President under IEEPA to impose such sanctions. 
Yet, to my knowledge, the President and his staff have not referenced 
this congressional grant of authority that buttresses the order he 
imposed. Since the President's power is at its strongest when he acts 
with congressional concurrence, and since doing so would help to 
persuade China of our seriousness, the President's omission is more 
than curious. Do you have an explanation for why the President has not 
cited this explicit congressional support for threatening and imposing 
sanctions in response to industrial espionage through cyberspace
    Secretary Work. My understanding is that the Administration 
supports and welcomes section 1637 of the National Defense 
Authorization Act for Fiscal Year 2015 and views it as a valuable tool 
for compelling foreign countries, including China, to refrain from 
economic or industrial espionage in cyberspace.
                               encryption
    56. Senator Reed. Admiral Rogers, twice in the 1990s NSA rang alarm 
bells over encryption, predicting that strong encryption would become 
ubiquitous. The first time was in the early-to-mid 90s, when NSA 
proposed the adoption of the so-called ``Clipper Chip'' that would 
enable the government to access unenciphered content through legal 
processes. The second time was in the late 90s when companies overseas 
began selling strong commercial encryption and U.S. companies demanded 
easing of export controls to enable them to compete globally. In both 
cases, the dire predictions of NSA and law enforcement officials did 
not materialize. What makes this situation different?
    Admiral Rogers. Since the mid-90's, encryption has grown in 
complexity and difficulty, and it is now used to protect millions of 
daily communications across the global network. It is used by friend 
and foe alike. However, the National Security Agency (NSA) would not 
describe the situation as ``dire.'' The prevalence of encryption across 
the global network is good for the nation. It protects our daily 
commerce, and is an important element of cyber defense for individuals, 
corporations, and government.
    At the same time, the prevalence of encryption has provided 
adversaries of the United States the ability to communicate in a way 
that impairs the Intelligence Community's ability to gather information 
and understand their actions and motives. There is no one-size-fits all 
approach to dealing with the challenge of encryption. NSA continues to 
explore new techniques and methods to counter adversary use of 
encryption. Continued support of NSA's investment in world class 
technical talent, as well as the technology and tools needed to counter 
encryption is vital to give us the best chance of success.
elevating cyber command to a unified command and sustaining the ``dual 
   hatting'' of the commander of cyber command as the director of nsa
    57. Senator Reed. Secretary Work and Admiral Rogers: The Committee 
understands that the Chairman of the Joint Chiefs is considering 
recommending to the President that the next Unified Command Plan 
elevate Cyber Command from a sub-unified command under U.S. Strategic 
Command to a full unified command. It is rumored that the Department is 
not considering alteration of the current arrangement under which the 
Commander of Cyber Command also serves as the Director of NSA. The 
Armed Services Committee has for several years expressed concern about 
this dual-hat arrangement in the context of a decision to make Cyber 
Command a new unified command. There are reports that the Department 
fears that ending the dual-hat arrangement would result in NSA not 
sustaining the necessary level of support for the Command, despite 
NSA's designation under the Goldwater-Nichols Act as a combat support 
defense agency. Is this a genuine fear? It would be disturbing if NSA 
could not be counted upon to faithfully execute orders.
    Secretary Work. The National Security Agency (NSA) provides robust 
and excellent support to the Department and U.S. Cyber Command 
(USCYBERCOM), and I have the fullest confidence in NSA's willingness 
and ability to execute its mission. The dual-hat arrangement provides 
necessary support to USCYBERCOM as it continues to grow and mature in 
its mission execution, and the Cyber Mission Force benefits greatly 
from the experience of its NSA partner. The relationship between the 
two organizations demonstrates a unity of effort and close 
collaboration in a field of growing importance.
    The decision to decouple the organizations must rely upon a 
conditions-based approach that considers several criteria, including 
ensuring that USCYBERCOM is manned, trained, and equipped to fulfill 
its missions. One of the key considerations in prolonging the dual-hat 
arrangement is the efficiency created when allocating workforce 
resources, which are often common for both NSA's and USCYBERCOM's 
respective missions. In light of the current fiscal climate, as well as 
efforts to develop the DOD cyber workforce, we believe the dual-hat 
arrangement remains the prudent course of action at this time. However, 
I am grateful to Congress for the budgetary assistance in helping the 
Department and USCYBERCOM take on its new mission.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    58. Senator Reed. We have also heard the argument that Cyber 
Command is so dependent on NSA that separating these positions would 
put Cyber Command's effectiveness at risk. If this reflects the views 
of DOD's leadership, what does it say about the maturity of Cyber 
Command and its readiness to be a unified command?
    Secretary Work. I support the President's decision in December 2013 
to maintain the dual-hat arrangement for Cyber Command and NSA. The 
dual-hat arrangement has allowed for the unification of leadership for 
the organizations responsible for defending the nation in cyberspace 
and for signals intelligence. By virtue of their relationship, Cyber 
Command is able to fully leverage NSA's resources, enabling a more 
coordinated and rapid response to threats in cyberspace. The Department 
of Defense is in the third year of an ambitious plan to develop the 
Cyber Mission Force and develop additional capabilities as a sub-
unified command. As Cyber Command continues to mature, the Department 
will analyze and assess the merits of whether it should be elevated to 
a full unified combatant command.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    59. Senator Reed. The Services are just now reaching IOC for the 
bulk of the newly created cyber mission force units. Until we began 
fielding these units, Cyber Command had very few forces with which to 
execute its missions. Moreover, we are a number of years away from 
equipping these forces with the tools, weapons systems, infrastructure, 
and command and control capabilities they need to operate effectively. 
What does the lack of such capabilities say about the maturity of the 
Command?
    Secretary Work. The Department of Defense (DOD) is in the third 
year of an ambitious plan to build the Cyber Mission Force, which 
envisions 133 teams as fully manned, trained, and equipped by the end 
of Fiscal Year 2018. As part of this plan, DOD closely evaluates Cyber 
Command's maturation and its ability to execute its missions. This 
includes regularly assessing the resources, tools, infrastructure, and 
facilities needed to train, equip, and enable Cyber Mission Force team 
personnel to operate effectively. The Department also assesses the 
resources required to build and develop cyberspace operations, 
intelligence, and planning staffs that support operational and 
strategic level headquarters.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    60. Senator Reed. When Cyber Command was established, NSA leaders 
asserted that military and intelligence operations in cyberspace 
overlapped almost entirely, and argued that Cyber Command for 
efficiency and effectiveness should make use of the infrastructure, 
planning systems, and tools that NSA had already developed. NSA 
expected that a military command would operate much the same way that a 
signals intelligence agency would in cyberspace. Five years later, we 
know that these assumptions were incorrect. Cyber Command needs 
separate and different tools, infrastructure, training ranges, planning 
systems, TTPs, and command and control capabilities from those that NSA 
has developed for its own use. Cyber Command has surely benefited 
substantially from having a uniquely close relationship with NSA, but 
it also seems possible that NSA's views and assumptions could have held 
back the proper development of Cyber Command. What are your views on 
this possibility?
    Secretary Work. I do not believe that National Security Agency's 
(NSA) views and assumptions held back the development of Cyber Command. 
In fact, NSA played a direct role in supporting Cyber Command's 
development, providing critical expertise in training, education, 
certification, techniques, mission sharing, and capability development. 
In addition, by virtue of their relationship, Cyber Command leveraged 
NSA's cryptologic enterprise to enable a more coordinated and rapid 
response to countering threats in cyberspace. Cyber Command does need 
separate tools, infrastructure, and capabilities to conduct certain 
missions, but the arrangement between Cyber Command and NSA enabled 
Cyber Command to learn key lessons and mature as an enterprise.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    61. Senator Reed. Combatant commanders by design have broad and 
extensive command experience and education in combined arms and joint 
warfare. Traditionally, combatant commanders have been drawn from the 
ranks of combat arms officers or, in Navy parlance, ``officers of the 
line.'' NSA Directors, in contrast, are typically selected from the 
Service Cryptologic Elements, or at least from the ranks of 
intelligence specialists. Maintaining the dual-hat arrangement into the 
future will mean that either cyber combatant commanders are going to be 
intelligence specialists, or NSA will not be led by career intelligence 
officers, which may be a disservice to both organizations. What are 
your views on this dilemma?
    Secretary Work. The dual-hat remains important to the success of 
the Department's mission in cyberspace and thus far the arrangement has 
not created any sort of dilemma. I have full trust and confidence in 
the capabilities of past, present, and any future National Security 
Agency (NSA) Director/Commander, U.S. Cyber Command (USCYBERCOM), and 
their ability to fully support and command both organizations. NSA 
plays a unique role in supporting USCYBERCOM's mission and helps 
integrate capabilities and infrastructure and enable operational 
effectiveness while USCYBERCOM continues to build its capabilities and 
infrastructure.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    62. Senator Reed. When the CIA Director was also the Director of 
Central Intelligence--the head of the Intelligence Community--the 
intelligence agencies other than the CIA did not believe that the DCI 
was an honest broker. They believed that the DCI favored the CIA, and 
resisted centralized control and appeals to jointness. Dual-hatting the 
Commander as NSA Director would appear to present the same drawback: 
the military service cyber components would likely always see NSA as 
privileged and more powerful. Do you think that the dual-hat 
arrangement has potentially some unhealthy side effects?
    Secretary Work. The comparison between the previous situation when 
the Central Intelligence Agency director was also the Director of 
Central Intelligence and the current Director, National Security Agency 
(NSA)/Commander, U.S. Cyber Command (USCYBERCOM) dual-hatting can 
appear to be similar. However, in this case, the authorities, budgetary 
lines, and overall missions of USCYBERCOM and NSA are different, which 
alleviates risk of preferential treatment. Additionally, USCYBERCOM 
follows the same processes for requesting intelligence from the 
national intelligence system as other commands and agencies.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    63. Senator Reed. Have you considered the idea of keeping the dual-
hat arrangement only for a certain period of time, perhaps selecting a 
``sunset'' date when it would be ended, and Cyber Command would be 
expected to be self-sufficient except for those specialized needs that 
could and should be met by NSA as a combat support agency?
    Secretary Work. The dual-hat remains important to the success of 
the Department's mission in cyberspace. The National Security Agency 
plays a unique role in supporting U.S. Cyber Command's mission, 
providing critical support, including linguists, analysts, 
cryptanalytic capabilities, and sophisticated technological 
infrastructure. The dual-hat helps integrate capabilities and 
infrastructure and enable operational effectiveness while U.S. Cyber 
Command continues to build its capabilities and infrastructure. 
Building U.S. Cyber Command's capabilities is a top priority of the 
cyber strategy. If a decision is made to end the dual-hat arrangement 
it will be based on the capabilities and needs of the command rather 
than being tied to a set date.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                               __________
           Questions Submitted by Senator Kristen Gillibrand
                        dynamic threat response
    64. Senator Gillibrand. Admiral Rogers, in March you told us that 
one of the issues you have raised internally in the Department is 
``that in creating the force, we've allocated all very specifically 
across the board. And so one of the implications . . . [is] we perhaps 
didn't build in as much flexibility as our experience now is telling us 
perhaps we need. So, that's something, to be honest, within the 
Department, we're going to be looking at.'' Can you give us an update 
on any work you have done to create more flexibility?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    65. Senator Gillibrand. As we have seen in the past year, many 
cyber incidents have come to light that are not necessarily directed at 
the military, but at U.S. institutions, including other government 
agencies and private businesses. How do you see CYBERCOM supporting a 
whole of government approach to these major domestic cyber incidents?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    66. Senator Gillibrand. What do you need to better support a whole-
of-nation approach to a cyber incident?
    Secretary Work. Answer is for official use only and will be 
retained in committee files.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    67. Senator Gillibrand. After FY16, how will the people assigned to 
CYBERCOM receive the necessary training?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    68. Senator Gillibrand. How do we ensure that the reserve component 
gets equivalent and timely training?
    Secretary Work. The Department ensures the Reserve Component gets 
equivalent training by continued adherence to the Services' policies 
that stipulate that there is to be no differentiation in training 
requirements and standards between the Reserve and Active Components. 
Additionally, reliance on the Services' force generation models ensures 
that Reserve Component forces receive any additional equivalent 
training in accordance with timelines established by the Secretary of 
Defense (in response to Presidential/ National Security Council 
guidance).

    69. Senator Gillibrand. Please provide your thoughts on the 
relationship between the Department of Homeland Security (DHS) and DOD 
in terms of global cyber security roles and responsibilities.
    Secretary Work. The Department of Defense (DOD) works very closely 
with its interagency partners to ensure that it is building and 
implementing a whole-of-government approach to cybersecurity. DOD's 
relationships with the Department of Homeland Security (DHS) and the 
Department of Justice (DOJ) are and must remain strong, given that DHS 
and DOJ have the lead for domestic response to cyber threats. In this 
context, DOD has a support role.
    DOD and DHS regularly collaborate and share information through a 
variety of channels, ranging from daily communication between 
operational centers to interagency forums. The two organizations also 
exercise together to ensure unity of effort across the departments and 
determine what assets and resources DOD may be able to provide to 
support DHS and DOJ in an emergency.
    We continue to develop ways to improve collaboration and 
information sharing to protect and defend U.S. critical infrastructure, 
to create consistent approaches to cybersecurity across both national 
security and non-national security systems, and to enhance our ability 
to prevent, mitigate, respond to, and recover from domestic cyber 
incidents.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    70. Senator Gillibrand. What specifically do you see as the 
Department of Defense's role in support of the states, DHS and FBI?
    Secretary Work. Ensuring the nation's cybersecurity is a shared 
responsibility. The Department of Homeland Security (DHS) is the lead 
federal department responsible for national protection against, 
mitigation of, and recovery from domestic cybersecurity incidents. The 
Department of Justice (DOJ) is responsible for the investigation, 
attribution, disruption, and prosecution of cybercrimes outside of 
military jurisdiction.
    As in other domains, the Department of Defense (DOD) supports DHS 
and DOJ when necessary and through those agencies, can support the 
private sector and state/local governments. For example, DOD is 
developing capabilities to respond and defend its own network that 
could provide support to DHS and the Federal Bureau of Investigation 
during an emergency through the Defense Support of Civil Authorities 
process.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    71. Senator Gillibrand. What changes to legislation do you need to 
provide a better response to a domestic cyber incident and complement 
the efforts of DHS and FBI?
    Secretary Work. The Department supports legislation to increase 
information sharing between government and industry that will improve 
the Nation's cybersecurity posture. While many companies currently 
share cybersecurity threat information under existing laws, there is a 
growing need to increase the volume and speed of information shared 
without sacrificing the protection of privacy, confidentiality, civil 
rights, or civil liberties. It is essential to ensure that cyber threat 
information can be shared quickly between trusted partners so that 
network owners and operators can take the necessary steps to block 
threats and avoid damage. The Department also supports other key 
provisions, such as data breach and cybercriminal provisions, included 
in the President's legislative proposal submitted earlier this year.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
           reserves and the national guard/homeland security
    72. Senator Gillibrand. DOD put out its report about the role of 
the reserve component in cyber last year. Can you please tell us what 
capabilities have already been set up?
    Secretary Work. As the Department continues to strengthen the Cyber 
Mission Force, we recognize the need to incorporate the strengths and 
skills inherent within the Reserve and National Guard forces. Each 
Service developed Reserve Component integration strategies that embrace 
Active Component capabilities in the cyberspace domain and leverage the 
Reserve and National Guard strengths from the private sector. Up to 
2,000 Reserve and National Guard personnel support the Cyber Mission 
Force and allow the Department to surge cyber forces in a crisis.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    73. Senator Gillibrand. When will the reserve component teams be 
trained to NSA standards and what are the impediments to getting them 
on board?
    Secretary Work. Reserve Component teams are already trained to the 
National Security Agency's (NSA) standards, the training courses they 
receive depend on their individual role within the Cyber Mission Teams. 
The Air Force, Navy and Army undergraduate cyber training course, which 
the Reserve Component attends, has been accredited by the NSA and meets 
all NSA requirements for Cyber Protection Teams mission roles. For 
other roles and missions, Cyber Mission Teams and National Mission 
Teams, additional training may be required and is conducted by the NSA. 
I see no impediments at this time
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    74. Senator Gillibrand. What missions will the reserve component 
teams have both at CYBERCOM and at the service level?
    Secretary Work. As stated in the Department of Defense Cyber 
Strategy, the Department draws on the National Guard and Reserve 
Components as a resource for expertise and to foster creative solutions 
to cybersecurity problems. The Reserve Component (RC) offers unique 
capabilities for supporting each of the Department's missions, 
including engaging the defense industrial base and the commercial 
sector. It represents a critical surge capacity for cyber responders.
    Specific to USCYBERCOM and the Services, the Department is 
integrating approximately 2,000 Reserve Component personnel into the 
Cyber Mission Force to contribute Cyber Protection Teams (CPT) as well 
as to provide surge support. While there are RC personnel qualified to 
perform National Mission Team and Combat Mission Team tasks to defend 
the Nation and support combatant commander tasks, most RC personnel and 
units align most closely with the CPT mission, which is the most 
similar to their professional civilian roles. These CPT units are 
aligned to the Services to protect Service networks.
    Admiral Rogers. The reserve component personnel assigned to U.S. 
Cyber Command (USCYBERCOM), while in active duty status, will continue 
to play vital roles on the Cyber Mission Force (CMF) teams and in other 
areas. Currently, several Air National Guard squadrons are training to 
support key Cyber National Mission Force, Service, and Combatant 
Command aligned CMF teams. The Army National Guard currently 
supplements USCYBERCOM's staff in specialized areas and performs 
critical missions. The Army National Guard is currently developing a 
method to source cyber professionals nationwide to aid USCYBERCOM in 
these roles. Army, Navy, Marines and Air Force reservists have 
supported USCYBERCOM from its conception with military and civilian 
cyber skills and training. At Camp Parks, California we have maintained 
a group of expert reserve intelligence personnel producing high quality 
cyber intelligence products for over six years. Our use and planned use 
of reserve personnel provide an instant force multiplier for the 
Command, DOD and the United States.

    75. Senator Gillibrand. Admiral Rogers, you also told us that 
``Because we're still really focused on the initial cadre [of cyber 
warriors], the challenge is going to be, `So, how do you sustain it as 
people come and go? That's something we're going to be in the--in the 
next year or two, in particular, spending a lot of time on.' Can you 
please explain how you are planning to develop that next cadre?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    76. Senator Gillibrand. What might be the role of the reserve 
component in this next stage of cadre development?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    77. Senator Gillibrand. As members transition to other positions 
both in the military and in the civilian sector, how do you think the 
reserve components can help retain the talent of the individuals 
already trained?
    Secretary Work. This is a key focus area for the Department. Cyber 
talent, whether serving in the Active Duty or Reserve Component, is the 
same. Ensuring the highest return on investment for our cyber training 
is necessary. The ``DOD Cyber Strategy'' challenges the Department to 
use the National Guard and Reserves as a resource for expertise and to 
foster creative solutions to cybersecurity problems. Retaining that 
talent is a focus point for my attention.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                              recruitment
    78. Senator Gillibrand. It is my understanding that the training 
necessary to build a cyber-warrior can take up to 2 years. How do you 
envision the development not only of separate specialties for cyber but 
also career tracks for these cyber warriors?
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

    79. Senator Gillibrand. What direction has been given to the 
services regarding recruiting goals and priorities for individuals with 
skills and aptitudes relevant to the needs of CYBERCOM?
    Secretary Work. The Department of Defense Cyber Strategy Strategic 
Goal #1 is to ``Build and Maintain Ready Forces and Capabilities to 
Conduct Cyberspace Operations.'' The Office of the Undersecretary of 
Defense for Personnel and Readiness and the Office of the Department of 
Defense Chief Information Officer, in coordination with the Military 
Departments, USCYBERCOM, and the Joint Staff, are leading this line of 
effort, which is specifically focused on recruiting, retention, 
training and other developmental needs for building viable career paths 
for these recruits. We recognize that the talent pool is highly 
competitive for each of the Services and U.S. Cyber Command, which 
continue to mature their cyber aptitude assessments to better identify 
talent with the potential to succeed in the cyber workforce. Recruiting 
goals are important, but just as important are viable career paths for 
cyber recruits; such career paths are a critical piece of the solution. 
Our objective is to create a career path model with established 
standards to meet mission requirements and career progression. To that 
end, the Department is focused not only on recruiting the appropriate 
talent to meet mission requirements at more senior levels, we are also 
focused on growing cyber talent at the entry level through a more 
robust on-campus recruiting effort targeting students and recent 
graduates, which is one of the highest priority civilian workforce 
Force of the Future initiatives.
    Admiral Rogers.

    80. Senator Gillibrand. In your opinion, what can Congress do to 
assist DOD in this effort of recruitment and retention?
    Secretary Work. The improving economy and scaled-back advertising 
campaigns over the past decade have reduced both the number of young 
Americans considering military service and their understanding of 
military service. Evidence of this trend is the fact that the most 
recent survey by the Joint Advertising, Market Research and Studies 
(JAMRS) office indicated that only one in four young Americans can name 
all the military services. Given this trend, we anticipate that meeting 
recruiting goals with high-quality and diverse candidates will become 
increasingly more difficult, particularly if the projected budget 
constraints persist. As the realities of sequestration and shrinking 
defense budgets continue, the impact to force readiness will remain a 
significant and constant concern; lost messaging and reduced recruiting 
presence further compounds this issue. Absent near-term relief, the 
Military Departments will have to choose between maintaining critical 
infrastructure and sustaining the All-Volunteer Force.
    We have committed to investing in our recruiting data analytics in 
JAMRS as part of our force of the future initiatives to help us better 
target the qualified candidates in the youth population. Continued 
congressional support is essential to maintaining adequate investments 
in recruiting resources, which will generate the future force upon 
which the nation will depend. Mass marketing in traditional media, as 
well as more tailored social media campaigns will provide increased 
opportunities to afford both young Americans and their influencers 
(e.g., parents, teachers and coaches, clergy) access to accurate 
information about military service.
    The Department is also looking for greater flexibilities, as 
specified in the Defense Officer Personnel Management Act related 
legislative proposals submitted to Congress, to assist the Military 
Services in attracting, recruiting, and retaining highly skilled 
individuals and high performers. Today, we can access exceptionally 
skilled and experienced doctors and dentists into the Services and 
award constructive service credit up to the grade of colonel in the 
Army, Air Force, or Marine Corps, or captain in the Navy. However, as 
we look at emerging requirements, we see that this authority may be 
equally useful in attracting highly skilled personnel in a wide array 
of technical or scientific fields, to include cyberspace, that are 
difficult to fill and require extensive training, education, or 
experience not widely available within the Military departments.

    81. Senator Gillibrand. As we start planning for the FY17 NDAA, are 
there any issues with regards to recruitment and retention, the role of 
DOD in a whole-of-nation approach, or the role of the reserve component 
that you would like to see addressed?
    Secretary Work. While the American public clearly has faith in the 
efficacy of our military, a disconnect, defined by lack of knowledge, 
misperceptions, and an inability to identify with those who choose to 
serve, has emerged in today's society. This disconnect threatens our 
ability to recruit quality youth with needed skill sets to maintain our 
military force. A variety of circumstances have contributed to the 
disconnect, such as a shrinking/disappearing military footprint in 
parts of our country, declining veteran presence, a perception that 
military service will result in disability or Post-Traumatic Stress 
Disorder, and reduced recruiting advertising due to budget reductions. 
This disconnect is compounded by the number of youth not qualified for 
military service (about 71 percent), and the relatively low propensity 
for youth to serve (12 percent). Given appropriate resources, the 
Department will be proactive and ensure the appropriate recruiting 
tools are available to address these changes in the recruiting 
environment. Additionally, while the Military Departments have been 
successful in achieving their retention goals in recent years, the 
improving economy and job market, compounded by tightening budgets, 
will make it more difficult to retain many of the most experienced 
service members with high-demand skills.
                               __________
              Questions Submitted by Senator Joe Donnelly
                           hardware assurance
    82. Senator Donnelly. Secretary Work, I have been to NSWC Crane in 
Indiana on several occasions and have witnessed the efforts on trusted 
electronics/high reliability hardware being accomplished there. The 
work at NSWC Crane supports our nation's nuclear deterrence programs 
such as the Navy's Strategic Systems Program and recently they have 
begun collaborating with the Air Force to support that service's 
strategic capabilities. What are your thoughts on how this emerging 
collaboration within DOD can be extended to a collaborative effort with 
DoE to address the emerging threats to our nation's trusted defense 
systems?
    Secretary Work. The Department is already working in cooperation 
with the Department of Energy (DOE) to mitigate supply chain 
vulnerabilities. DOE is updating their nuclear security policies to 
incorporate a Weapon Trust Assurance program and a Supply Chain Risk 
Management program to ensure malicious hardware or software does not 
enter the Nuclear Security Enterprise supply chain. DOE recently became 
a participant in the Joint Federated Assurance Center (JFAC), which was 
established to improve collaboration among hardware and software 
assurance capabilities like those that Naval Surface Warfare Center 
(NSWC) Crane possesses and to make these capabilities visible to 
defense system programs. The JFAC considers Sandia National Laboratory 
and other DOE laboratories to be potential service providers. DOE 
participation in the JFAC resulted from collaboration between DOD and 
DOE leadership on microelectronics assurance activities via the Mission 
Executive Council, which is an interagency body chartered to promote 
common interests.

    83. Senator Donnelly. Secretary Work, Section 937 of the National 
Defense Authorization Act for Fiscal Year 2014 established a Joint 
Federated Assurance Center (JFAC) ``to serve as a joint, Department-
wide federation of capabilities to support the trusted defense system 
needs of the Department to ensure security in the software and hardware 
developed, acquired, maintained and used by the Department, pursuant to 
the trusted defense systems strategy and the Department and supporting 
policies related to software assurance and supply chain risk 
management.'' NSWC Crane in Indiana has become one of our nation's 
thought leaders on this topic and holds a ``hardware'' leadership role 
within JFAC. In general, how is JFAC addressing the critical 
requirements of combating threats to the strategic electronics supply 
chain and providing assurance to our strategic deterrence?
    Secretary Work. NSWC Crane leads the Joint Federated Assurance 
Center (JFAC) Hardware Assurance (HwA) Technical Working Group, which 
includes representation from the Military Departments, the National 
Security Agency, and the Defense Microelectronics Activity. The JFAC 
HwA efforts promote coordination, collaboration, and communication in 
order to spread best practices in mitigating or countering threats to 
the strategic electronics supply chain and to foster sharing of 
assurance resources in support of program needs. We have established a 
JFAC operational concept and piloted several cases where critical needs 
for software assurance (SwA) and HwA have been met. In FY 2016, pilots 
will include JFAC efforts within the strategic deterrence enterprise, 
promote Department SwA and HwA capabilities, and provide guidance on 
how to request and integrate these technical assessments into 
acquisition programs. The JFAC will monitor demand for SwA and HwA 
support and identify future capability and capacity needs.

    84. Senator Donnelly. Secretary Work, more specifically, in light 
of the IBM Foundry sale, what is the role of JFAC in assuring the 
integrity of integrated circuits not manufactured in a trusted foundry?
    Secretary Work. For critical parts not manufactured in a trusted 
foundry, the Joint Federated Assurance Center (JFAC) will enable 
acquisition programs to evaluate trustworthiness of microelectronics 
software and hardware. In light of the IBM Foundry sale, the JFAC plays 
an important role in maintaining a library of techniques used to 
determine the integrity and authenticity of application-specific 
integrated circuits that may now be produced in other foundries. The 
JFAC will help acquisition programs plan and implement assurance 
activities including vulnerability assessment, detection, analysis, and 
mitigation. Through the JFAC, participating organizations will share 
information about emerging threats and capabilities, software and 
hardware assessment tools and services, and best practices. Assurance 
services include inspection, functional verification, physical 
verification, vulnerability detection, detailed analysis, assessment, 
and, in a growing number of instances, recommendations for remediation.
                               __________
                Questions Submitted by Senator Tim Kaine
                      u.s. cyber command workforce
    85. Senator Kaine. Secretary Work and Admiral Rogers, U.S. Cyber 
Command's current manning goals have been reported as 133 cyber mission 
teams, requiring approximately 6200 trained personnel by the close of 
2016. Does DOD still anticipate reaching this goal by the end of next 
year? Please elaborate on challenges experienced hiring sufficiently 
skilled operators and whether or not there are unique challenges to the 
Armed Services compared to the cyber industry overall. Most 
importantly, explain how the full staffing of U.S. Cyber Command will 
be affected--numbers and timeline--if a budget agreement is delayed or 
not reached by the end of CY15.
    Secretary Work. Answer is for official use only and will be 
retained in committee files.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.
                          non-defense agencies
    86. Senator Kaine. Director Clapper and Admiral Rogers, despite 
attempts to use OCO funding to mitigate BCA funding for defense, 
sequestration level funding will severely decrease budgets at federal 
agencies that closely coordinate with DOD on cyber activities. With DHS 
designated as the lead agency for cyber protection of non-defense 
domains, it is presumed that any funding loss will hamper cyber 
operations at all our government agencies, particularly for non-DOD 
efforts related to law enforcement and cyber-related investigations. 
Please elaborate on any national security concerns if funding is not 
provided for a comprehensive interagency cyber effort for contingency 
operations abroad and for ongoing cyber surveillance and protection 
programs that rely on both DOD and non-defense agencies to work 
effectively.
    Director Clapper did not respond in time for printing. When 
received, answer will be retained in committee files.
    Admiral Rogers. Answer is for official use only and will be 
retained in committee files.

                                 [all]
</pre></body></html>
